<html>
<title> - CLIMATE CHANGE AND BALANCED ENERGY POLICY ACT</title>
<body><pre>[Senate Hearing 107-189]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-189

                      CLIMATE CHANGE AND BALANCED 
                           ENERGY POLICY ACT

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   on

            SCIENCE AND TECHNOLOGY STUDIES ON CLIMATE CHANGE

                                  and

                                 S. 597

   TO PROVIDE FOR A COMPREHENSIVE AND BALANCED NATIONAL ENERGY POLICY

                               __________

                             JUNE 28, 2001


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
76-302 PDF                  WASHINGTON : 
2001

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
BOB GRAHAM, Florida                  DON NICKLES, Oklahoma
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CRAIG THOMAS, Wyoming
EVAN BAYH, Indiana                   GORDON SMITH, Oregon
BLANCHE L. LINCOLN, Arkansas         JIM BUNNING, Kentucky
                                     PETER G. FITZGERALD, Illinois
                                     CONRAD BURNS, Montana

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               Brian P. Malnak, Republican Staff Director
               James P. Beirne, Republican Chief Counsel
                     Shirley Neff, Staff Economist

                                     
                                     
                                     

Note: Senator Bingaman assumed the Chairmanship on June 6, 2001.






                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Barron, Eric J., Ph.D., Professor and Director, Earth and Mineral 
  Sciences Environment Institute, The Pennsylvania State 
  University, College Park, PA...................................    14
Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     1
Chandler, William, Senior Staff Scientist and Director, Advanced 
  International Studies Unit, Pacific Northwest National 
  Laboratory.....................................................    31
Craig, Hon. Larry E., U.S. Senator from Idaho....................     2
Edmonds, Dr. James, Senior Staff Scientist, Pacific Northwest 
  National Laboratory, Battelle Memorial Institute...............    26
Friedman, Dr. Robert M., Vice President for Research, the H. John 
  Heinz III Center for Science, Economics and the Environment....    40
Hagel, Hon. Chuck, U.S. Senator from Nebraska....................     3
Levine, Dr. Mark D., Director, Environmental Energy Technologies 
  Division, Lawrence Berkeley National Laboratory, Berkeley, CA..    45
Murkowski, Hon. Frank H., U.S. Senator from Alaska...............     3
Rowland, F. Sherwood, Ph.D., Donald Bren Research Professor of 
  Chemistry and Earth System Science, University of California at 
  Ervine, Irvine, CA.............................................     6
Wallace, John M., Ph.D., Professor of Atmospheric Sciences, 
  University of Washington, Seattle, WA..........................    10

                                APPENDIX

Responses to additional questions................................    55

 
                      CLIMATE CHANGE AND BALANCED 
                           ENERGY POLICY ACT

                              ----------                              


                        THURSDAY, JUNE 28, 2001

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:37 a.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Jeff 
Bingaman, chairman, presiding.

           OPENING STATEMENT OF HON. JEFF BINGAMAN, 
                  U.S. SENATOR FROM NEW MEXICO

    The Chairman. Let me call the hearing to order and thank 
everybody for attending.
    Today, we will take testimony from two panels of experts, 
first, on the recently released National Research Council 
report on the science of climate change, followed by a second 
panel on energy technology options for managing the risks posed 
by climate change.
    I am sorry that the hearing this morning conflicts with a 
markup in the Appropriations Committee on the Interior bill. 
There are several members of our committee who have expressed 
regret at not being able to participate this morning and hear 
this presentation.
    Clearly, there is a widespread consensus that warming of 
the earth's surface is occurring and that human activity is a 
significant contributor. We also know that any sustained effort 
to reduce greenhouse gas emissions would have a substantial 
effect on energy policy since roughly 98 percent of U.S. carbon 
emissions result from fossil fuel combustion. That is a 
combination of coal and oil and natural gas.
    A well-crafted technology policy is critical to 
accelerating the development and adoption of new technologies 
for lowering the emissions of greenhouse gases. Energy 
technologies that have already been developed and those under 
development, which will be deployed over the next few decades, 
will largely determine the world energy system for most of the 
next century. Yet, as the Heinz Center study points out, the 
Nation's present science and technology system is highly 
decentralized with no compelling mission to reduce greenhouse 
gas emissions.
    In my view, it is our responsibility as policymakers to 
provide the necessary focus to the various technology programs 
to ensure that we are moving toward sustainable outcomes. Smart 
policies can significantly reduce not only carbon dioxide 
emissions but other air pollutants. Petroleum dependence as 
well can be reduced, and we can increase the efficiency of both 
energy production and use.
    In addition, there are many opportunities for the United 
States to cooperate with other countries--industrial, 
transition, and developing countries alike--in developing and 
deploying energy efficient technologies. In order to take 
advantage of those opportunities, we need to change our own 
policies. Existing Federal programs for energy cooperation are 
not adequate neither from the standpoint of addressing the need 
nor ensuring that competitive opportunities are available to 
U.S. industry.
    Many developing and transition economies are building homes 
and factories with out-of-date technologies which will be used 
for many decades. In doing so, developing nations are building 
in excessive costs, locking out environmental protection, and 
diminishing their own development potential.
    However, progress can be both rapid and significant. China, 
through the energy sector reform and pursuit of energy 
efficiency opportunities, has made unprecedented progress in 
reducing energy intensity and carbon dioxide emissions. With 
technology and the right energy policies, developing countries 
can meet their energy needs and reduce greenhouse gas emissions 
while freeing up funds for investment in other critical 
development needs.
    Section 111 of S. 597, which is a bill I introduced earlier 
this Congress with a number of cosponsors, establishes an 
interagency working group on clean energy technology transfer. 
This provision builds on Senator Byrd's initiative in the 
Energy and Water appropriations bill in the last Congress. I 
hope the witnesses on the second panel will offer their views 
as to whether this is the correct approach or how we should 
structure such an effort to be more effective.
    I hope that we can hear suggestions from today's witnesses 
to help us move forward in our design of energy and technology 
policies consistent with the goal of reducing greenhouse gas 
emissions, both domestically and internationally.
    Let me defer to Senator Murkowski for any opening statement 
he has before we begin with the witnesses.
    Let me alert everyone that we have been advised by the 
Majority Leader that there are votes starting at about 9:45, 
two votes in a row, which will probably require us to interrupt 
the hearing.
    But let us go ahead with Senator Murkowski's opening 
statement.
    [The prepared statements of Senators Craig and Hagel 
follow:]
   Prepared Statement of Hon. Larry E. Craig, U.S. Senator From Idaho
    Thank you, Mr. Chairman, for inviting these eminent climate 
scientists to testify before the Committee. I always welcome the 
opportunity to hear scientists, such as those before us today, 
communicate their understanding of this fascinating and often 
confounding subject.
    Mr. Chairman, let me also publicly state what a pleasure and a 
privilege it was for me to participate with you, Senator Jeff Sessions, 
Secretary Paul O'Neill, and Dr. Glenn Hubbard, the President's Chairman 
of the Council of Economic Advisors, in the four-hour Climate Science 
Forum sponsored by National Academies at its headquarters here in 
Washington, D.C. earlier this month.
    My only disappointment is that we didn't have more of our Senate 
colleagues in attendance, particularly those who have many times 
publicly expressed serious concern about this issue. Congress cannot 
continue to learn about this issue from media reports contained in 
newspapers and popular magazines. The issue is too economically and 
environmentally important for Congress to continue to have only a 
casual interest in its scientific complexity.
    As you know, Mr. Chairman, the National Academies made 
extraordinary efforts to get members of the Senate to attend its 
intensive Climate Science Forum, including sending a letter one month 
in advance of the forum to each member of the Senate, followed by a 
personal phone call to each Senate office. Perhaps, in the future, 
efforts to get the Senate's attention will be more fruitful.
    Those facts notwithstanding, Mr. Chairman, your presence at that 
forum was a clear statement of your genuine interest in objectively 
tackling this very important and complex scientific issue. I commend 
you for your willingness to search for ways to strengthen our 
scientific understanding of this issue and commit to joining you in 
that important effort.
    Your thoughtful and probing questions at the Forum stimulated a 
worthwhile dialogue that helped further advance my understanding of the 
issue. Clearly, many key uncertainties continue to plague our 
scientific community's progress toward a more confident understanding 
of what is happening to our global climate system.
    However, with proper direction from the National Academies, I am 
confident that we can make meaningful and appropriate investments in 
scientific research and technology development that will yield 
breakthroughs in our ability to better predict and adapt to any future 
climate changes.
    As you know, Mr. Chairman, I have invested much time and effort to 
understanding this issue. I have sought the counsel of many eminent 
scientists, three of whom are here today. Our national policy on this 
issue must evolve commensurately with the increasing confidence we 
achieve in our scientific understanding. Consensus on appropriate 
government action should be the cornerstone of that policy.
    It is my hope that under your leadership, the Committee will 
continue to actively pursue the productive dialogue we have begun with 
our scientific community. It is my belief that our increased 
understanding of the science will lead to a consensus on what 
bipartisan legislative action is appropriate to address one of the most 
important economic and environmental issues of our time.
    Thank you, Mr. Chairman.
                                 ______
                                 
   Prepared Statement of Hon. Chuck Hagel, U.S. Senator From Nebraska
    The National Academy of Sciences (NAS) report is a serious document 
on an important issue. As the report states, we do not know all of the 
factors contributing to climate change and the extent to which human 
activities or natural variables are playing a role. The report points 
out the vast uncertainties that remain and the need for major advances 
in our understanding and modeling of climate change. I agree with the 
need for greater research to enhance our knowledge of climate change. 
Reducing the uncertainties will help us make better decisions about the 
appropriate way to address this important issue.
    This report is certainly not a prescription for the drastic 
measures required under the Kyoto Protocol. Far from it.
    However, this report does provide us with enough evidence to move 
forward in a responsible, reasonable and achievable way to reduce 
greenhouse gas emissions. It provides us with a basis to move forward 
with an alternative to the Kyoto Protocol. That should be the goal of 
U.S. policymakers.
    It is also important to note that the NAS report concludes that the 
Summaries for Policy Makers of the U.N. Intergovernmental Panel on 
Climate Change (IPCC) tend to understate the uncertainties and 
overstate the conclusiveness of scientific reports. This has been a 
criticism of the IPCC process and must be considered when evaluating 
their reports.

      STATEMENT OF HON. FRANK H. MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thanks very much, Senator Bingaman. Good 
morning. We look forward to the testimony from our very 
qualified group.
    I think it is important to hold this hearing. It is 
certainly a topical subject. Having witnesses of the caliber of 
those from the National Academy review climatic science I think 
is very timely.
    I want to emphasize science because so much of our 
activities associated with this issue are based, to some 
extent, on emotion. I would remind our scientists that we are 
novices, obviously, and we depend on your recommendations. We 
kind of expect you to, if you will, put behind your 
recommendations your own personal experience, your scholarly 
commitments over the years, in other words, to some extent your 
reputation, because those of us on this panel have one of two 
alternatives. That is to vote yes or no. Now, that may be an 
oversimplification, but if we cannot depend on you folks for 
accurate evaluation based on your expertise and knowledge, as 
opposed to what we might get out of a public hearing, why, I do 
not know who we can depend on.
    In any event, I want to welcome you. I have often said the 
risk of climate change is a risk that we must recognize, 
address, manage, if you will, but to manage risks, I think you 
must first understand the risks that you face. That is where 
you gentlemen and others come in. Certainly the science 
suggests that we do face a risk of climate change from human 
activity.
    All scientists seem to agree that some climate change will 
result from the direct effect of adding greenhouse gases to the 
atmosphere. I am told that the mid-range estimate from the IPCC 
is a global average warming of about 5.4 degrees Fahrenheit by 
the end of the 21st century.
    But climate models used for those projections seem to 
differ on the role of the so-called feedbacks, particularly 
clouds, aerosols, and so forth. In fact, the NAS notes that the 
lack of understanding of these ``feedbacks'' appears to be a 
severe handicap to our ability to assess future climate 
changes.
    The report also suggests that ``without an understanding of 
the sources and degree of uncertainty, decision makers could 
fail to define the best ways to deal with serious issues of 
global warming.'' Obviously, we want to err, if we are going to 
err, on the side of safety and caution.
    I have always been somewhat intrigued with the ice core 
record from Greenland which shows historically the temperature 
variations, volcanic activity, a great deal of history of 
climate change. I have often wondered why there was not more 
scientific research in that area of a continuing nature. It 
seemed to be a bit inconsistent. Perhaps I do not know all the 
facts. In any event, there is some historical data that 
supports dramatic change.
    Now, some of my colleagues have suggested that this 
National Academy report on climate science is a call to action. 
I agree but I am wondering if the call is for improved climate 
monitoring and climate modeling, not necessarily a 
justification for caps on emissions. So, again, the decision 
should be made on science, not emotion.
    In my opinion, caps are no different from the flawed Kyoto 
Protocol that would place unfair, expansive and expensive 
limits on the U.S. production. When you consider rationing the 
amount of energy the United States could use, even though 
energy is key to the prosperity of the American way of life, 
adequate, low cost energy is a part of our standard of living 
in this country.
    The concern is over causing significantly higher energy 
costs: 53 percent higher it is estimated for gasoline under 
Kyoto; 86 percent increase in the cost of electricity. That is 
going to change the standard of living in this country.
    Reducing the rate of economic growth by as much as 4 
percent per year is going to affect a lot of jobs, hundreds of 
thousands of jobs. It could eliminate the surplus.
    But in any event, it could threaten American global 
competitiveness. Our biggest economic rivals would be exempt 
from emissions limits, and that is one of the major problems 
with the Kyoto accord. It does not allow, if you will, for us 
to use our technology to reduce their emissions. It simply 
seems to allow them to catch up.
    The U.N. Framework Convention on Climate Change, which the 
United States has ratified, calls for stabilization of 
greenhouse gas concentrations. But Kyoto will not stabilize 
concentrations. In fact, it will not make a measurable 
difference in the climate. Emissions from 130 developing 
nations will overwhelm any reductions made by the United States 
and 38 other countries.
    So, a new approach to managing the risk of climate change 
is really needed. I think our President has provided that 
starting point. I applaud the President for his leadership in 
the face of so much criticism from our European allies and 
radical environmental groups. Sometimes the right thing to do 
is not the most popular thing to do.
    The President's plan focuses on managing the risk of 
climate change using American technology and ingenuity and 
innovation, and America's can-do spirit; quantifying and 
understanding the risks of climate change through improved 
climate observations and models; developing tools we will need 
to reduce the future risk of climate change, advanced energy 
technologies.
    We will discuss with our second panel of witnesses a 
variety of these short- and long-term energy technology options 
that will help us reduce, avoid, or sequester greenhouse gas 
emissions. And I look forward from hearing from them as well.
    Personally I support cost effective actions to meet the 
long-term stabilization goal of the U.N. Framework Convention 
on Climate Change. It will require a fundamental change in the 
way that we produce the use energy--more energy with fewer 
emissions. It is not going to be as simple as regulating 
emissions. Certainly the question of reducing them out of 
existence is a major consideration. It is my hope that we can 
sit down at the table not long after this hearing and put forth 
a sensible bipartisan alternative to Kyoto.
    I just want to make one more observation. It is my 
understanding that the White House will be sending up its 
recommendations in outlined legislative form relative to the 
President's Energy Task Force report. I would hope that we can 
take this up promptly in the Senate. As many of you know, 
Senator Lott had proposed to take up energy immediately after 
taxes and education, and the Democratic leadership has not 
addressed it, to my knowledge, on the calendar.
    I feel that any delay in taking that up affects, to some 
extent, the security of this Nation. We are dependent on a 
plentiful supply of low cost energy, and anything to delay the 
development of an increased supply of energy and technology to 
reduce emissions, as well as increase efficiency, is going to 
affect the security of this Nation, the prosperity of this 
Nation, and certainly our standard of living.
    And I would appeal, again as I will every day that we hold 
a hearing, that the majority move the Griles nomination. It has 
been pending 35 days now and clearly Griles was not a part of 
the agreement that was made and dictated by the Democratic side 
that they would hold back on all nominees until after there was 
an agreement on the makeup of the committees. In Griles' case, 
he was brought up prior to the change and should have been 
moved, and there is simply no excuse for that.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    As I think we all know, the administration asked the NRC to 
assist in identifying areas in the science of climate change 
where there are certainties and uncertainties, and that report 
was prepared. We have three of the leaders who worked on that 
report here to testify. Why do we not try to go ahead with 
testimony right now and see if we can go for about 10 minutes 
before we have to leave for this vote. We will start with Dr. 
Sherwood Rowland, who is head of this panel. If you will go 
right ahead with your testimony.
    Let me say from the outset, we will include the complete 
testimony of all witnesses, as if read, in the record, but any 
comments you have or any summary you want to make, we would be 
anxious to hear.

 STATEMENT OF F. SHERWOOD ROWLAND, Ph.D., DONALD BREN RESEARCH 
PROFESSOR OF CHEMISTRY AND EARTH SYSTEM SCIENCE, UNIVERSITY OF 
                CALIFORNIA AT IRVINE, IRVINE, CA

    Dr. Rowland. Good morning, Mr. Chairman and members of the 
committee. My name is F. Sherwood Rowland. I am the Donald Bren 
Research Professor of Chemistry and Earth System Science at the 
University of California at Irvine and served as a member of 
the Committee on the Science of Climate Change of the National 
Research Council. The chairman of that committee was Ralph 
Cicerone, the chancellor at the University of California at 
Irvine. In addition, I am a member of the National Academy of 
Sciences and have served as its Foreign Secretary since 1994.
    This study originated from a White House request to help 
inform the administration's ongoing review of U.S. climate 
change policy. In particular, the written request asked for the 
National Academy's assistance in identifying the areas in the 
science of climate change where there are the greatest 
certainties and uncertainties and views on whether there are 
any substantive differences between the IPCC--that is, the 
Intergovernmental Panel on Climate change--reports and the IPCC 
summaries. In addition, based on discussions with the 
administration, specific questions were incorporated into the 
statement of task for the study. The White House asked for a 
response as soon as possible but no later than early June, less 
1 month after submitting its formal request.
    The National Academies is a private organization formed in 
1863 under a charter from the U.S. Government with a mandate 
arising from that charter to respond to government requests 
when asked. The National Academies draw no direct institutional 
funding from the U.S. Government, although the actual costs of 
the majority of its studies are reimbursed by the Government. 
In view of the critical nature of this issue, we agreed to 
undertake this study and to use our own funds to support it.
    The report does not make policy recommendations regarding 
what to do in response to the potential of global warming. 
Thus, it does not estimate the potential economic and 
environmental costs, benefits, and uncertainties regarding 
various policy responses and future human behaviors.
    Looking ahead for the next 100 years not only involves 
uncertainties in our understanding of the earth's climate 
system, but also estimates of changes which will result later 
in the century from choices not yet made. Inevitably such looks 
into the future have some near certainties. For instance, the 
global population will almost certainly grow from its present 6 
billion to 8 billion or 9 billion by mid-century. But there are 
other areas with much greater uncertainty. Nevertheless, 
science does provide us with the best available guide to the 
future, and it is critical that our Nation and the world base 
important policies on the best judgments that science can 
provide concerning the future consequences of present actions.
    Greenhouse gases are accumulating in Earth's atmosphere as 
a result of human activities, causing surface air temperatures 
and subsurface ocean temperatures to rise. Temperatures are in 
fact rising. The changes observed over the last several decades 
are likely mostly the consequence of human activities, but we 
cannot rule out that some significant part of these changes is 
also a reflection of natural variability.
    The most significant greenhouse gas is carbon dioxide which 
is not only formed by the natural processes of the decay of 
biological matter, but is also released by the burning of wood, 
coal, oil, and natural gas.
    Another greenhouse gas is methane, which from its natural 
emanation from waterlogged areas gained the name swamp gas, but 
is also released during agricultural activities such as rice 
growing and cattle raising.
    The gas which contributes the most to the greenhouse effect 
is water vapor for which the concentration is controlled almost 
entirely by the global temperature and therefore subject to an 
indirect effect from mankind through other activities which 
affect global temperature.
    Other greenhouse gases include nitrous oxide formed by 
bacterial reaction in soils, including attack on nitrogenous 
fertilizers; chlorofluorocarbons, synthetic chemicals now under 
global production bans because of their capability for 
depletion of stratospheric ozone; and tropospheric ozone, an 
important pollutant created in photochemical smog.
    The total contribution of these greenhouse gases, 
especially of carbon dioxide, will continue to accumulate 
during the 21st century and consequently human-induced warming 
and associated sea level rises are expected to continue as 
well.
    Secondary effects are suggested by computer model 
simulations and basic physical reasoning. These include 
increases in rainfall rates and increased susceptibility of 
semi-arid regions to drought. The impacts of these changes will 
be critically dependent on the magnitude of the warming and the 
rate with which it occurs.
    Surface temperature measurements, with near global 
coverage, have only been available since the latter half of the 
19th century. During that period, the average global 
temperature has increased by about 1.1 degrees Fahrenheit or .6 
degree Centigrade, with about half of that increase occurring 
during the last 2 decades. The warmest decade of that entire 
record occurred during the 1990's and the next warmest was that 
of the 1980's.
    My colleagues, Dr. Wallace and Dr. Barron, will present 
other aspects of our report from the National Academy. Thank 
you.
    [The prepared statement of Dr. Rowland follows:]
Prepared Statement of F. Sherwood Rowland, Ph.D., Donald Bren Research 
    Professor of Chemistry and Earth System Science, University of 
                    California at Irvine, Irvine, CA
    Good morning, Mr. Chairman and members of the Committee. My name is 
F. Sherwood Rowland. I am the Donald Bren Research Professor of 
Chemistry and Earth System Science at the University of California at 
Irvine and served as a member of the Committee on the Science of 
Climate Change of the National Research Council. In addition, I serve 
as the Foreign Secretary of the National Academy of Sciences.
    This study originated from a White House request to help inform the 
Administration's ongoing review of U.S. climate change policy. In 
particular, the written request asked for the National Academies' 
``assistance in identifying the areas in the science of climate change 
where there are the greatest certainties and uncertainties,'' and 
``views on whether there are any substantive differences between the 
IPCC [Intergovernmental Panel on Climate Change] reports and the IPCC 
summaries.'' In addition, based on discussions with the Administration, 
the following specific questions were incorporated into the statement 
of task for the study:

  <bullet> What is the range of natural variability in climate?
  <bullet> Are concentrations of greenhouse gases and other emissions 
        that contribute to climate change increasing at an accelerating 
        rate, and are different greenhouse gases and other emissions 
        increasing at different rates?
  <bullet> How long does it take to reduce the buildup of greenhouse 
        gases and other emissions that contribute to climate change?
  <bullet> What other emissions are contributing factors to climate 
        change (e.g., aerosols, CO, black carbon soot), and what is 
        their relative contribution to climate change?
  <bullet> Do different greenhouse gases and other emissions have 
        different draw down periods?
  <bullet> Are greenhouse gases causing climate change?
  <bullet> Is climate change occurring? If so, how?
  <bullet> Is human activity the cause of increased concentrations of 
        greenhouse gases and other emissions that contribute to climate 
        change?
  <bullet> How much of the expected climate change is the consequence 
        of climate feedback processes (e.g., water vapor, clouds, snow 
        packs)?
  <bullet> By how much will temperatures change over the next 100 years 
        and where?
  <bullet> What will be the consequences (e.g., extreme weather, health 
        effects) of increases of various magnitudes?
  <bullet> Has science determined whether there is a ``safe'' level of 
        concentration of greenhouse gases?
  <bullet> What are the substantive differences between the IPCC 
        Reports and the Summaries?
  <bullet> What are the specific areas of science that need to be 
        studied further, in order of priority, to advance our 
        understanding of climate change?

    The White House asked for a response ``as soon as possible'' but no 
later than early June--less than one month after submitting its formal 
request.
    The National Academies has a mandate arising from its 1863 charter 
to respond to government requests when asked. In view of the critical 
nature of this issue, we agreed to undertake this study and to use our 
own funds to support it.
    A committee with broad expertise and diverse perspectives on the 
scientific issues of climate change was therefore appointed through the 
National Academies' National Research Council. In early May, the 
committee held a conference call to discuss the specific questions and 
to prepare for its 2-day meeting (May 21-22, 2001) in Irvine, 
California. The committee reviewed the 14 questions and determined that 
they represent important issues in climate change science and could 
serve as a useful framework for addressing the two general questions 
from the White House.
    For the task of comparing IPCC Reports and Summaries, the committee 
focused its review on the work of IPCC Working Group I, which dealt 
with many of the same detailed questions being asked above. The 
committee decided to address the questions in the context of a brief 
document that also could serve as a primer for policy makers on climate 
change science.
    While traditional procedures for an independent NRC study, 
including review of the report by independent experts, were followed, 
it is important to note that tradeoffs were made in order to 
accommodate the rapid schedule. For example, the report does not 
provide extensive references to the scientific literature or marshal 
detailed evidence to support its ``answers'' to the questions. Rather, 
the report largely presents the consensus scientific views and 
judgments of committee members, based on the accumulated knowledge that 
these individuals have gained both through their own scholarly efforts 
and through formal and informal interactions with the world's climate 
change science community.
    The result is a report that provides policy makers with a succinct 
and balanced overview of what science can currently say about the 
potential for future climate change, while outlining the uncertainties 
that remain in our scientific knowledge.
    The report does not make policy recommendations regarding what to 
do about the potential of global warming. Thus, it does not estimate 
the potential economic and environmental costs, benefits, and 
uncertainties regarding various policy responses and future human 
behaviors. While beyond the charge presented to this committee, 
scientists and social scientists have the ability to provide 
assessments of this type as well. Both types of assessments can be 
helpful to policy makers, who frequently have to weigh tradeoffs and 
make decisions on important issues, despite the inevitable 
uncertainties in our scientific understanding concerning particular 
aspects. Science never has all the answers. But science does provide us 
with the best available guide to the future, and it is critical that 
our nation and the world base important policies on the best judgments 
that science can provide concerning the future consequences of present 
actions.
    The rest of my comments provide a general summary of the material 
in the report. My colleagues, Dr. Wallace and Dr. Barron, will provide 
detailed responses to the questions in their testimony.
    Greenhouse gases are accumulating in Earth's atmosphere as a result 
of human activities, causing surface air temperatures and subsurface 
ocean temperatures to rise. Temperatures are, in fact, rising. The 
changes observed over the last several decades are likely mostly due to 
human activities, but we cannot rule out that some significant part of 
these changes is also a reflection of natural variability. Human-
induced warming and associated sea level rises are expected to continue 
through the 21st century. Secondary effects are suggested by computer 
model simulations and basic physical reasoning. These include increases 
in rainfall rates and increased susceptibility of semi-arid regions to 
drought. The impacts of these changes will be critically dependent on 
the magnitude of the warming and the rate with which it occurs.
    The mid-range model estimate of human induced global warming by the 
Intergovernmental Panel on Climate Change (IPCC) is based on the 
premise that the growth rate of climate forcing agents such as carbon 
dioxide will accelerate. The predicted warming of 3 deg.C (5.4 deg.F) 
by the end of the 21st century is consistent with the assumptions about 
how clouds and atmospheric relative humidity will react to global 
warming. This estimate is also consistent with inferences about the 
sensitivity of climate drawn from comparing the sizes of past 
temperature swings between ice ages and intervening warmer periods with 
the corresponding changes in the climate forcing. This predicted 
temperature increase is sensitive to assumptions concerning future 
concentrations of greenhouse gases and aerosols. Hence, national policy 
decisions made now and in the longer-term future will influence the 
extent of any damage suffered by vulnerable human populations and 
ecosystems later in this century. Because there is considerable 
uncertainty in current understanding of how the climate system varies 
naturally and reacts to emissions of greenhouse gases and aerosols, 
current estimates of the magnitude of future warming should be regarded 
as tentative and subject to future adjustments (either upward or 
downward).
    Reducing the wide range of uncertainty inherent in current model 
predictions of global climate change will require major advances in 
understanding and modeling of both (1) the factors that determine 
atmospheric concentrations of greenhouse gases and aerosols, and (2) 
the so-called ``feedbacks'' that determine the sensitivity of the 
climate system to a prescribed increase in greenhouse gases. There also 
is a pressing need for a global observing system designed for 
monitoring climate.
    The committee generally agrees with the assessment of human-caused 
climate change presented in the IPCC Working Group I (WGI) scientific 
report, but seeks here to articulate more clearly the level of 
confidence that can be ascribed to those assessments and the caveats 
that need to be attached to them. This articulation may be helpful to 
policy makers as they consider a variety of options for mitigation and/
or adaptation.

    The Chairman. Thank you very much.
    They have started the last part of this vote. So, rather 
than to interrupt either of the next witnesses, I think I will 
just recess the hearing right now, and then as soon as we have 
made these two votes, we will be back here and we will continue 
with the testimony of the next two witnesses. We will stand in 
recess.
    [Recess.]
    The Chairman. Why do we not go ahead? I am sure some of the 
other members will be returning here as soon as the vote is 
over, but let me go ahead now with the other two witnesses on 
this panel. Dr. Wallace, why do you not go ahead with your 
statement, and then Dr. Barron.

       STATEMENT OF JOHN M. WALLACE, Ph.D., PROFESSOR OF 
  ATMOSPHERIC SCIENCES, UNIVERSITY OF WASHINGTON, SEATTLE, WA

    Dr. Wallace. Thank you. Good morning, Mr. Chairman and 
members of the committee. My name is John Wallace and I am a 
professor of atmospheric sciences at the University of 
Washington. I served as a member of the Committee on the 
Science of Climate Change of the National Research Council and 
I am member of the National Academy of Sciences.
    I am going to address just three of the dozen or so 
questions that the administration posed to us, and in the 
interest of providing plenty of time for discussion, I am going 
to make my answers quite brief here.
    The first of the three questions is: What is the range of 
natural variability of climate? This is a question that needs 
to be addressed looking at paleoclimate evidence, evidence from 
things such as the Greenland ice cores, which Senator Murkowski 
mentioned, for evidence of how climate has behaved over longer 
periods of time than we have observations. I should say that 
the ice cores are one of the most important pieces of the 
evidence. We believe that climate has varied by as much as 20 
degrees Fahrenheit locally in connection with the transitions 
between the ice age and the warmer interglacial cycles in 
between the glacial periods. So, 20 degrees locally and perhaps 
as much as 10 degree Fahrenheit in global average temperature.
    We believe that during the great thaw from the most recent 
ice age, that temperatures warmed quite rapidly for a few 
thousand year period and that we might have seen temperature 
increases of as much as 3 or 4 degrees per millennium during 
that time. It is notable that the 3 or 4 degrees per millennium 
would be just .3 or .4 of a degree per century, and that is 
smaller than the change that we have seen during the 20th 
century.
    The ice core records provided some surprising evidence of 
some abrupt changes of up to a few degrees, perhaps as much as 
5 degrees, locally during the recovery from the ice age period, 
though there has not been anything as striking as that in the 
last 5,000 to 8,000 years.
    The proxy evidence also shows wide variations in rainfall 
from century to century over areas like the United States. The 
Dust Bowl of the 20th century showed us what conditions were 
like much more typically back during the period from the 10th 
to the 14th centuries. Very severe droughts like that were much 
more common at that time than they have been recently. So, we 
have been living a charmed life, so to speak.
    Well, with that as a background, then to proceed to the two 
other questions. The first of them is, is the climate changing 
now, and if so, how? As Dr. Rowland mentioned, we do have 
measurements over the 20th century both at a wide array of 
surface stations on land and ship records also, millions and 
millions of observations of sea surface temperature and air 
temperature from ships, which indicated that over the earth's 
surface, temperatures warmed by about a degree Fahrenheit 
during the 20th century.
    We also have recent evidence of a warming within the ocean, 
down to depths of 10,000 feet or so, during the second half of 
the 20th century. We have seen a retreat of mountain glaciers 
over many areas of the world during this time and a good deal 
of other evidence of a gradual warming. That is detailed in the 
report, and I will not take the time to go into it here.
    It is worth noting, though, that the observed warming has 
not proceeded at a uniform rate. In fact, it was very rapid 
during the early part of the century, particularly the 1920's 
decade, and then temperatures leveled off for a while from the 
mid-1940's until the mid-1970's. I remember when I was in 
graduate school not hearing that there had been warming but 
that, if anything, there was a bit of cooling in the northern 
hemisphere at that time. That was back in the 1960's. But we 
have seen very rapid warming in the last 25 years or so.
    Another thing which is puzzling is that the temperature 
changes aloft, the temperature of the troposphere, the lowest 
5-mile thick layer of the atmosphere, have not kept pace with 
the changes at the earth's surface. During the 1970's, the 
balloon data that we have from that time indicated that the 
upper air temperatures were warming faster than the surface 
temperatures, and since 1980, the situation has been the other 
way around. So, a number of us in the community, as part of our 
research, are trying reconcile those differences.
    So, that brings me to the final question, are greenhouse 
gases causing climate change? This is one where we were careful 
with our wording because it is a delicate balance to just 
express this in the right way. I am going to read you a couple 
of sentences from our report.
    The IPCC's conclusion that most of the observed warming of 
the last 50 years is likely to have been due to the increase in 
greenhouse gas concentrations accurately reflects the current 
thinking of the scientific community on this issue. The stated 
degree of confidence in the IPCC assessment is higher today 
than it was 10 or even 5 years ago. I would certainly count 
myself among those who have swung in that direction. I would 
say 10 years ago I was kind of at the 80 percent level in 
agreement with it, and now I would count myself at the 90 
percent level.
    But we go on to say, uncertainty remains because the level 
of natural variability inherent in the climate system, on time 
scales of decades to centuries, is still uncertain. We do not 
know how much of the variability during the past century was 
due to natural causes, and we acknowledge that the ability of 
the models to simulate that variability is limited at this 
point. And there are also uncertainties in our knowledge of 
past climate, for which we have to rely on proxy evidence.
    But despite the certainties, we say that there is general 
agreement that the observed warming during the 20th century is 
real and particularly strong within the past 20 years.
    So, I would leave off at that point.
    [The prepared statement of Dr. Wallace follows:]
Prepared Statement of John M. Wallace, Ph.D., Professor of Atmospheric 
            Sciences, University of Washington, Seattle, WA
    Good morning, Mr. Chairman and members of the Committee. My name is 
John Wallace. I am a professor of Atmospheric Sciences at the 
University of Washington. I served as a member of the Committee on the 
Science of Climate Change of the National Research Council, and am a 
member of the National Academy of Sciences.
    My remarks summarize the committee's responses to eight of the 
questions.
What is the range of natural variability in climate?
    The range of natural climate variability is known to be quite large 
(in excess of several degrees Celsius) on local and regional spatial 
scales over periods as short as a decade. Precipitation also can vary 
widely. For example, there is evidence to suggest that droughts as 
severe as the ``dust bowl'' of the 1930s were much more common in the 
central United States during the 10th to 14th centuries than they have 
been in the more recent record. Mean temperature variations at local 
sites have exceeded 10 deg.C (18 deg.F) in association with the 
repeated glacial advances and retreats that occurred over the course of 
the past million years. It is more difficult to estimate the natural 
variability of global mean temperature because of the sparse spatial 
coverage of existing data and difficulties in inferring temperatures 
from various proxy data. Nonetheless, evidence suggests that global 
warming rates as large as 2 deg.C (3.6 deg.F) per millennium may have 
occurred during retreat of the glaciers following the most recent ice 
age.
Are concentrations of greenhouse gases and other emissions that 
        contribute to climate change increasing at an accelerating 
        rate, and are different greenhouse gases and other emissions 
        increasing at different rates? Is human activity the cause of 
        increased concentrations of greenhouse gases and other 
        emissions that contribute to climate change?
    The emissions of some greenhouse gases are increasing, but others 
are decreasing. In some cases the decreases are a result of policy 
decisions, while in other cases the reasons for the decreases are not 
well understood.
    Of the greenhouse gases that are directly influenced by human 
activity, the most important are carbon dioxide, methane, ozone, 
nitrous oxide, and chlorofluorocarbons (CFCs). Aerosols released by 
human activities are also capable of influencing climate. (Table 1 
lists the estimated climate forcing due to the presence of each of 
these ``climate forcing agents'' in the atmosphere.)
    Concentrations of carbon dioxide (CO<INF>2</INF>) extracted from 
ice cores drilled in Greenland and Antarctica have typically ranged 
from near 190 parts per million by volume (ppmv) during the ice ages to 
near 280 ppmv during the warmer ``interglacial'' periods like the 
present one that began around 10,000 years ago. Concentrations did not 
rise much above 280 ppmv until the Industrial Revolution. By 1958, when 
systematic atmospheric measurements began, they had reached 315 ppmv, 
and they are currently ~370 ppmv and rising at a rate of 1.5 ppmv per 
year (slightly higher than the rate during the early years of the 43-
year record). Human activities are responsible for the increase. The 
primary source, fossil fuel burning, has released roughly twice as much 
carbon dioxide as would be required to account for the observed 
increase. Tropical deforestation also has contributed to carbon dioxide 
releases during the past few decades. The excess carbon dioxide has 
been taken up by the oceans and land biosphere.
    Like carbon dioxide, methane (CH<INF>4</INF>) is more abundant in 
Earth's atmosphere now than at any time during the 400,000 year long 
ice core record, which dates back over a number of glacial/interglacial 
cycles. Concentrations increased rather smoothly by about 1% per year 
from 1978, until about 1990. The rate of increase slowed and became 
more erratic during the 1990s. About two-thirds of the current 
emissions of methane are released by human activities such as rice 
growing, the raising of cattle, coal mining, use of land-fills, and 
natural gas handling, all of which have increased over the past 50 
years.
    A small fraction of the ozone (O<INF>3</INF>) produced by natural 
processes in the stratosphere mixes into the lower atmosphere. This 
``tropospheric ozone'' has been supplemented during the 20th century by 
additional ozone, created locally by the action of sunlight upon air 
polluted by exhausts from motor vehicles, emissions from fossil fuel 
burning power plants, and biomass burning.
    Nitrous oxide (N<INF>2</INF>O) is formed by many microbial 
reactions in soils and waters, including those acting on the increasing 
amounts of nitrogen-containing fertilizers. Some synthetic chemical 
processes that release nitrous oxide have also been identified. Its 
concentration has increased approximately 13% in the past 200 years.
    Atmospheric concentrations of CFCs rose steadily following their 
first synthesis in 1928 and peaked in the early 1990s. Many other 
industrially useful fluorinated compounds (e.g., carbon tetrafluoride, 
CF<INF>4</INF>, and sulfur hexafluoride, SF<INF>6</INF>), have very 
long atmospheric lifetimes, which is of concern, even though their 
atmospheric concentrations have not yet produced large radiative 
forcings. Hydrofluorocarbons (HFCs), which are replacing CFCs, have a 
greenhouse effect, but it is much less pronounced because of their 
shorter atmospheric lifetimes. The sensitivity and generality of modern 
analytical systems make it quite unlikely that any currently 
significant greenhouse gases remain to be discovered.
What other emissions are contributing factors to climate change (e.g., 
        aerosols, CO, black carbon soot), and what is their relative 
        contribution to climate change?
    Besides greenhouse gases, human activity also contributes to the 
atmospheric burden of aerosols, which include both sulfate particles 
and black carbon (soot). Both are unevenly distributed, owing to their 
short lifetimes in the atmosphere. Sulfate particles scatter solar 
radiation back to space, thereby offsetting the greenhouse effect to 
some degree. Recent ``clean coal technologies'' and use of low sulfur 
fuels have resulted in decreasing sulfate concentrations, especially in 
North America, reducing this offset. Black carbon aerosols are end-
products of the incomplete combustion of fossil fuels and biomass 
burning (forest fires and land clearing). They impact radiation budgets 
both directly and indirectly; they are believed to contribute to global 
warming, although their relative importance is difficult to quantify at 
this point.
How long does it take to reduce the buildup of greenhouse gases and 
        other emissions that contribute to climate change? Do different 
        greenhouse gases and other emissions have different draw down 
        periods?

    Table 1.--REMOVAL TIMES AND CLIMATE FORCING VALUES FOR SPECIFIED
                     ATMOSPHERIC GASES AND AEROSOLS
------------------------------------------------------------------------
                                                     Climate forcing (W/
         Forcing agent               Approximate       m\2\) up to the
                                   removal times <SUP>a</SUP>        year 2000
------------------------------------------------------------------------
Greenhouse gases:
    Carbon Dioxide.............  >100 years          1.3 to 1.5
    Methane....................  10 years            0.5 to 0.7
    Tropospheric Ozone.........  10-100days          0.25 to 0.75
    Nitrous Oxide..............  100 years           0.1 to 0.2
    Perflourocarbon............  >1000 years         0.01
 
Fine Aerosols:
    Sulfate....................  10 days             -0.3 to -1.0
    Black Carbon...............  10 days             0.1 to 0.8
------------------------------------------------------------------------
<SUP>a</SUP> A removal time of 100 years means that much, but not all, of the
  substance would be gone in 100 years. Typically, the amount remaining
  at the end of 100 years is 37%; after 200 years 14%; after 300 years
  5%; after 400 years 2%.

Is climate change occurring? If so, how?
    Weather station records and ship-based observations indicate that 
global mean surface air temperature warmed between about 0.4 and 
0.8 deg.C (0.7 and 1.5 deg.F) during the 20th century. Although the 
magnitude of warming varies locally, the warming trend is spatially 
widespread and is consistent with an array of other evidence detailed 
in this report. The ocean, which represents the largest reservoir of 
heat in the climate system, has warmed by about 0.05 deg.C (0.09 deg.F) 
averaged over the layer extending from the surface down to 10,000 feet, 
since the 1950s.
    The observed warming has not proceeded at a uniform rate. Virtually 
all the 20th century warming in global surface air temperature occurred 
between the early 1900s and the 1940s and during the past few decades. 
The troposphere warmed much more during the 1970s than during the two 
subsequent decades, whereas Earth's surface warmed more during the past 
two decades than during the 1970s. The causes of these irregularities 
and the disparities in the timing are not completely understood. One 
striking change of the past 35 years is the cooling of the stratosphere 
at altitudes of ~13 miles, which has tended to be concentrated in the 
wintertime polar cap region.
Are greenhouse gases causing climate change?
    The IPCC's conclusion that most of the observed warming of the last 
50 years is likely to have been due to the increase in greenhouse gas 
concentrations accurately reflects the current thinking of the 
scientific community on this issue. The stated degree of confidence in 
the IPCC assessment is higher today than it was 10, or even 5 years 
ago, but uncertainty remains because of (1) the level of natural 
variability inherent in the climate system on time scales of decades to 
centuries, (2) the questionable ability of models to accurately 
simulate natural variability on those long time scales, and (3) the 
degree of confidence that can be placed on reconstructions of global 
mean temperature over the past millennium based on proxy evidence. 
Despite the uncertainties, there is general agreement that the observed 
warming is real and particularly strong within the past 20 years. 
Whether it is consistent with the change that would be expected in 
response to human activities is dependent upon what assumptions one 
makes about the time history of atmospheric concentrations of the 
various forcing agents, particularly aerosols.

    The Chairman. Thank you very much for your testimony.
    Dr. Barron, why do you not go right ahead?

  STATEMENT OF ERIC J. BARRON, Ph.D., PROFESSOR AND DIRECTOR, 
     EARTH AND MINERAL SCIENCES ENVIRONMENT INSTITUTE, THE 
        PENNSYLVANIA STATE UNIVERSITY, COLLEGE PARK, PA

    Dr. Barron. Good morning, Mr. Chairman, members of the 
committee. My name is Eric Barron. I direct the Earth and 
Mineral Sciences Environment Institute and am distinguished 
professor of Geosciences at Penn State University. I served as 
a member of the Committee on the Science of Climate Change of 
the National Research Council, and I also am currently the 
chair of the NRC's Board on Atmospheric Sciences and Climate.
    I am going to address the high points of the remaining 
questions of the report. The first one is, how much will 
temperatures change over the next 100 years and where?
    Based on IPCC emissions scenarios, by the end of this 
century, we expect something on the order of a 2.5 to 10.4 
degree Fahrenheit increase in temperatures relative to 1990. 
Now, that range, with a midpoint near 5 degrees Fahrenheit, 
reflects uncertainties in our ability to model and predict the 
future, and it also reflects differences and uncertainties in 
emissions scenarios.
    That is a globally averaged temperature, so you can expect 
the fabric of that change to be somewhat different. So, for 
example, we expect higher latitude temperatures to warm more 
than lower latitude and continental temperatures to warm more 
than oceanic temperatures. We also have an expectation that 
with warming you will have increased evaporation, and some 
regions will experience higher precipitation, and in 
experiencing higher precipitation, there is likely to be more 
event or heavy rainfall precipitation events. We will also have 
regions-most likely in the current semi-arid regions-like the 
Great Plains in which that increased evaporation is likely to 
result in an increased tendency for drying.
    One other issue is how much of the expected climate change 
is associated with feedbacks and how much of it is a direct 
influence of carbon dioxide. This question focuses directly on 
the climate sensitivity of the models. Basically when we come 
down to an analysis of this, looking at the biggest feedbacks, 
the factor is about a 2.5 enhancement of the direct effects of 
CO<INF>2</INF>. The two biggest feedbacks are associated with 
the fact that warming puts more water vapor into the atmosphere 
and water vapor serves as a greenhouse gas. And the second 
major feedback is called ice-albedo feedback. You are reducing 
the snow and ice cover, and therefore the earth is absorbing 
more solar energy. Those two factors give us this amplification 
of about 2.5.
    There are, of course, still some levels of uncertainties 
associated with cloud cover and the distribution of moisture 
within the atmosphere.
    A third question is, what will be the consequences of 
climate change of various magnitudes? Here we have both the 
U.S. national assessment of climate impacts and other recent 
NRC reports such as the one on climate and infectious disease. 
Basically what you can see is that there are several elements 
of the United States in particular which are fairly robust 
climate change. There are other elements of our society which 
are at greater risk.
    Just to give you few examples, if we look at agriculture in 
aggregate for the Nation, because of CO<INF>2</INF> 
fertilization, and water efficiency, you expect that 
agriculture in aggregate for the Nation looks to be in pretty 
good shape. Now, this also takes into account the distributions 
in the locations of crops and differences between small farmers 
and larger farmers and their ability to adapt.
    Looking at water and water resources, probably the two most 
significant issues that are important consequences, returns us 
again to the Great Plains and areas that are semi-arid today 
for which increased evaporation is likely to result in a 
greater tendency towards drying. We also see that in Western 
States that are particularly associated with snowpack for which 
their water supplies through the summer depend on melting of 
the snow that has accumulated in the winter, because the snow 
line is going up the sides of the mountains and you are melting 
that snow and ice more quickly during the spring, those regions 
may be more vulnerable.
    Increased rainfall events. If event rainfall is occurring, 
it would also have an impact on pollution runoff and control.
    With higher sea levels, even if severe storms like 
hurricanes do not change substantially, you would expect a 
higher sea level to create greater vulnerability for the same 
magnitude storm because it puts more coastal property at risk.
    Health is an important issue. It is one for which there is 
substantial debate associated with it. For example, we know 
that the distribution of vectors like a mosquito that cause 
disease such as malaria and dengue fever, will change in their 
distribution with climate change. But yet, we see substantial 
evidence that at least for the United States, because of our 
economic capability and because of a strong public health 
infrastructure, that we are capable of addressing these 
particular issues. The same thing is not necessarily true for 
the rest of the world.
    In terms of ecosystems, there are perhaps more substantial 
impacts because of an inability of many ecosystems to adapt to 
several of these particular changes.
    The next question was whether or not science has determined 
a safe level for the concentration of greenhouse gases. This is 
not an issue that is easy to address. It depends far too much 
on a value judgment for how significant the impacts and changes 
are over the surface of the earth, and it also requires that we 
have a very careful assessment of all of the different risks, 
advantages, and disadvantages. So, it is not something that is 
easy to determine.
    We were asked what were substantive differences between 
IPCC reports and the summaries. In large measure, we see the 
technical summary and the full report to be a very fine 
assessment of the state of the science. It is also true that 
when you condense all of that material into a summary for 
policymakers, you expect to see some differences in that 
process of condensation and in trying to call out what you 
think are the most significant issues.
    The last element of this set of questions is the further 
needs for science, in terms of addressing the uncertainties. 
You see about seven specific topics that range from greater 
efforts to understand the usage of fossil fuels to look at 
sources in sink terms for the greenhouse gases, to understand 
how these greenhouse gases and aerosols will evolve through 
time, what major changes in particular regions will occur, 
improving our ability to address the sensitivity of the system.
    We also see that there is a need for an enhanced ability to 
cross and combine the disciplines and to focus science at an 
intersection with decision makers. Each of these things 
requires that we have a robust observing system, a strong 
effort dedicated to modeling and predicting climate change, and 
to ensure that climate research is supported and managed in a 
way that ensures innovation, effectiveness, and efficiency.
    Thank you.
    [The prepared statement of Dr. Barron follows:]
 Prepared Statement of Eric J. Barron, Ph.D., Professor and Director, 
 EMS Environment Institute, The Pennsylvania State University, College 
                                Park, PA
    Good morning, Mr. Chairman and members of the Committee. My name is 
Eric Barron. I am the Director of the Earth and Mineral Sciences 
Environment Institute and Distinguished Professor of Geosciences at 
Pennsylvania State University. I served as a member of the Committee on 
the Science of Climate Change of the National Research Council, and am 
currently the chair of the NRC's Board on Atmospheric Sciences and 
Climate.
    My remarks will focus on the committee's responses to the remaining 
questions.
By how much will temperatures change over the next 100 years and where?
    Climate change simulations for the period of 1990 to 2100 based on 
the IPCC emissions scenarios yield a globally-averaged surface 
temperature increase by the end of the century of 1.4 to 5.8 deg.C (2.5 
to 10.4 deg.F) relative to 1990. The wide range of uncertainty in these 
estimates reflects both the different assumptions about future 
concentrations of greenhouse gases and aerosols in the various 
scenarios considered by the IPCC and the differing climate 
sensitivities of the various climate models used in the simulations. 
The range of climate sensitivities implied by these predictions is 
generally consistent with previously reported values.
    The predicted warming is larger over higher latitudes than over low 
latitudes, especially during winter and spring, and larger over land 
than over sea. Rainfall rates and the frequency of heavy precipitation 
events are predicted to increase, particularly over the higher 
latitudes. Higher evaporation rates would accelerate the drying of 
soils following rain events, resulting in lower relative humidities and 
higher daytime temperatures, especially during the warm season. The 
likelihood that this effect could prove important is greatest in semi-
arid regions, such as the U.S. Great Plains. These predictions in the 
IPCC report are consistent with current understanding of the processes 
that control local climate.
    In addition to the IPCC scenarios for future increases in 
greenhouse gas concentrations, the committee considered a scenario 
based on an energy policy designed to keep climate change moderate in 
the next 50 years. This scenario takes into account not only the growth 
of carbon emissions, but also the changing concentrations of other 
greenhouse gases and aerosols.
    Sufficient time has elapsed now to enable comparisons between 
observed trends in the concentrations of carbon dioxide and other 
greenhouse gases with the trends predicted in previous IPCC reports. 
The increase of global fossil fuel carbon dioxide emissions in the past 
decade has averaged 0.6% per year, which is somewhat below the range of 
IPCC scenarios, and the same is true for atmospheric methane 
concentrations. It is not known whether these slowdowns in growth rate 
will persist.
How much of the expected climate change is the consequence of climate 
        feedback processes (e.g., water vapor, clouds, snow packs)?
    The contribution of feedbacks to the climate change depends upon 
``climate sensitivity,'' as described in the report. If a central 
estimate of climate sensitivity is used, about 40% of the predicted 
warming is due to the direct effects of greenhouse gases and aerosols. 
The other 60% is caused by feedbacks. Water vapor feedback (the 
additional greenhouse effect accruing from increasing concentrations of 
atmospheric water vapor as the atmosphere warms) is the most important 
feedback in the models. Unless the relative humidity in the tropical 
middle and upper troposphere drops, this effect is expected to increase 
the temperature response to increases in human induced greenhouse gas 
concentrations by a factor of 1.6. The ice-albedo feedback (the 
reduction in the fraction of incoming solar radiation reflected back to 
space as snow and ice cover recede) also is believed to be important. 
Together, these two feedbacks amplify the simulated climate response to 
the greenhouse gas forcing by a factor of 2.5. In addition, changes in 
cloud cover, in the relative amounts of high versus low clouds, and in 
the mean and vertical distribution of relative humidity could either 
enhance or reduce the amplitude of the warming. Much of the difference 
in predictions of global warming by various climate models is 
attributable to the fact that each model represents these processes in 
its own particular way. These uncertainties will remain until a more 
fundamental understanding of the processes that control atmospheric 
relative humidity and clouds is achieved.
What will be the consequences (e.g., extreme weather, health effects) 
        of increases of various magnitude?
    In the near term, agriculture and forestry are likely to benefit 
from carbon dioxide fertilization and an increased water efficiency of 
some plants at higher atmospheric CO<INF>2</INF> concentrations. The 
optimal climate for crops may change, requiring significant regional 
adaptations. Some models project an increased tendency toward drought 
over semi-arid regions, such as the U.S. Great Plains. Hydrologic 
impacts could be significant over the western United States, where much 
of the water supply is dependent on the amount of snow pack and the 
timing of the spring runoff. Increased rainfall rates could impact 
pollution run-off and flood control. With higher sea level, coastal 
regions could be subject to increased wind and flood damage even if 
tropical storms do not change in intensity. A significant warming also 
could have far reaching implications for ecosystems. The costs and 
risks involved are difficult to quantify at this point and are, in any 
case, beyond the scope of this brief report.
    Health outcomes in response to climate change are the subject of 
intense debate. Climate is one of a number of factors influencing the 
incidence of infectious disease. Cold-related stress would decline in a 
warmer climate, while heat stress and smog induced respiratory 
illnesses in major urban areas would increase, if no adaptation 
occurred. Over much of the United States, adverse health outcomes would 
likely be mitigated by a strong public health system, relatively high 
levels of public awareness, and a high standard of living.
    Global warming could well have serious adverse societal and 
ecological impacts by the end of this century, especially if globally-
averaged temperature increases approach the upper end of the IPCC 
projections. Even in the more conservative scenarios, the models 
project temperatures and sea levels that continue to increase well 
beyond the end of this century, suggesting that assessments that 
examine only the next 100 years may well underestimate the magnitude of 
the eventual impacts.
Has science determined whether there is a ``safe'' level of 
        concentration of greenhouse gases?
    The question of whether there exists a ``safe'' level of 
concentration of greenhouse gases cannot be answered directly because 
it would require a value judgment of what constitutes an acceptable 
risk to human welfare and ecosystems in various parts of the world, as 
well as a more quantitative assessment of the risks and costs 
associated with the various impacts of global warming. In general, 
however, risk increases with increases in both the rate and the 
magnitude of climate change.
What are the substantive differences between the IPCC Reports and the 
        Summaries?
    The committee finds that the full IPCC Working Group I (WGI) report 
is an admirable summary of research activities in climate science, and 
the full report is adequately summarized in the Technical Summary. The 
full WGI report and its Technical Summary are not specifically directed 
at policy. The Summary for Policymakers reflects less emphasis on 
communicating the basis for uncertainty and a stronger emphasis on 
areas of major concern associated with human-induced climate change. 
This change in emphasis appears to be the result of a summary process 
in which scientists work with policy makers on the document. Written 
responses from U.S. coordinating and lead scientific authors to the 
committee indicate, however, that (a) no changes were made without the 
consent of the convening lead authors (this group represents a fraction 
of the lead and contributing authors) and (b) most changes that did 
occur lacked significant impact.
    It is critical that the IPCC process remain truly representative of 
the scientific community. The committee's concerns focus primarily on 
whether the process is likely to become less representative in the 
future because of the growing voluntary time commitment required to 
participate as a lead or coordinating author and the potential that the 
scientific process will be viewed as being too heavily influenced by 
governments which have specific postures with regard to treaties, 
emission controls, and other policy instruments. The United States 
should promote actions that improve the IPCC process while also 
ensuring that its strengths are maintained.
What are the specific areas of science that need to be studied further, 
        in order of priority, to advance our understanding of climate 
        change?
    Making progress in reducing the large uncertainties in projections 
of future climate will require addressing a number of fundamental 
scientific questions relating to the buildup of greenhouses gases in 
the atmosphere and the behavior of the climate system. Issues that need 
to be addressed include (a) the future usage of fossil fuels, (b) the 
future emissions of methane, (c) the fraction of the future fossil-fuel 
carbon that will remain in the atmosphere and provide radiative forcing 
versus exchange with the oceans or net exchange with the land 
biosphere, (d) the feedbacks in the climate system that determine both 
the magnitude of the change and the rate of energy uptake by the 
oceans, which together determine the magnitude and time history of the 
temperature increases for a given radiative forcing, (e) details of the 
regional and local climate change consequent to an overall level of 
global climate change, (f) the nature and causes of the natural 
variability of climate and its interactions with forced changes, and 
(g) the direct and indirect effects of the changing distributions of 
aerosols. Maintaining a vigorous, ongoing program of basic research, 
funded and managed independently of the climate assessment activity, 
will be crucial for narrowing these uncertainties.
    In addition, the research enterprise dealing with environmental 
change and the interactions of human society with the environment must 
be enhanced. This includes support of (a) interdisciplinary research 
that couples physical, chemical, biological, and human systems, (b) an 
improved capability of integrating scientific knowledge, including its 
uncertainty, into effective decision support systems, and (c) an 
ability to conduct research at the regional or sectoral level that 
promotes analysis of the response of human and natural systems to 
multiple stresses.
    An effective strategy for advancing the understanding of climate 
change also will require (1) a global observing system in support of 
long-term climate monitoring and prediction, (2) concentration on 
large-scale modeling through increased, dedicated supercomputing and 
human resources, and (3) efforts to ensure that climate research is 
supported and managed to ensure innovation, effectiveness, and 
efficiency.

    The Chairman. Thank you very much.
    Let me just ask a few questions, and Senator Hagel I am 
sure will have questions.
    Let me sort of paraphrase the conclusions that I am drawing 
from what I hear from each of you here, and then just ask any 
of you, who want to, to comment on whether I have drawn the 
right conclusions.
    The consensus in the scientific community is that surface 
temperatures are rising; that most of the increased temperature 
is traced to the accumulation of these greenhouse gases, which 
human activity plays a major part in creating; that the 
temperature increase that you anticipate in the balance of this 
century is somewhere between 2.5 degrees and 10.4 degrees 
Fahrenheit. And I do not think there was direct testimony on 
this, but I think it is in your written testimony that the 
period for reducing these buildups of greenhouse gases is 
fairly extensive; that you can build them up in a decade or 2 
or a few decades, but getting them out of the atmosphere and 
reversing the process takes substantially longer.
    Any of you who would want to comment on any of those 
conclusions to tell me that I have misstated it or put the 
emphasis in the wrong place, I would be anxious to hear. Dr. 
Rowland?
    Dr. Rowland. I think that basically your summary is 
correct. The only place that I would modify is that the 
greenhouse gases are not all alike, and they have different 
capabilities of staying in the atmosphere.
    Carbon dioxide equilibrates with the surface waters of the 
ocean rapidly, and the removal of excess carbon dioxide depends 
upon surface waters mixing down into the deep ocean. That is 
the first major removal process, and that is of the order of a 
century. So, it is not going to be removed quickly.
    The chlorofluorocarbons, which are now covered by the 
Montreal Protocol, and which are not going into the atmosphere 
in any appreciable quantity now, have lifetimes of the order of 
100 years. I think I should say here that when we say 100 
years, that means that 1 century from now, 37 percent of what 
was there will still be there; 63 percent will have gone away. 
In 200 years, 15 percent will still be there, and in 300 years, 
5 percent. So, when we say a 100-year lifetime, there will 
still be quite a bit of holdover for another 2 or 3 centuries 
after that.
    The molecule methane has a lifetime in the atmosphere of 
the order of 10 years. So, if the origins of methane were 
brought under control--and I am not suggesting anything about 
those are or how they might be brought under control--then the 
atmosphere could be expected to react on a decadal time scale.
    And tropospheric ozone is part of smog, and it is produced 
every day in major cities all over the world and spreads from 
there. That excess ozone has a lifetime that is really in the 
category of weeks. So, tropospheric ozone is something where 
the response is very quick. But what response means is you have 
to solve the smog problem in each of those cities.
    So, it is a complex mixture, but typically things like 
carbon dioxide are there on the century time scale.
    The Chairman. Thank you very much.
    Do either of the other witnesses have an amendment to that?
    Dr. Wallace. A brief comment. I agree with everything you 
said. I think just a footnote to add to your third observation 
that the factor of almost 4 range in the predicted temperature 
rise over the next century, 2.5 to 10.5 degrees Fahrenheit--
just to note that range is wide not only because of our 
uncertainty about the way the atmosphere is going to respond to 
the greenhouse gases, but the uncertainties in how much 
greenhouse gases there are going to be a century from now. 
Actually if we were to agree on a single scenario to use as a 
basis for comparing what the models tell us, say, a doubling of 
carbon dioxide, then we would come out with a narrower range, 
something more like a factor of 2 rather than a factor of 4. I 
say that because this factor of 4 range makes it look like we 
almost do not know anything.
    The Chairman. So, let me try to understand. If we take that 
entire range, a 2.5 degree increase in temperature assumes how 
much in the way of increased carbon dioxide emissions?
    Dr. Wallace. See, that 2.5 is a rather optimistic 
prediction of the future greenhouse gas concentrations, the 
lowest end scenario, which implies very strong efforts on the 
part of nations to control concentrations.
    The Chairman. And does it imply that we have actually 
reduced the amount of greenhouse gas emissions that we are 
contributing to the atmosphere each year or that we are just 
slowing the growth?
    Dr. Wallace. A substantial slowing the growth in those low 
end scenarios. Then, on the other hand, the 10.5 degree 
estimate, the high one, Dr. Hansen has described it as a no 
policy scenario.
    The Chairman. It is just business as usual without any 
change in our policy or the policies of other countries on this 
issue.
    Dr. Wallace. And that would be compounded by the scientific 
uncertainty. That would be an estimate from a model that is the 
most sensitive to whatever level of greenhouse gas increase 
occurred. So, there are two kinds of uncertainties being 
compounded here in these estimates: one in how much greenhouse 
gases there are going to be, and second, how sensitive the 
climate system will be to whatever the increase is.
    The Chairman. Let me defer to Senator Hagel for any 
questions he has.
    Senator Hagel. Mr. Chairman, thank you.
    Gentlemen, welcome. We are grateful that you would share 
with us your expertise. As you have all stated, the National 
Academy of Sciences report states a vast world of uncertainty. 
So, thank you.
    The first question I would like to ask each of you, how 
much confidence would you as scientists put in our current 
computer model process to range out over 100 years and give 
some precision to what we can expect our great-great 
grandchildren to live with? A high degree of confidence, some 
degree? Do we need better modeling?
    Dr. Barron. You have to go variable by variable. So, if you 
took a global number, gave it within a range with a central 
number as being capturing the vast body of information, then I 
think you have to ascribe a fairly high level of confidence 
that you are going to be within that range, given that range of 
emissions scenarios.
    If you look sort of down scale and shorter phenomenon, then 
the level of uncertainty changes. So, you could take the 
hydrologic cycle, water and water resources, an important 
issue. What we see is, for some of these models, parts of the 
country like the Northeastern United States, the models are 
quite different. That suggests how the winter storms track and 
how thunderstorms develop in a scenario for global warming is 
somewhat uncertain.
    But then you can look at other aspects and realize that as 
long as the main structure of the circulation remains the same, 
the Great Plain States are not going to be altered 
dramatically, and you are not going to be able to get high 
rainfall in the Great Plains in the lee of the Rocky Mountains 
with a different climate. Yet, you are going to have higher 
evaporation rates because it is going to be warmer, and that is 
going to increase the tendency towards aridity. The same thing, 
if you have increased warming, you are very likely to move the 
snow line to a higher elevation and have less storage of snow 
for all those Western States.
    So, what you see is that on a level of a global aggregate 
cited within a range, the community gives you a high level of 
confidence. Then you start to look at particular variables, and 
you discover that in some cases we cannot be so certain. In 
other cases, it is hard to imagine the changes to be very 
different.
    Well, then we can come down and look at natural variability 
and the structure of particular storms, and because we are not 
actually simulating them, you end up with a higher level of 
uncertainty.
    Or you look at the response to vegetation, and all of a 
sudden, you have to realize that you have human habitations 
that are there, pests that you have to incorporate, whether the 
weeds are going to be more fertilized by CO<INF>2</INF> than 
are plants that people would consider not to be weeds, and the 
level of uncertainty increases.
    So, there is not a simple answer to the question. Some 
things we have a very good understanding of. Some of the 
specifics for specific regions and specific times, we do not 
have a high level of confidence in.
    Senator Hagel. Dr. Wallace, thank you.
    Dr. Wallace. Senator Hagel, I guess the best way I could 
try to respond to your question would be to focus on what is 
the second paragraph of the summary, which talks about an 
estimate of something on the order of 5 degrees Fahrenheit 
temperature rise for a doubling of carbon dioxide. That is an 
effort to try to be concrete, to focus on one scenario.
    I think that that 5 degree estimate has a lot of backing 
for it. It is not based simply on just throwing it into the 
models and seeing what the models do, but one can do simple, 
``back of the envelope'' calculations with the basic physics in 
those models that says that if you assume that water in the 
atmosphere is going to behave in that warmer world the way it 
does today, that we are going to have relative humidities and 
cloud amounts like we have today, then that is the number you 
are going to get, something like 5 degrees Fahrenheit.
    You can make that number different if you want. You can 
assume that the atmosphere is going to get dryer, that clouds 
are going to shrink. You can make it bigger by assuming the 
opposite kinds of changes.
    To be frank, we do not know whether they might go one way 
or the other, but in the absence of a real clear understanding 
of how they are going to change, it would seem like the most 
conservative assumption would be that they are going to behave 
much like they do now. So, that is where that 5 degrees comes 
from.
    It is also backed by the kind of sensitivity that we would 
need to explain the temperature changes that the ice core 
records tell us happened in connection with the ice ages and 
the ratio of those temperature changes to the changes in solar 
energy.
    So, I guess I would attach that same 90 percent kind of 
confidence to that number but with full admission that it could 
turn out to be too high or too low. But it is the best we can 
give you right now.
    Senator Hagel. Thank you.
    Dr. Rowland.
    Dr. Rowland. I would like to emphasize, underlying all of 
these calculations--and I am going to make this as an 
hypothesis not as a statement--that we think we understand how 
climate works. What one has not included and does not know how 
to include is suppose there is a part of it that we really do 
not understand. That is, what is the surprise that might be 
involved in it?
    We went through this in connection with the discussion of 
chlorofluorocarbons and stratospheric ozone depletion because 
the best understanding of the atmospheric science had not 
predicted that there would be a specialized loss of ozone over 
Antarctica. So, we went from a situation of saying we think 
that there will be some future loss--and, incidentally, now we 
are seeing some of that future loss--from the original 
mechanism. But there was, in addition to that, another process 
going on that changed the whole viewpoint of the scientific 
community, and eventually the regulatory community, because it 
was that which we did not understand which was suddenly showing 
up in a very strange place, but with very heavy ozone loss.
    So, all of the questions about what we expect for the 
future are done on slow changes in our current understanding, 
but back in the back of your mind is the concern maybe there is 
some unexpected change, the kind of thing that when one hears 
the climate community talking about the difference between 
considering climate as a switch or a dial, that is a dial that 
slowly turns up the temperature or a switch that goes from one 
system to another. In that other one, if there were such a 
change, then maybe there would be major changes in a very short 
time period. And we do not know anything about how to predict 
that concern.
    Senator Hagel. Thank you.
    Let me ask the three of you just a very quick question, a 
follow-up to this. I think you have all three made the point 
pretty well that there is a vast amount of uncertainty in this 
business for no other reason than all the different variables. 
My questions is, picking up on your point, Dr. Rowland, if you 
have one or two of these variables, which all of them are 
important--and I go back to what Dr. Lindzen, your colleague, 
has said recently about 25 years ago we were writing in Science 
magazine and other respected digests about the future of global 
cooling, and there was a pretty significant amount of 
projection based on models and other things that maybe we were 
going into a cooling period 25 years ago. Now, of course, we 
are not talking about that.
    But here is the question. If you see one or two or three of 
these variables change in some dramatic fashion, would that not 
affect the calculations?
    Dr. Rowland. It certainly would.
    The calculations of 25 years ago, before I even got into 
this business, had to do with the long-term expectation based 
on orbital geometry of the earth with respect to the sun. Those 
calculations are still there that say that the long-term future 
in the next few thousand years is that the climate ought to get 
colder, but it is sometime in the next few thousand years and 
does not envisage any rapid change such as that which we have 
seen over the last 2 decades.
    Senator Hagel. Dr. Wallace.
    Dr. Wallace. Just thinking back to 25 years ago, I was 
certainly with Dr. Lindzen at that time in being a real skeptic 
about the global cooling. In fact, I think most of the 
community had a rather amused view of that.
    Senator Hagel. But, nonetheless, it caught a lot of 
attention in very respected publications among respected 
scientists and meteorologists, of course, you and Dr. Lindzen 
notwithstanding.
    Dr. Wallace. The number of really solid refereed 
publications on that was pretty small. What I remember was more 
a lot of newspaper articles. In fact, I still have----
    Senator Hagel. We live by newspaper articles, Doctor.
    [Laughter.]
    Senator Hagel. Dr. Barron.
    Dr. Barron. I think we actually benefit enormously by 
having a community that is very skeptical and is constantly 
attacking all of our results. Individuals like Dr. Lindzen have 
focused a lot of attention on things that we do not know. One 
of the consequences of that and 30 years of study is that we 
have looked at this from a viewpoint of a long time scale past 
climates, the record of the last 1,000 years. We have been 
challenged to replicate the last century by including both the 
sun and the aerosols and CO<INF>2</INF>. And we have had an 
enormous national and international effort to look at the 
future.
    I think the combination of that sort of intensity of this 
scrutiny--the fact of the matter is that the questions are 
beginning to change. It is much rarer for people to look at a 
document like this and attempt to challenge the science in 
there, which is careful about citing ranges and areas of 
substantial agreement. Instead, the issues are changing to how 
significant is this level of change. I think that level of 
scrutiny, because we are truly a community of skeptics, has 
taken us a long way from 25 years ago.
    Senator Hagel. Thank you.
    Mr. Chairman, thank you.
    The Chairman. Thank you very much.
    Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman, and thank you 
for holding this historic hearing to cover these issues and for 
the excellent testimony that we have gotten today. I commend 
you on your report and analysis and the fact that we can add to 
the growing body of evidence that this is a very serious issue 
that we must deal with and take action to mitigate.
    I recently received a letter signed by almost 100 
Washington State scientists asking that we continue our efforts 
and immediately take action on this. I strongly support the 
views that were articulated in the letter.
    Dr. Wallace, great to have you here particularly as well.
    I know that one of the key findings of the NRC study was 
that there was a lack of resources for climate modeling, and 
that has greatly hampered our ability to assess future climate 
changes and the potential impact. There has been some 
dependence on international models--I think basically the 
Canadian and British models.
    Are there U.S. models that we can use? What do we need to 
do to make further progress on that?
    Dr. Wallace. I should start by saying that the National 
Academy has undertaken a study of precisely that issue, and I 
have for you a copy of that report that goes into your question 
in considerable detail.
    I think there are really two kinds of impediments that we 
have been facing in the scientific community in trying to keep 
up with the Joneses, so to speak, with the computing. One has 
been the fact that for an extended period of time, on the order 
of 10 years--I do not know the timing exactly--there has been 
protectionist legislation that, in effect, has prevented the 
atmospheric sciences community from being able to buy what has 
been the state-of-the-art, sort of vector supercomputers that 
have, by and large, been Japanese made during this period. We 
have not had a U.S. industry of our own that has even tried to 
keep current.
    A second problem that has contributed to this is that there 
has been strong leadership in our computing community pushing 
in the direction of what we call massively parallel computer 
architecture, in which we have a lot of small processors linked 
together doing a job by very sophisticated teamwork. This 
approach has been argued to be very promising for advanced 
scientific applications, but in fact it has not lived up to 
anything like its hoped-for potential in the climate modeling. 
The climate modeling does not seem to be amenable to that kind 
of computer architecture to the degree that people had hoped.
    So, as a result, the present status of the United States, 
in terms of computer capability, is very, very low. In fact, it 
is my understanding that there are countries like Brazil that 
have much more throughput for the kinds of computer modeling 
simulations that scientists are doing today.
    It is also my understanding that this ban on the 
importation of Japanese supercomputers has recently been 
lifted. But now it is a question of trying to take advantage of 
this new freedom and to get geared up with state-of-the- art 
computing and to get the community together as to how much of 
it will be massively parallel and how much of it will be the 
more traditional vector approach, which is like today's state-
of-the-art computers.
    Senator Cantwell. So, you are saying that they have an 
advantage or that we have not put the resources behind it.
    Dr. Wallace. Yes.
    Senator Cantwell. There are obviously people in our back 
yard--yours and mine--who are in the supercomputing business 
and are quite renown. But you are saying that we have not, as a 
government, put the resources there to incentivize that?
    Dr. Wallace. The funds that we have been spending on 
computing--we have been disadvantaged because we have not been 
able to get the best computers for the money. And we have made 
a big investment in the massive parallel computing and trying 
to reprogram a lot of the computer models to be used on those 
machines. It has not panned out very well.
    Dr. Barron. It is worth pointing out what we are good at 
and what we are limited by the resources for. We have an 
extremely potent climate modeling community within the United 
States, and within that very strong research community, we have 
a tremendous effort at addressing areas of uncertainty in 
understanding how the atmosphere works and incorporating that. 
We have a tremendous focus on building new and better models.
    But when you cross over to the side where you are 
attempting to look at issues like impacts or being able to 
couple large segments of the system in order to do a good job 
of long-term simulations, what you want is a higher resolution, 
a couple of models that you are running repeatedly from 1895 
out to the end of the century. That requires enormous computer 
resources.
    So, the U.S. community is focused on improving the models. 
We have been less focused on doing what are called these 
ensemble, high resolution, long-term simulations, and it is 
largely because we do not have these computational resources 
that allow it to be an easy task to complete. But we do have a 
very strong research community.
    Senator Cantwell. If I could, I do have another question. 
Mr. Rowland, did you want to comment on that?
    Dr. Rowland. No. I will pass on that.
    Senator Cantwell. One of the questions, Dr. Wallace, that I 
did want to ask--or for any of the other panelists, but 
obviously being from the University of Washington, I direct it 
to you. And I will work with the chairman on this issue of 
modeling and on computer capacity. I am happy to look into it 
further and want to make sure that we get the best resources 
behind modeling, as it plays an effective role.
    But a more local question, if you will. The global warming 
impacts or climate impacts on the Pacific Northwest. It is a 
very relevant question, given our reliance on hydro power and 
the significant amount of hydropower resources in our State. I 
literally was at a meeting this morning in which somebody 
brought up this point: do people understand what the impacts 
might be? We are talking about this as a global problem, but is 
anybody talking about the impacts that might happen on various 
regions of the country? So, I wondered if you might comment on 
that.
    Dr. Wallace. Well, we have a very active group at the 
University of Washington, a so-called climate impacts group 
chaired by Professor Ed Miles. At this point, it is one of 
about a half a dozen--half a dozen to a dozen, depending on how 
you count them--really excellent regional groups around the 
country. It was groups like this which worked together to 
produce a national synthesis report that Dr. Barron was one of 
the people to put together.
    I think this is very useful research and it is research 
where there is a big bang for the buck, for the relatively 
little expenditures. Right now it is my understanding that it 
is just a few million dollars total that are really available 
for grants from Federal agencies to support work like this. I 
think that this work really helps to build a constituency for 
climate forecasting, not only global warming, but the 
forecasting of El Nino and the year-to-year forecasting that 
would be very beneficial economically. It is building the ties 
between the scientists and the users that these groups really 
excel at doing.
    Senator Cantwell. Well, I see my time is expired, Mr. 
Chairman. So, I think I will get a copy of that report and look 
at the specific impacts that the Pacific Northwest may be 
subject to, given the research and analysis. Thank you.
    The Chairman. Well, thank you very much.
    Let me thank all three of you for your testimony and also 
for this report that the NRC prepared at the administration's 
request. I think it has been very helpful in highlighting the 
importance of dealing with this issue for the administration 
and for the Congress. I hope that we will follow your 
admonitions and move ahead this Congress to do some 
constructive things to deal with it. So, thank you all very 
much.
    We have a second panel of witnesses, and I would ask them 
if they would come forward please. The second panel will talk 
about some of the technologies that hold out solutions to the 
climate change issue and give their perspective on the climate 
change issue and what technology solutions there are to this.
    Dr. James Edmonds, who is the senior staff scientist with 
the Global Change Group, Pacific Northwest National Laboratory; 
Mr. Bill Chandler, who is director of the advanced 
international studies unit of the Pacific Northwest National 
Laboratory; Dr. Robert Friedman, who is vice president for 
research at the John Heinz Center for Science, Economics and 
the Environment; and Dr. Mark Levine, who is the director of 
environmental energies technology division at Lawrence Berkeley 
National Laboratory in Berkeley.
    Why don't we just start on the left here and go right 
across and hear testimony from each of you? If you could 
summarize your major points and then we will be undoubtedly 
having some questions.
    Dr. Edmonds.

STATEMENT OF DR. JAMES EDMONDS, SENIOR STAFF SCIENTIST, PACIFIC 
   NORTHWEST NATIONAL LABORATORY, BATTELLE MEMORIAL INSTITUTE

    Dr. Edmonds. Thank you, Mr. Chairman and members of the 
committee for the opportunity to testify here this morning on 
energy and climate change. My presence here today is possible 
because the U.S. Department of Energy, EPRI, and numerous other 
organizations in both the public and private sectors have 
provided me and my research team at the Pacific Northwest 
National Laboratory with long-term research support. That 
having been said, I come here today to speak as a researcher 
and the views I express are mine alone.
    I have got three simple points to make.
    First, it is concentrations of greenhouse gases that 
matter. For CO<INF>2</INF>, cumulative emissions by all 
countries over all time determine the concentration.
    The second point is technology is the key to controlling 
the cost of stabilizing the concentration of greenhouse gases.
    And the third point is that managing the cost of 
stabilization at any level requires a portfolio of energy R&D 
investments across a wide spectrum of technology classes.
    Now, let me just elaborate on those points.
    My first point is that it is concentrations, not emissions. 
The United States is a party to the Framework Convention on 
Climate Change, which has as its objective the stabilization of 
greenhouse gas concentrations in the atmosphere at a level that 
would prevent dangerous anthropogenic interference with the 
climate system. This is not the same as stabilizing emissions 
because emissions accumulate in the atmosphere. The 
concentration of carbon dioxide will, therefore, continue to 
rise indefinitely if the emissions are held at current levels 
or even at some reduced level. Stabilization of CO<INF>2</INF> 
concentrations means that the global energy system, not just 
the U.S. energy system, must undergo a fundamental 
transformation from one in which emissions continue to grow 
throughout the century into one in which global emissions peak 
and then begin a long-term decline.
    Coupled with significant global population and economic 
growth, this transition represents a daunting task even if a 
concentration as high as 750 parts per million is eventually 
determined to meet the goal of the Framework Convention, though 
at this time the concentration that will prevent dangerous 
interference with the climate system is not yet known.
    A credible commitment to limit cumulative emissions is also 
needed to move new energy technologies off the shelf and into 
widespread adoption in the marketplace.
    My second point is that technology controls cost. The cost 
of stabilizing the concentration of greenhouse gases will 
depend on many factors, including the desired concentration, 
economic and population growth, and available portfolio of 
energy technologies. But not surprisingly, research shows that 
if the costs of stabilization are lower, the better and more 
cost effective the portfolio of available energy technologies 
is.
    While technology is pivotal when it comes to controlling 
the cost of stabilizing the concentration of greenhouse gases, 
it is only one of four major elements that are needed in a 
comprehensive program to address climate change. The other 
three elements are resolution of scientific uncertainties, 
adaptation to climate change, and third, a credible global 
commitment that greenhouse gas concentrations will be limited.
    My third point is that there is no silver bullet. The 
Global Energy Technology Strategy Program to address climate 
change is an international public/private sector collaboration 
advised by an eminent steering group, and its analysis, 
conducted during the first phase of the program, supports the 
need for a diverse technology portfolio. It showed that no 
single technology controls the cost of stabilizing 
CO<INF>2</INF> concentration under all circumstances. The 
portfolio of energy technologies that is employed varies across 
regions and nations and over time.
    And the technologies that contribute to controlling the 
cost of stabilizing the concentration of CO<INF>2</INF> include 
energy efficiency and renewable energy forms, non-carbon energy 
sources, such as nuclear power and fusion, improved 
applications of fossil fuels, and technologies such as 
terrestrial carbon capture by plants and soils, engineered 
carbon capture in geologic sequestration, fuel cells, 
commercial biomass and biotechnology, which holds the promise 
of enhancing a wide range of energy forms just mentioned.
    Many of these technologies are undeveloped or play only a 
minor role in their present state of development. Research and 
development by both the public and the private sectors will be 
needed to provide the scientific foundations required to 
achieve improved economic and technical performance, establish 
reliable mechanisms for monitoring and verifying the 
disposition of carbon, and to develop and market competitive 
carbon management technologies.
    Recent trends in public and private spending on energy 
research and development suggest that the role of technology in 
addressing climate change may not be fully understood or 
appreciated. Although public investment in energy R&D has 
increased very slightly in Japan, it has declined significantly 
in the United States and even more dramatically in Europe where 
reductions of 70 percent of more, since the 1980's, are the 
norm. Moreover, less than 3 percent of this investment is 
directed at technologies that, although not currently available 
commercially at an appreciable level, have the potential to 
lower the costs of stabilization significantly.
    Mr. Chairman, thank you for this opportunity to testify. I 
will be happy to answer yours and the committee's questions.
    [The prepared statement of Dr. Edmonds follows:]
   Prepared Statement of Dr. James Edmonds, Senior Staff Scientist, 
   Pacific Northwest National Laboratory, Battelle Memorial Institute
    Thank you Mr. Chairman and members of the Committee for the 
opportunity to testify here this morning on energy and climate change. 
My presence here today is possible because the US Department of Energy, 
EPRI and numerous other organizations in both the public and private 
sectors have provided me and my team at the Pacific Northwest National 
Laboratory (PNNL) long-term research support. Without that support much 
of the knowledge base upon which I draw today would not exist. That 
having been said, I come here today to speak as a researcher and the 
views I express are mine alone. They do not necessarily reflect those 
of any organization. I have three simple points to make:
    1. It's concentrations of greenhouse gases that matter. For 
CO<INF>2</INF>, it is cumulative, emissions by all countries, over all 
time that determines the concentration not emission by any individual 
country, no matter how great, or any individual year;
    2. Technology is the key to controlling the cost of stabilizing the 
concentration of greenhouse gases; and
    3. No single technology controls the cost of stabilizing 
CO<INF>2</INF> concentrations under all circumstances. Managing the 
cost of stabilizing the concentration of greenhouse gases, at any 
level, requires a portfolio of energy R&D investments across a wide 
spectrum of technology classes from conservation to renewables to 
nuclear to fossil fuels, to biotechnology, to natural and engineered 
carbon capture and sequestration, and undertaken by both the public and 
private sectors.
    It's Concentrations Not Emissions: My remarks are grounded in a 
small number of important observations. First, the United States is a 
party to the Framework Convention on Climate Change (FCCC). The FCCC 
has as its objective the ``stabilization of greenhouse gas 
concentrations in the atmosphere at a level that would prevent 
dangerous anthropogenic interference with the climate system.'' 
(Article 2) This is not the same as stabilizing emissions. Because 
emissions accumulate in the atmosphere, the concentration of carbon 
dioxide will continue to rise indefinitely even if emissions are held 
at current levels or even at some reduced level. Limiting the 
concentration of CO<INF>2</INF>, the most important greenhouse gas, 
means that the global energy system must be fundamentally transformed 
by the end of the 21st century. Given the long life of energy 
infrastructure, preparations for that transformation must start today.
    Second, research that I have conducted with Tom Wigley at the 
National Center for Atmospheric Research and Richard Richels at EPRI 
indicates that, to attain global CO<INF>2</INF> concentrations ranging 
from 350 parts per million volume (ppmv) to 750 ppmv, global emissions 
of CO<INF>2</INF> must peak in this century and then begin a long-term 
decline. The average concentration in 1999 was 368 ppmv and pre-
industrial values were in the neighborhood of 275 ppmv. The timing and 
magnitude of the peak depends on the desired CO<INF>2</INF> 
concentration--though the concentration that will ``prevent dangerous 
anthropogenic interference with the climate system'' is not yet known--
as well as on a variety of factors shaping future US and global 
technology and economy.
    In 1997 global fossil fuel carbon emissions were approximately 6.6 
billion tonnes of carbon per year with an additional approximately 1.5 
billion tonnes of carbon per year from land-use change such as 
deforestation. (The values for land-use change emissions are known with 
much less accuracy than those of fossil fuel emissions.) Values taken 
from the paper Drs. Wigley, Richels and I published in Nature in 1996 
for alternative CO<INF>2</INF> concentrations, peak emissions and 
associated timing are given in the table below:

 
------------------------------------------------------------------------
    CO<INF>2</INF> Concentration (ppmv)        350     450     550     650     750
------------------------------------------------------------------------
Maximum Global CO<INF>2</INF> Emissions         8.5     9.5    11.2    12.9    14.0
 (billions of tonnes carbon per
 year)..........................
------------------------------------------------------------------------
Year in which Global Emissions    *COM00    2007    2013    2018    2023
 Must Break from Present Trends.  1*Toda
                                       y
------------------------------------------------------------------------
Year of Maximum Global Emission.    2005    2011    2033    2049    2062
------------------------------------------------------------------------
Year 2100 Global Fossil Fuel           0     3.7     6.8    10.0    12.5
 Emissions (billions of tonnes
 carbon per year)...............
------------------------------------------------------------------------

    The time path of emissions will have a profound effect on the cost 
of achieving atmospheric stabilization. The emissions paths we 
developed were constructed to lower costs by avoiding the premature 
retirement of capital stocks, taking advantage of the potential for 
improvements in technology, reflecting the time-value of capital 
resources, and taking advantage of the workings of the natural carbon 
cycle regardless of which concentration was eventually determined to 
``prevent dangerous anthropogenic interference with the climate.'' It 
is also important to note that the transition must begin in the very 
near future. For example, for a global concentration of 550 ppmv, 
global CO<INF>2</INF> emissions must begin to break from present trends 
(i.e. deviations of more than 100 million tonnes of carbon from present 
trends) within the next 10 to 15 years. Given that it takes decades to 
go from ``energy research'' to the practical application of the 
research within some commercial ``energy technology'' and then perhaps 
another three to four decades before that technology is widely deployed 
throughout the global energy market, we will likely have to make this 
deflection from present trends with technologies that are already 
developed. To reduce global emissions even further will require a 
fundamental transformation in the way we use energy and that will only 
be possible if we have an energy technology revolution and that will 
only come about if we increase our investments in energy R&D.
    The table above shows that the global energy system, not just the 
United States energy system, must undergo a transition from one in 
which emissions continue to grow throughout this century into one in 
which emissions peak and then decline. Coupled with significant global 
population and economic growth, this transition represents a daunting 
task even if a concentration as high as 750 ppmv is eventually 
determined to meet the goal of the Framework Convention. A credible 
commitment to limit cumulative emissions is also needed to move new 
energy technologies ``off the shelf'' and into wide spread adoption in 
the marketplace.
    Stabilizing the concentration of greenhouse gases in the atmosphere 
will require a credible commitment to limit cumulative global emissions 
of CO<INF>2</INF>. Such a limit is unlikely to be achieved without 
cost. The cost of stabilizing the concentration of greenhouse gases 
will depend on many factors including the desired concentration, 
economic and population growth, and the portfolio of energy 
technologies that might be made available. Not surprisingly costs are 
higher the lower the desired concentration of greenhouse gases. They 
are also higher for higher rates of economic and population growth. 
And, they are lower the better and more cost effective the portfolio of 
energy technologies that can be developed. This last point about the 
role of technology is very important, but not well appreciated.
    It is not well recognized that most long-term future projections of 
global energy and greenhouse gas emissions and hence, most estimates of 
the cost of emission reductions, assume dramatic successes in the 
development and deployment of advanced energy technologies occur for 
free. For example, the Intergovernmental Panel on Climate Change 
developed a set of scenarios based on the assumption that no actions 
were implemented to mitigate greenhouse gas emissions. The central 
reference case that assumes ``technological change as usual'' is called 
IS92a. This central reference scenario assumes that by the year 2100 
three-quarters of all electric power would be generated by non-carbon 
emitting energy technologies such as nuclear, solar, wind, and hydro, 
and that the growth of crops for energy (commercial biomass) would 
account for more energy than the entire world's oil and gas production 
in 1985. Yet with all these assumptions of technological success, the 
need to provide for the growth in population and living standards 
around the world drive fossil fuel emissions well beyond 1997 levels of 
6.6 billion tonnes of carbon per year to approximately 20 billion 
tonnes of carbon per year. Subsequent analysis by the IPCC as well as 
independent researchers serves to buttress the conclusion that even 
with optimistic assumptions about the development of technologies that 
the concentration of in the atmosphere can be expected to continue rise 
throughout the century.
    Technology Controls Cost: My second point follows directly from the 
preceding observations. Technology development is critical to 
controlling the cost of stabilizing CO<INF>2</INF> concentrations. 
Improved technology can both reduce the amount of energy needed to 
produce a unit of economic output and lower the carbon emissions per 
unit of energy used.
    The Global Energy Technology Strategy Program to Address Climate 
Change is an international, public/private sector collaboration \1\ 
advised by an eminent Steering Group.\2\ Analysis conducted at the 
Pacific Northwest National Laboratory as well as in collaborating 
institutions during Phase I supports the need for a diversified 
technology portfolio.
---------------------------------------------------------------------------
    \1\ Sponsors of the program were: Battelle Memorial Institute, BP, 
EPRI, ExxonMobil, Kansai Electric Power, National Institute for 
Environmental Studies (Japan), New Economic and Development 
Organization (Japan), North American Free Trade Agreement Commission 
for Environmental Cooperation, PEMEX (Mexico), Tokyo Electric Power, 
Toyota Motor Company, and the US Department of Energy. Collaborating 
research institutions were: The Autonomous National University of 
Mexico, Centre International de Recherche sur l'Environnment et le 
Developpement (France), China Energy Research Institute, Council on 
Agricultural Science and Technology, Council on Energy and Environment 
(Korea), Council on Foreign Relations, Indian Institute of Management, 
International Institute for Applied Systems Analysis (Austria), Japan 
Science and Technology Corporation, National Renewable Energy 
Laboratory, Potsdam Institute for Climate Impact Research (Germany), 
Stanford China Project, Stanford Energy Modeling Forum, and Tata Energy 
Research Institute (India).
    \2\ Richard Balzhiser, President Emeritus, EPRI; Richard Benedick, 
Former U.S. Ambassador to the Montreal Protocol; Ralph Cavanagh, Co-
director, Energy Program, Natural Resources Defense Council; Charles 
Curtis, Executive Vice President, United Nations Foundation; Zhou Dadi, 
Director, China Energy Research Institute; E. Linn Draper, Chairman, 
President and CEO, American Electric Power; Daniel Dudek, Senior 
Economist, Environmental Defense Fund; John H. Gibbons, Former 
Director, Office of Science and Technology Policy, Executive Office of 
the President; Jose Goldemberg, Former Environment Minister, Brazil; 
Jim Katzer, Strategic Planning and Programs Manager, ExxonMobil; Yoichi 
Kaya, Director, Research Institute of Innovative Technology for the 
Earth, Government of Japan; Hoesung Lee, President, Korean Council on 
Energy and Environment; Robert McNamara, Former President, World Bank; 
John Mogford, Group Vice President, Health, Safety and Environment BP; 
Granger Morgan, Professor, Carnegie-Mellon University; Hazel O'Leary, 
Former Secretary, U.S. Department of Energy; Rajendra K. Pachauri, 
Director, Tata Energy Research Institute; Thomas Schelling, 
Distinguished University Professor of Economics, University of 
Maryland; Hans-Joachim Schellnhuber, Director, Potsdam Institute for 
Climate Impact Research; Pryadarshi R. Shukla, Professor, Indian 
Institute of Management; Gerald Stokes, Assistant Laboratory Director, 
Pacific Northwest National Laboratory; John Weyant, Director, Stanford 
Energy Modeling Forum; and Robert White, Former Director, National 
Academy of Engineering.
---------------------------------------------------------------------------
    While technology is pivotal when it comes to controlling the cost 
of stabilizing the concentration of greenhouse gases, it is only one of 
four major elements that are needed in a comprehensive program to 
address climate change. The other three elements are:
    1. Resolution of scientific uncertainties,
    2. Adaptation to climate change, and
    3. A credible, global commitment that greenhouse gas concentrations 
will be limited.
    There's No ``Silver Bullet'': No single technology controls the 
cost of stabilizing CO<INF>2</INF> concentrations under all 
circumstances. The portfolio of energy technologies that is employed 
varies across space and time. Regional differences in such factors as 
resource endowments, institutions, demographics and economics, 
inevitably lead to different technology mixes in different nations, 
while changes in technology options inevitably lead to different 
technology mixes across time.
    Technologies that are potentially important in stabilizing the 
concentration of CO<INF>2</INF> include energy efficiency and renewable 
energy forms, non-carbon energy sources such as nuclear power and 
fusion, improved applications of fossil fuels, and technologies such as 
terrestrial carbon capture by plants and soils, carbon capture and 
geologic sequestration, fuel cells and batteries, and commercial 
biomass and biotechnology which holds the promise of enhancing a wide 
range of the above energy forms. Many of these technologies are 
undeveloped or play only a minor role in their present state of 
development. Research and development by both the public and private 
sectors will be needed to provide the scientific foundations needed to 
achieve improved economic and technical performance, establish reliable 
mechanisms for monitoring and verifying the disposition of carbon, and 
to develop and market competitive carbon management technologies. For 
example, advances in the biological sciences hold the promise of 
dramatically improving the competitiveness of commercial biomass as an 
energy form.
    Recent trends in public and private spending on energy research and 
development in the world and in the United States suggest that the role 
of technology in addressing climate change may not be fully understood 
nor appreciated. Although public investment in energy R&D has increased 
very slightly in Japan, it has declined significantly in the United 
States and even more dramatically in Europe, where reductions of 70 
percent or more since the 1980s are the norm. Moreover, less than 3 
percent of this investment is directed at technologies that, although 
not currently available commercially at an appreciable level, have the 
potential to lower the costs of stabilization significantly.
    In summary, stabilizing the concentration of greenhouse gases at 
levels ranging up to 750 ppmv represents a necessary but daunting 
challenge to the world community. Energy related emissions of 
CO<INF>2</INF> must peak and begin a permanent decline during this 
century. The lower the desired concentration, the more urgent the need 
to begin the transition. Both a credible global commitment to limit 
cumulative emissions and a portfolio of technologies will be needed to 
minimize the cost of achieving that end including technologies that are 
not presently a significant part of the global energy system. Their 
development and deployment will require enhanced energy R&D by both the 
public and private sectors. Unfortunately, current trends in energy R&D 
are cause for concern.
    Mr. Chairman, thank you for this opportunity to testify. I will be 
happy to answer your and the committee's questions.

    The Chairman. Thank you very much.
    Mr. Chandler, why don't you go right ahead, please.

   STATEMENT OF WILLIAM CHANDLER, SENIOR STAFF SCIENTIST AND 
    DIRECTOR, ADVANCED INTERNATIONAL STUDIES UNIT, PACIFIC 
                 NORTHWEST NATIONAL LABORATORY

    Mr. Chandler. Thank you. I am Bill Chandler, Senior Staff 
Scientist at the Pacific Northwest National Laboratory and 
Director of the Advanced International Studies Unit. I very 
much appreciate the opportunity, at the invitation of you and 
the members of the committee, to be here today, though I 
confess whenever I am asked to speak about international energy 
issues, in the midst of our efforts to grapple with domestic 
energy problems, I think of something Mark Twain said over a 
century ago, which was that ``nothing needs reforming quite so 
much as other people's bad habits.''
    We in the President's Committee of Advisors on Science and 
Technology looked not so much at the habits of international 
energy use but the technologies of energy use and how they 
affect strategic objectives for the United States, including 
the strong linkage with climate change.
    We found very strong linkages with global economic growth 
and our ability to fuel our own economy because the consumption 
of gasoline, for example, in China affects the price of 
gasoline here.
    It affects our ability to compete for markets to export 
advanced technologies and also U.S. values ranging from human 
rights to economic reforms in countries in which we develop 
energy resources.
    PCAST assigned a sense of urgency to what we viewed as a 
closing window of opportunity to influence the deployment of 
advanced technologies around the world, a closing window of 
opportunity for three reasons.
    First, rapid development in the developing countries and in 
the transition economies means that those countries are quickly 
locking in technologies which will be with us for decades to 
come or, as you put it, locking out mitigation opportunities.
    Also, the timing for introducing new technologies is such 
that it takes perhaps a decade from the laboratory to the 
marketplace, and then you have the problem of market 
penetration.
    Also, in the transition economies in the former Soviet 
Union and Eastern Europe, we have probably the largest and 
cheapest emissions reduction opportunities and yet the future 
remains up for grab in those countries because we still do not 
know whether Russia and Ukraine, for example, will make the 
full transition to market democracy. We have, we believe, an 
opportunity to influence the outcome of each of those 
opportunities. And we made four sets of recommendations, four 
initiatives we proposed, to influence the deployment of 
technology.
    These include, first, foundations of energy innovation. By 
that we mean taking measures to build capacity in developing 
and transition economies, to promote energy sector reform, to 
get the prices right, to ensure that prices matter, to 
demonstrate technologies in order to help reduce the cost of 
those technologies, and to organize financing so that 
developing countries can afford more expensive technologies.
    Second, we recommended a portfolio of energy efficiency 
measures, with emphasis on setting goals for reducing the 
energy use in the building sector. Perhaps developing countries 
could cut the energy intensity of their buildings in half 
compared to current practice over the next 2 decades.
    In the transport sector, paying attention to two- and 
three-wheeled vehicles, which is the mode of transportation 
that many people in Asia, for example, utilize primarily for 
private transport and for buses.
    In industry, helping to create road maps to factories of 
the 21st century so that the energy intensity of making steel, 
chemicals, paper, and other energy intensive materials can be 
cut in half. And in promoting cogeneration or combined heat and 
power so that up to a fifth of power in developing countries 
can be built using this more efficient approach.
    We recommended a supply technology portfolio which 
emphasized things like biomass within the renewable sector, 
fossil energy decarbonization and carbon storage, and solving 
the problems of nuclear waste disposal and proliferation with 
nuclear technology.
    Finally, to respond to something you suggested earlier, we 
did propose a management initiative which would elevate to the 
highest levels of government the coordination of U.S. efforts 
to innovate energy technologies around the world. Our approach 
was to recommend the creation of a working group within the 
National Science and Technology Council. While we feel that 
process matters, we do feel that leadership matters, and that 
is why a working group at that level is important and that is 
why setting goals at that level is important.
    As a last point, I would like to say that we have found a 
number of success stories in this type of assistance, success 
stories that indicate just how cheap some of these measures can 
be. In my own program, I can tell you from experience that we 
have organized a billion dollars worth of investment in energy 
efficiency in the former Soviet Union and Eastern Europe over 
the last 5 years, and we have done so by taking, for each 
dollar of Federal investment, measures that leverage $25 to $50 
of investment from multilateral development banks, private 
firms, and from the customers with which we are working 
ourselves. So, to respond to Senator Murkowski's concern, there 
are very high leverage, very cost effective measures that we 
can do. In order to resolve our own problems domestically, 
addressing them in the international marketplace we felt would 
be necessary.
    Thank you.
    [The prepared statement of Mr. Chandler follows:]
  Prepared Statement of William Chandler, Senior Staff Scientist and 
   Director, Advanced International Studies Unit, Pacific Northwest 
                          National Laboratory
    the u.s. stake in international cooperation on energy innovation
    This testimony summarizes the conclusions of Powerful Partnerships: 
The Federal Role in International Cooperation on Energy Innovation, a 
1999 report to the President by the President's Committee of Advisors 
on Science and Technology (PCAST). The authors of this report, the 
PCAST International Energy Panel, concluded that U.S. self interest 
would be served by increasing international energy cooperation, 
particularly with the transition and developing economies where most 
energy demand growth will occur this century. Our panel found that 
global energy use is tightly linked to U.S. economic, environmental, 
and national-security interests (see box, below). We concluded that 
energy technology innovation improves our security, helps the United 
States avoid inflation and recession, and expands our market share of 
multi-hundred-billion dollar per year global energy-technology market. 
Significantly, energy innovation can help mitigate greenhouse gas 
emissions in the fastest-growing energy demand markets.
_______________________________________________________________________
                    International Energy Challenges
Economic
  <bullet> Growth and development
  <bullet> Energy technology exports
  <bullet> Oil Imports
  
Environmental
  <bullet> Local air quality
  <bullet> Regional acid rain
  <bullet> Global warming
  
U.S. Leadership
  <bullet> Energy Science
  <bullet> Supply- and demand-side
      technology
International Security
  <bullet> Insecure supplies of
      foreign oil
  <bullet> Nuclear proliferation
  <bullet> Political stability in developing
      countries
  
U.S. Values
  <bullet> Human rights
  <bullet> Civil society
  <bullet> Equity, self-determination,
      stewardship.
  

    U.S. President's Committee of Advisors on Science and Technology, 
Powerful Partnerships: The Federal Role in International Cooperation on 
Energy Innovation (Washington, D.C.: The White House Office of Science 
and Technology Policy, June 1999). Available at http://www.ostp.gov/
html/P2E.pdf.
_______________________________________________________________________

    The United States and the world face a historic window of 
opportunity. The largest investments in energy supply and conversion 
systems will occur in developing and reforming countries, and these 
will soon ``lock in'' technologies for decades to come (see figure). 
The long lead-time required to move new technologies through the 
innovation pipeline--let alone penetrate markets--means that efforts to 
deploy technology in the second quarter of this century need to be 
started today. PCAST proposed early but modest funding for 
international cooperation, with specific suggestions for budget 
increases amounting to $500 million per year by FY2005.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    PCAST found that great leverage for greenhouse gas emissions 
reductions comes with supporting market-based policy reform and in 
organizing financing to implement energy technology transfer in 
developing and transition economies. Economic reform--getting prices 
right and making prices matter--can help reduce emissions in countries 
as diverse as Brazil, India, China, India, Russia, and Ukraine by 
reducing distortions and subsidies that encourage energy waste. Efforts 
to organize investment financing for energy innovation can multiply the 
effectiveness of government funds.
Priority Initiatives
    The PCAST International Energy Panel reviewed both successes and 
failures in international energy development and agreed to recommend 
four categories of initiatives for top priority, including capacity 
building for reform and innovation, deployment of energy-efficiency 
technologies, deployment of selected supply-side technologies, and 
management reform (see below).\1\
---------------------------------------------------------------------------
    \1\ U.S. President's Committee of Advisors on Science and 
Technology, Powerful Partnerships: The Federal Role in International 
Cooperation on Energy Innovation (Washington, D.C.: The White House 
Office of Science and Technology Policy, June 1999). Available at 
http://www.ostp.gov/html/P2E.pdf. The author of this testimony 
participated as a panelist and author in this PCAST study.

_______________________________________________________________________
         PCAST Initiatives for International Energy Cooperation
Foundations of Energy Innovation
  <bullet> Capacity Building
  <bullet> Energy Sector Reform
  <bullet> Finance
  
Energy Efficiency Portfolio
  <bullet> Buildings
  <bullet> Transport
  <bullet> Industry
  <bullet> Combined Heat and Power
Energy Supply Portfolio
  <bullet> Renewables
  <bullet> Fossil fuel
  <bullet> Nuclear energy
  
Management Recommendations
  <bullet> National Science and Technology
      Council working group
  <bullet> External Advisory Board
  

    Source: Powerful Partnerships, President's Committee of Advisors on 
Science and Technology, 1999. Available on-line at http://www.ostp.gov/
html/P2E.pdf

_______________________________________________________________________

    PCAST members were struck by the degree to which ``reform 
matters,'' and by successful interventions by the U.S. government which 
have helped to support energy sector reform. The experience of Central 
Europe is instructive in this regard. Energy intensity serves as an 
index of reform, as an indicator of successful and unsuccessful 
policies. Central Europe has cut energy intensity by one third over the 
last decade, with major benefits for both the economy and environment 
of that region, and demonstrating that genuine reform works (see 
figure). Essentially, this means that the region has eliminated much of 
the energy waste that stemmed from the legacy of central planning. 
Poland, the Czech Republic, and Hungary achieved this success by 
implementing hard budget constraints, meaningful energy prices, 
institutional reform, and economic restructuring. Latin American 
nations, including Argentina, have also benefitted by embracing 
privatization and competition.\2\ Nations failing to implement those 
measures elsewhere robbed citizens of economic and social well-being.
---------------------------------------------------------------------------
    \2\ William Chandler, Energy and Environment in the Transition 
Economies (Boulder: Westview Press, 2000).
---------------------------------------------------------------------------
Foundations of Energy Innovation
    Efforts to build the foundations of energy-sector innovation 
include measures to enhance management and technical capacity, reform 
of the energy-sector, and organizing financing for innovative 
investment. U.S. funds helped organize over $1 billion of energy-
efficiency investment U.S. funds helped organize over $1 billion of 
energy-efficiency investment projects in this region over the past five 
years and has built non-governmental, not-for-profit organizations in 
Russia, Ukraine, Bulgaria, Poland, and the Czech Republic. These 
organizations have developed world-class expertise each with staffs of 
15-50 people. Each center is now self-sustaining and fully independent. 
U.S. partners associated with the program have been honored with the 
``Global Climate Leadership Award'' (International Energy Agency) and 
with the ``International Energy Project of the Year Award'' 
(Association of Energy Engineers) for this work. U.S. expenditures on 
these assistance programs through resulted in investment 25-50 times 
the initial grant. PCAST have reported on these and similar successes 
in Latin America, especially in Brazil.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    China offers a remarkable success story in managing energy demand 
growth. China suffers severe environmental problems due to distorted 
markets, outdated technologies, and inefficient management. The World 
Bank estimates that approximately eight percent of the country's gross 
domestic product is lost each year due to pollution that damages human 
health, natural ecosystems, and physical infrastructure. Fortunately, 
China has made progress with energy efficiency having probably reduced 
current levels of greenhouse gas emissions by one-third or more.\3\ 
China's post-reform economy has grown faster than energy use for more 
than two decades. China continues to rank energy efficiency as vital to 
the nation's energy interests. Domestic reforms within China have the 
potential further to cut carbon dioxide emissions significantly, as 
does cooperation with international partners.
---------------------------------------------------------------------------
    \3\ Over the past twenty years, China's energy consumption per unit 
of growth in gross domestic product measured in constant local currency 
has declined by over 4 percent annually, while energy consumption per 
unit of growth in the U.S. has fallen by slightly over 1 percent. 
Typical developing countries, on the other hand, exhibit an increase in 
energy consumption related to economic growth. See Climate Action in 
China and the United States, Battelle Memorial Institute and the 
Woodrow Wilson Center for International Scholars, Washington, DC, 1999. 
Official Chinese statistics on economic growth are viewed from abroad 
with increasing skepticism, however, and real growth may be 
significantly less than reported. A forthcoming report from Lawrence 
Berkeley National Laboratory provides a more realistic estimate of 
China's success in conserving energy based on revised economic growth 
estimates. See Sinton, J., and D. Fridley, ``What Goes Up: Recent 
Trends in China's Energy Consumption,'' Forthcoming in Energy Policy.
---------------------------------------------------------------------------
    The U.S. government has successfully collaborated with Chinese 
researchers for over a decade on China's energy and environmental 
problems working with some of China's leading energy and environmental 
specialists. In 1993, the Department of Energy and the Environmental 
Protection Agency (in collaboration with Pacific Northwest National 
Laboratory and Lawrence Berkeley National Laboratory) helped establish 
the Beijing Energy Efficiency Center (BECon) with support from the 
American and Chinese governments and the World Wide Fund for Nature. 
Chinese researchers have collaborated with U.S. experts to demonstrate 
that China could meet its future electric power needs at a lower 
overall cost if environmental factors where included in the planning 
process.\4\ Ongoing Sino-U.S. collaboration on energy efficiency helps 
to catalyze additional measures to improve energy efficiency, reduce 
pollution, and boost exports of U.S. technology.\5\
---------------------------------------------------------------------------
    \4\ See, ``Electric Power in Five Developing Countries: The Futures 
of China, Korea, India, Argentina, and Brazil,'' William Chandler, 
Battelle Memorial Institute, for the Pew Center on Climate, forthcoming 
2001.
    \5\ A website on energy efficiency news in China reaches 5,000 
readers each month from all over the world.
---------------------------------------------------------------------------
    Capacity-building efforts prepare the ground for rapid and 
sustainable energy-technology innovation. As indicated in the PCAST 
report executive summary, high-priority elements include:

  <bullet> Increased support for existing regional centers of analysis 
        and information dissemination on sustainable energy options 
        (such as the PROCEL national electricity-conservation program 
        in Brazil, energy efficiency centers in Eastern Europe and 
        Russia,\6\ and other centers in Africa, Asia, and Latin 
        America) and establishment of new sustainable energy centers in 
        regions with significant need that cannot be met by other 
        means; and
---------------------------------------------------------------------------
    \6\ The author led the creation of six institutions of local 
expertise, including energy-efficiency centers in Bulgaria, China, the 
Czech Republic, Poland, Russia, and Ukraine. See William U. Chandler, 
John W. Parker, Igor Bashmakov, Zdravko Genchev; Jaroslav Marousek, 
Slawomir Pasierb, Mykola Raptsun, and Zhou Dadi, ``Energy Efficiency 
Centers in Six Countries: A Review,'' November 1999, PNNL-13073. See 
also www.pnl.gov/aisu.
---------------------------------------------------------------------------
  <bullet> Development of in-country training for energy analysts and 
        managers, to include workshops and internet-based courses and 
        expert assistance, as well as a requirement that in-country 
        technical and managerial training be a component of technology 
        demonstration and deployment projects supported by the U.S. 
        government.

    Supporting and shaping energy-sector reform accelerates financial 
performance and helps retain incentives for energy-technology 
innovation. The U.S. government can mobilize private and public sector 
experts to provide technical and policy advice, particularly for price 
reform and imposition of ``hard budget constraints''. For example, one 
way the United States can help promote the use of low-carbon natural 
gas in China is by analyzing current obstacles and then promoting the 
needed legal framework for building and regulating natural gas supply 
pipelines and distribution systems (see below).\7\
---------------------------------------------------------------------------
    \7\ Jeff Logan et al., ``Expanding Natural Gas Utilization in 
China,'' Pacific Northwest National Laboratory and University of 
Petroleum, Beijing, (Washington and Beijing: U.S. Environmental 
Protection Agency and China's State Development Planning Commission), 
forthcoming July 2001; Logan, J. and D. Luo, 1999. ``Natural Gas and 
China's Environment.'' Paper presented at the International Energy 
Agency-China Natural Gas Industry Conference, Beijing (available at 
http://www.pnl.gov/china/pubs.htm).

_______________________________________________________________________
 What U.S. Companies Say They Need to Do Natural Gas Business in China
          1. Boost gas prices to international market levels.
          2. Expand use of gas to industry and power sectors.
          3. Allow access to choice areas for exploration.
          4. Develop greater market transparency.
          5. Improve data accessibility

    Source: Logan, J. and W. Chandler, ``Incentives Needed for Foreign 
Participation in China's Natural Gas Sector.'' Oil and Gas Journal, 10 
August 1998. Volume 96, Number, 32. p. 50-56.

_______________________________________________________________________

    A large payoff comes especially by helping provide the conditions 
sufficient to attract international investors. Lack of credit, 
collateral, or funds to prepare business plans are the biggest barriers 
to energy efficiency and fuel switching in many economies. Financial 
programs can help overcome barriers to deployment of small-scale clean 
and efficient energy technologies in transition and developing 
economies. High-priority elements include increasing support for clean 
and efficient energy technologies from the multilateral banks or 
through U.S. mechanisms such as the Trade Development Agency and the 
Development Credit Authority. European nations are often much more pro-
active in supporting multilateral banks in project planning work that 
would overcome barriers to obtaining financing and, as a result, often 
increase their market share of these developing markets.
    ``Financial engineering'' is the best lever for emissions reduction 
because it transfers energy-efficient modern technologies through the 
marketplace. Specifically, the U.S. government can provide funding to 
identify customers for energy-saving equipment, develop business plans 
to move projects through the inception stage, and identify private and 
multi-lateral sources of finance to implement projects. An appropriate 
goal is to leverage at least $25 of investment for each dollar spent by 
the U.S. government in project development.
Portfolio of Energy End-Use Technologies
    PCAST's second category of initiatives addresses specific 
opportunities for international cooperation to promote innovation in 
energy-end-use technologies. These include efforts to reduce the energy 
intensity of heavy industry in key developing and transition countries. 
The PCAST panel estimated that energy use per unit of industrial output 
could be reduced by 40 percent over the next two decades. A successful 
example of this type of approach includes a dozen factories in 
Ukraine--a very difficult financial environment--which recently 
arranged millions of dollars of private investment in energy efficiency 
measures thanks largely to U.S. government support. Actual energy 
savings averaged 20 percent of total energy use per plant.\8\
---------------------------------------------------------------------------
    \8\ Pacific Northwest National Laboratory senior research scientist 
Meredydd Evans won the ``International Energy Project of the Year'' 
award from the Association of Energy Engineers for work organizing 
energy-efficiency investment for the Gostomel Glass Plant in Ukraine.
---------------------------------------------------------------------------
    The United States could encourage developing countries to cut 
energy use in major energy-intensive industrial processes by one-third 
or more compared to current performance. The largest energy-consuming 
sectors include iron and steel, cement, chemicals, pulp and paper, and 
non-ferrous metals. The Chinese steel industry, for example, uses 90 
percent more energy to make a ton of steel than the Japanese steel 
sector. Similarly, India uses twice as much energy to make a ton of 
pulp and paper than the OECD average. Russian cement makers use 30 
percent more energy to manufacture a ton of cement than French 
manufacturers. American technologies could be applied to cut energy use 
in each of these cases. However, these technologies have not penetrated 
these markets due to price distortions, lack of trained personnel to 
develop and implement projects, and lack of business skills and credit 
to arrange financing to make projects reality.
    High-priority efforts toward that goal could include cooperation 
with the private sector and foreign counterparts to develop 
``technology roadmaps'' and pre-competitive research and development 
for energy-intensive basic-materials industries such as iron and steel, 
chemicals, pulp and paper, and cement. Pilot demonstration programs and 
joint project development can sometimes facilitate technology transfer 
between U.S. firms and their partners.
    PCAST's set of end-use recommendations included cooperation on 
vehicles research, development, and demonstration of cleaner, more 
energy-efficient buses and two- and three-wheeled vehicles (the main 
source of individual transport in many Asian nations) and accelerating 
deployment of advanced vehicles in developing and transition countries. 
High-priority efforts might include integration and expansion of 
cooperative research and development, especially for hybrid, fuel-cell, 
and alternative-fuel propulsion systems. U.S. encouragement of the 
multilateral development banks to help finance energy-efficient 
vehicle-manufacturing capacity, infrastructure, and consumer-credit 
systems could speed large-scale deployment of these advanced vehicles.

_______________________________________________________________________
           International Role of Energy-efficiency Technology
  <bullet> Efficiency aids development and cuts emissions.
  <bullet> Transition (and some developing) economies rank least-
        efficient in the world.
  <bullet> Investment and reforms promote efficiency and fuel 
        switching.

_______________________________________________________________________

    PCAST recommended buildings sector demand-side energy cooperation. 
The U.S. government could help transition and developing countries cut 
energy use in new appliances, homes, and commercial buildings in 
developing countries by 25 percent compared to current practice. 
Developing countries continue to build homes with energy-intensive 
materials that have low thermal-insulation values. Buildings-energy use 
can be cut by one-third or more with advanced design techniques 
available in the United States.
    High-priority efforts could include technical and policy assistance 
for efficiency standards and ratings and labeling of building equipment 
and appliances. PCAST supported the idea of U.S. sponsorship of 
labeling and promotion programs similar to the ``Energy Star''; design 
competitions to push the envelope of building energy performance; and 
technical assistance for development, analysis, and implementation of 
building energy codes and standards, including use of monitoring, 
compliance, enforcement programs, and software.
    PCAST end-use experts recommended efforts to promote combined-heat-
and-power, or cogeneration, technologies for new power supply. 
Countries with rapidly growing power demand such as China, India, and 
much of Latin America could obtain one-fifth of their new power supply 
from cogeneration or distributed power systems using microturbines, 
renewable energy, and other new power generation systems.
    Enron Corporation's frustrating experience in building and 
operating a power plant in Dabhol, India, is well known. That 
experience, and others like it around the world, have shown that 
regulatory reform in developing nations is badly needed.\9\ Assistance 
by U.S. experts to ``level the playing field'' for modern generating 
technologies, especially cogeneration, can help create functioning 
markets and facilitate penetration of advanced technologies in 
countries like India. PCAST determined that successful deployment of 
cogeneration will required five things: information and education 
programs; collaborative assessments of power and heat loads at 
potential cogeneration sites; addressing potential regulatory and 
market barriers; funding for demonstrations; and help in securing 
financing.
---------------------------------------------------------------------------
    \9\ Khozem Merchant in Bombay and David Gardner, ``Enron Threatens 
to Withdraw from Indian Power Project,'' Financial Times, 9 April 2001.
---------------------------------------------------------------------------
    Funding for market surveys of potential cogeneration sites would 
help to determine power and heat loads and output ratios in order to 
identify favorable conditions. Such an effort would also need to 
identify and suggest solutions to regulatory barriers such as 
difficulties selling power to the grid. Technical and policy assistance 
could help develop and implement policies that are equitable for 
cogeneration. This activity, like the industrial initiative above, 
could also leverage funding for innovative demonstrations of combined 
heat and power and to help secure financing from international private 
and public sources.
Portfolio of Supply-Side Projects
    PCAST noted that specific opportunities exist for international 
cooperation for innovation on energy-supply technologies to help spread 
use of technologies for renewable energy, fossil-fuel decarbonization, 
carbon dioxide sequestration, and nuclear fission and fusion. Priority 
was placed on accelerating the development and deployment of biomass, 
wind, photovoltaic, solar thermal, and other renewable energy 
technologies. Also needed are collaborative research on restoring 
degraded lands, and developing fossil-energy hybrids to provide 
complete energy services for agricultural, residential, and village-
scale commercial and industrial applications in rural areas.
    Among the supply-side options considered, PCAST emphasized the need 
for collaboration to develop industrial-scale biomass energy conversion 
technologies, as well as collaborative research on the restoration of 
degraded lands and their use for growing crops optimized to yield 
multiple products. PCAST found that collaboration is needed to 
accelerate the deployment of grid-connected intermittent renewable 
electric technologies with fossil energy. The panel further suggested 
then need for collaboration on assessments of renewable energy 
resources on a region-by-region basis.
    PCAST found need to add an explicit international activity to 
promote research focused on advanced technologies for improving the 
cost, safety, waste management, and proliferation resistance of nuclear 
fission energy systems, and to expand and strengthen exchanges on 
geologic disposal of spent fuel and high-level wastes. Our panel 
recommended pursuit of a new international agreement on fusion research 
and development that commits parties to a broad range of collaborations 
on all aspects of fusion energy development to enhance U.S. 
participation in existing fusion experiments abroad and inviting 
increased foreign participation in new and continuing smaller fusion 
experiments in the United States.
Management Initiative
    PCAST recommended that the President should establish an 
interagency working group on strategic energy cooperation in the 
National Science and Technology Council to develop and promote a 
strategic vision of the role of the government's contributions to 
international energy. This working group would be responsible for 
continuing assessment of the government's full portfolio and would 
assist the agencies to strengthen their internal and external 
mechanisms for monitoring and reviewing projects, for terminating 
unsuccessful ones, and for handing off successful ones to the private 
sector at the appropriate time.
    PCAST stressed the role of the private sector. Government programs 
should be structured to catalyze and complement the private sector, not 
replace it. International programs should help lower barriers and 
supplement private incentives and capacity to address U.S. interests in 
energy innovation. But assistance should be limited in the rate and 
duration of the government's investment, with specific criteria for 
terminating projects that fall short and for transferring successful 
ones to the private sector.
    PCAST concluded that government involvement is needed because the 
public interest in energy outcomes goes beyond the sum of perceived 
private interests. Privatization, deregulation, and restructuring of 
energy industries help bring private capital into the energy sector.
Fleeting Opportunities
    International carbon dioxide emissions trading offers a potentially 
important tool for deploying technology to mitigate greenhouse gases, 
but that tool may be slipping from our grasp. Large-scale, inexpensive 
emissions mitigation opportunities exist in the transition economies--
Russia and Ukraine, for example--and a trading regime could provide the 
incentive for market adoption of technologies that will substantially 
reduce future emissions levels. But transition economies have 
encountered difficulty in organizing a transparent and effective 
trading system, a condition that may be worsened if U.S. policy suggest 
that we have abandoned our commitment to ``flexible mechanisms'',\10\ 
as agreed in the Framework Convention on Climate Change. Much more 
serious cooperation with transition economies will be needed to 
encourage establishment of serious mechanism to deploy emissions-
mitigating technologies.
---------------------------------------------------------------------------
    \10\ Aleksandr Avdiushin, Martin Dasek, Henryk Gaj, Inna 
Gritsevich, Susan Legro (editor), Jaroslav Marousek, Bedrich Moldan, 
Natalia Parasiuk, Nikolai Raptsoun, Andrei Sadowski, Vasyl Vasylchenko, 
Marie Havlickova, Aleksandr Kolesov, Bedrich Schwarzkopf, and Svetlana 
Sorokina, ``No-Regrets Options in Climate Change Mitigation Policy: 
Lessons from Transition Economies,'' Battelle, Pacific Northwest 
National Laboratories, May 1997; Meredydd Evans, ``Demand-side energy 
efficiency and the Kyoto mechanisms'', European Council for an Energy-
Efficient Economy, 2001 Summer Study, Paper 6.126.
---------------------------------------------------------------------------
    The needs and opportunities for international energy cooperation 
are thus large and urgent. The costs and risks are modest in relation 
to the potential gains. Our best opportunities include helping build 
local leadership capacity, supporting energy-sector reform, and helping 
finance the market penetration of energy-efficient and environmentally 
benign energy technologies. Shifting to this brand of international 
energy cooperation, the panel found, would provide more benefit to 
American security, trade, and its environment than the general approach 
to technical assistance.
    Policy-makers might find encouragement and challenge in these 
ideas. Concerns that climate and environmental protection policy would 
lead to greater, not less, command and control appear exaggerated. The 
literature suggests that transition to markets and competition will 
actually help cut emissions growth, at least up to a point. Concern 
that cutting emissions growth in developing countries would cost 
impossible sums and retard economic development also appears misplaced. 
But confidence that markets will readily work and that technology will 
eventually solve the carbon emissions problem seem naive. Markets 
remain distorted, fuel and capital are wasted on a large scale, and 
opportunities for efficiency and environmental protection are 
squandered. Most developing and transition economies lack the tax, 
regulatory, and incentive programs to address the energy and climate 
challenge. Markets will not alone create the advanced technology 
necessary to even approach the goal of the United Nations Framework on 
Climate Change stabilizing concentrations of greenhouse gases. The 
magnitude of change required is such that only some significant shift 
in markets such as an agreement to limit emissions per unit of energy 
produced, or a functioning emissions trading system would make 
meaningful change achievable.

    The Chairman. Thank you very much.
    Dr. Friedman, why don't you go right ahead.

    STATEMENT OF DR. ROBERT M. FRIEDMAN, VICE PRESIDENT FOR 
 RESEARCH, THE H. JOHN HEINZ III CENTER FOR SCIENCE, ECONOMICS 
                      AND THE ENVIRONMENT

    Dr. Friedman. Thank you. Good morning. I am Bob Friedman 
with the Heinz Center. We are a nonprofit, non-partisan 
environmental policy research organization here in Washington. 
I am delighted to be here.
    I would like to briefly present some conclusions from 
research we performed about 2 years ago, funded by EPA, on 
technology policies for reducing greenhouse gas emissions. We 
were focusing not so much on the specific technologies but 
really on the suite of primarily voluntary policies available 
to encourage their development and adoption. And if I can leave 
you with just one message today, it is this, that R&D is vital, 
but R&D alone is not enough. Let me expand.
    We looked at over a dozen policy tools. We, of course, 
looked at direct government funding of R&D in many stripes and 
flavors, but we also considered a series of approaches to 
induce private R&D or even modestly support production or 
commercialization, things like tax credits or Government 
procurement. And finally, we looked at a set of policies that 
really foster technology diffusion and deployment primarily 
through the use of information.
    In context, most of the policy discussions and actions to 
date have centered on funding levels for research and 
development and primarily for the Department of Energy. Again, 
clearly R&D is vital. The question we were asking was, is it 
enough? And if not, what else is needed?
    Our conclusion: if we diversify our approach, not just 
diversify the portfolio of technologies, but policies as well, 
we will more effectively accelerate the development and 
adoption of new technologies.
    We looked at several areas where technology development has 
really played a large role, not just energy and the 
environment. We also looked at defense and electronics. 
Interestingly, we held a workshop for R&D managers from 
industry where we basically asked them which of these policies 
might be most productive for their firms and sectors, and that 
was very instructive for us.
    Let me tell you briefly about three conclusions from our 
work.
    First, our Nation's portfolio of technology policies really 
could be better balanced in two ways. On one side, we need more 
support for radical innovation, support for those really new 
ideas, and on the other side, better structured policies for 
promoting diffusion and deployment of these new technologies.
    Second, almost any portfolio of technology policies aimed 
at greenhouse gas reduction would gain added force if we had 
complementary price signals or regulatory initiatives. The 
point here is that pulling innovations into the marketplace 
through incentives often leads to better solutions than just 
technology push alone.
    My final point is to ask you to seriously consider having 
the Federal Government prepare what we began calling technology 
policy road maps. This last notion is a somewhat odd idea, new 
idea, and it is one that I particularly want to highlight. I 
think this idea came primarily from industry that we worked 
with who felt very strongly about the need for a diverse 
portfolio of policy approaches. They emphasized to us that each 
industry differs not only in the technologies they use, but in 
factors such as the significance of intellectual property 
protection, the willingness of firms to work together, and a 
whole host of other factors. Our collaborators really suggested 
that if the Government were truly serious about tailoring these 
technology policies to the needs of specific sectors and to 
specific technology challenges, it should undertake joint 
planning with industry and other interested parties to produce 
these technology policy road maps.
    These are really expansions of the more traditional 
technology R&D road maps pioneered by the semiconductor 
industry and currently used by lots of others, including DOE. 
However, these policy road maps would not only foster knowledge 
creation but also address commercialization and eventual 
diffusion on a sector-by-sector basis. Of course, this is vital 
to the success of this mission.
    I would like to just thank you for the opportunity to speak 
with you this morning, and with your permission, I would like 
to submit a summary * of our work for the record along with 
these remarks.
---------------------------------------------------------------------------
    * The summary has been retained in committee files.
---------------------------------------------------------------------------
    The Chairman. We will be glad to include that in the 
record.
    [The prepared statement of Dr. Friedman follow:]
   Prepared Statement of Dr. Robert M. Friedman, Vice President for 
 Research, the H. John Heinz III Center for Science, Economics and the 
                              Environment
    Good Morning. I am Robert Friedman, Vice President for Research at 
The H. John Heinz III Center for Science, Economics and the 
Environment. The Heinz Center is a non-profit, non-partisan, 
environmental policy research organization that brings together people 
from industry, environmental groups, government, and academia to work 
together on environmental and natural resource problems.
    I will briefly present the conclusions from some research we 
performed about two years ago on ``Technology Policies for Reducing 
Greenhouse Gas Emissions,'' funded by the Environmental Protection 
Agency. We were focusing not so much on the specific technologies, but 
the policy tools available to encourage their development and adoption. 
If I leave you with but one message, it is this: R&D alone is not 
enough.
    In all, we considered over a dozen policy tools. We of course 
looked at direct government funding of R&D--money to firms, 
universities, or government labs. We also considered approaches to 
induce private R&D, or even modestly support production or 
commercialization, for example, tax credits, production subsidies, or 
government procurement. And finally, we looked at policies that foster 
technology diffusion and deployment through information transmittal and 
learning. (See Table 1 for pros and cons of these approaches.) We 
considered only voluntary measures, that is, we did not (in this study) 
look at such environmental policy tools as regulation or emissions 
trading.
    Most of the policy discussions and actions to date have centered on 
funding levels for research and development, primarily by the 
Department of Energy. Clearly R&D is vital. Our question was, is it 
enough? If not, what else is needed?
    Our conclusion: if we diversify our approach, we will more 
effectively accelerate the development and adoption of new technologies 
for lowering emissions of greenhouse gases (GHGs). But the design task 
is not simple. GHG sources are widely dispersed throughout the economy. 
Thousands of technologies are involved.
    Our research looked at several areas where technology development 
played a large role, in particular, defense and electronics, in 
addition to energy and the environment. We also held a workshop for R&D 
managers from industry, in essence asking them which of these policies 
might be most productive for their firms and sectors.
    I want to tell you about three key conclusions from our work:

  <bullet> First, our Nations's portfolio of technology policies for 
        addressing GHG emissions could be better balanced in two ways: 
        1) more support for radical innovation and 2) better structured 
        policies for promoting diffusion and deployment of new 
        technologies. The scale and scope of worldwide GHG emissions 
        imply that radical innovation will be needed for substantial 
        reductions. But innovations, whether incremental or radical, 
        have little impact until widely diffused. ``Breakthroughs'' 
        sometimes originate in research, but not always: the 
        microprocessor began as a pure exercise in engineering design.
  <bullet> Second, almost any portfolio of technology policies aimed at 
        GHG reduction would gain added force from complementary price 
        signals or regulatory initiatives. ``Pulling'' innovations into 
        the marketplace through incentives often leads to better 
        solutions than does ``technology push.''
  <bullet> Third, the Federal Government--working with industry, 
        universities, and environmental groups should expand the effort 
        to construct technology R&D ``roadmaps'' into broader 
        technology policy roadmaps for addressing GHG release.

    This last notion is one that is new, and one that I particularly 
want to highlight. This idea came from our industry participants, who 
felt strongly about the need for a diverse portfolio of policy 
approaches. They emphasized that each industry differs, not only in 
technologies, but in factors such as the significance of intellectual 
property protection and the willingness of firms to work together. The 
participants suggested that if government were truly serious about 
matching a portfolio of technology policies to specific sectors and 
technology challenges, it should undertake joint planning with industry 
and other interested parties to produce what we came to call technology 
policy roadmaps.
    These policy roadmaps are expansions of the technology roadmaps 
pioneered by the semiconductor industry and currently others, including 
DOE. However, such policy roadmaps would not only foster knowledge 
creation, but also address commercialization and eventual diffusion on 
a sector-by-sector basis.
    Thank you for the opportunity to speak with you this morning. With 
your permission, I will submit a summary of our work for the record 
along with these remarks. More extensive documentation is also 
available on the web.\1\
---------------------------------------------------------------------------
    \1\ ``Technology Policies for Controlling Greenhouse Gas Emissions: 
Project Summary,'' ``Technology Policies for Controlling Greenhouse Gas 
Emissions: A Taxonomy,'' by John A. Alic, and ``Meeting Summary: 
Workshop on Technology Policies for Controlling Greenhouse Gas 
Emissions,'' are available at www.heinzctr.org or by request from The 
Neinz Center.

                                          Table 1.--TECHNOLOGY POLICIES
----------------------------------------------------------------------------------------------------------------
            Group/Policy <SUP>a</SUP>                             Advantages                          Disadvantages
----------------------------------------------------------------------------------------------------------------
                                           Direct Funding of R&D/DD&D
----------------------------------------------------------------------------------------------------------------
1. R&D contracts with private firms..  Proven effectiveness in mission agencies,   In the absence of a clearly
                                        especially defense.                         defined and widely accepted
                                                                                    mission can be hard to
                                                                                    defend politically and to
                                                                                    manage.
----------------------------------------------------------------------------------------------------------------
2. R&D contracts and grants with       Well established procedures in agencies,    Not obvious how much
 universities.                          ample experience.                           university research has to
                                                                                    contribute to GHG reduction,
                                                                                    where the greatest needs may
                                                                                    be for applied technologies.
----------------------------------------------------------------------------------------------------------------
3. Intramural R&D conducted in         Excellent capabilities in some              Laboratories less integrated
 government laboratories.               laboratories.                               into technological
                                                                                    infrastructure than
                                                                                    universities.
----------------------------------------------------------------------------------------------------------------
4. R&D contracts with consortia that   Collaboration helps define appropriate      Limited experience base
 include two or more of the actors      technical objectives.                       compared to policies  1-3.
 above.
----------------------------------------------------------------------------------------------------------------
         Indirect Support for R&D/DD&D; Direct or Indirect Support for  Commercialization and Production
----------------------------------------------------------------------------------------------------------------
5. R&D tax credits...................  Generalized research and experimentation    Difficult to link with GHG
                                        tax credit, in place in various forms       reduction. Some analyses
                                        since early 1980s, has been popular,        indicate existing credits
                                        uncontroversial.                            tend to subsidize work that
                                                                                    would be conducted anyway,
                                                                                    provide only a modest
                                                                                    incentive for new R&D. The
                                                                                    credit has never been made
                                                                                    permanent, which has
                                                                                    probably reduced its impact.
----------------------------------------------------------------------------------------------------------------
6. Tax credits or production           Well-suited in theory to fostering          Little experience with such
 subsidies for firms bringing new       technologies with evident potential for     policies, which are likely
 technologies to market.                GHG reduction.                              to be labeled as ``corporate
                                                                                    welfare'' by opponents.
                                                                                    Susceptible to political
                                                                                    manipulation that could lead
                                                                                    to support for second-best
                                                                                    technologies.
----------------------------------------------------------------------------------------------------------------
7. Tax credits or rebates for          Same as above, but tend to ``pull''         Same as above, though less
 purchasers of new technologies.        technologies into the marketplace, which    likely to attract lobbying
                                        can be more desirable than ``pushing''      because benefits are harder
                                        them.                                       to channel to particular
                                                                                    interests.
----------------------------------------------------------------------------------------------------------------
8. Government procurement............  Can be powerful where government is a       Federal purchases (and
                                        significant customer.                       leases) have much more
                                                                                    leverage for some GHG
                                                                                    sources (buildings) than
                                                                                    others (production of
                                                                                    primary metals).
----------------------------------------------------------------------------------------------------------------
9. Demonstration projects............  Can be effective for technologies that are  Tainted by past undertakings
                                        relatively well understood in principle     widely viewed as wasteful
                                        but for which practical application and/    and ineffective, including
                                        or market opportunities have yet to be      energy projects. New
                                        fully explored.                             institutional learning would
                                                                                    probably be required to re-
                                                                                    establish demonstration
                                                                                    projects as a viable
                                                                                    instrument.
----------------------------------------------------------------------------------------------------------------
                                            Information and Learning
----------------------------------------------------------------------------------------------------------------
10. Education and training...........  The most powerful single mechanism for      Diffusion is relatively slow
                                        diffusion of knowledge.                     via established channels
                                                                                    (e.g., university degree
                                                                                    programs); quality of
                                                                                    shorter education and
                                                                                    training courses highly
                                                                                    variable, may be hard for
                                                                                    potential participants to
                                                                                    judge.
----------------------------------------------------------------------------------------------------------------
11. Codification and diffusion of      Many well-established channels (reference   Not a traditional role for
 technical knowledge.                   documents, consensus best practices,        government (with exceptions
                                        computer-aided engineering methods and      such as public works).
                                        databases, technical review articles,       Existing channels slow,
                                        etc.).                                      especially those that depend
                                                                                    on consensus.
----------------------------------------------------------------------------------------------------------------
12. Technology/ industrial extension.  Suited to case-by-case problems (e.g.,      Labor-intensive, hence
                                        energy utilization in small manufacturing   costly; relatively new in
                                        firms).                                     the United States and may
                                                                                    not be fully accepted.
----------------------------------------------------------------------------------------------------------------
13. Technical standards <SUP>b</SUP>............  Once in place, can have broad, deep, and    Standards often represent
                                        lasting impacts.                            compromises among competing
                                                                                    private interests with
                                                                                    limited public-interest
                                                                                    input. Standards-setting
                                                                                    processes slow.
----------------------------------------------------------------------------------------------------------------
14. Publicity, persuasion, consumer    Possible to reach large numbers of          Competing interests may
 information.                           decisionmakers at relatively low cost.      attenuate, perhaps distort,
                                                                                    messages coming from
                                                                                    government, despite efforts
                                                                                    to provide unbiased
                                                                                    information.
----------------------------------------------------------------------------------------------------------------
<SUP>a</SUP>  The taxonomy omits policies such as intellectual property protection that create generalized incentives for
  innovation.
<SUP>b</SUP> This eniry reers only to technical standards intended to ensure commonality (e.g., driving cycles for testing
  automobile fuel economy and/or emissions) or compatibility (e.g., connectors or charging electric vehicle
  batteries), not to regulatory standards.


    The Chairman. Dr. Levine, you are the cleanup hitter here.

STATEMENT OF DR. MARK D. LEVINE, DIRECTOR, ENVIRONMENTAL ENERGY 
 TECHNOLOGIES DIVISION, LAWRENCE BERKELEY NATIONAL LABORATORY, 
                          BERKELEY, CA

    Dr. Levine. Well, thank you very much. It is a real 
privilege and pleasure to be here. I am from Lawrence Berkeley 
National Laboratory, as you indicated.
    I am here to address two topics. The first is a very brief 
summary of the Clean Energy Futures study that was conducted by 
a group of five national laboratories. It was funded by the 
Department of Energy and the Environmental Protection Agency. 
The analysis, however, is that of the authors. It is our 
report, not the Government's report. Of course, I am speaking 
for myself but will summarize the main features of the study.
    This was a comprehensive assessment of technologies and 
policies to address energy-related challenges to the Nation. 
The study concluded that accelerating the development and 
deployment of energy efficient and renewable energy 
technologies could significantly reduce the growth of 
greenhouse gas emissions, oil dependence, air pollution, and 
economic inefficiencies. The study also concluded that the 
overall economic costs and benefits of policies to bring about 
these impacts appear to be roughly comparable to one another. 
In other words, it is affordable to do this.
    We looked at three different scenarios. By the way, this 
went to the year 2020. A business-as-usual case, a moderate 
case, moderate policies in a sense, and an advanced case, 
advanced meaning tougher policies and advanced technologies. We 
had a portfolio of policies in all the cases, as I said, 
tougher ones in the advanced case. An important difference 
between the advanced case and the moderate case was that we had 
a carbon charge that could have resulted through a cap and 
trade system or other means of $50 a ton carbon emissions, and 
this had the effect of moving natural gas to replace coal for 
many powerplants.
    Let me tell you the results of those scenarios. This is a 
very detailed, quantitative analysis, obviously, of course, 
based on many different assumptions, all of which we tried to 
make very explicit.
    In 2020, carbon emissions are reduced by about 10 percent 
in the moderate case compared with the expected business-as-
usual case and about 30 percent in the advanced case, bringing 
emissions in the advanced case down to 1990 levels by 2020.
    Oil use was reduced by 2 million barrels a day in the 
moderate case, 5 million barrels a day in 2020 for the advanced 
case, again bringing oil use back to about 1990 levels.
    We were able in this scenario to cut emissions of 
pollutants by a factor of 2 in the advanced case. An important 
impact in the advanced case was that coal use declines by 
almost 50 percent, a major impact on the coal industry as 
natural gas, as I said, replaces coal.
    However, an important point has to do with the use of 
natural gas and the growth of natural gas. In the cases we 
looked at, natural gas grows for both the moderate and the 
advanced case by about 22 percent by the year 2020, but in the 
business-as-usual case it grows by 33 percent. So, in fact, in 
spite of the fact that we are backing out coal, replacing it 
with natural gas, because of energy efficiency, because of the 
growth of renewable energy systems, and because of the 
maintenance and life extension of nuclear powerplants, by doing 
all those things, one can contain growth of natural gas. A 
terribly important issue.
    Now, I want to point out our study does not make any policy 
recommendations. This is really an analysis of what could 
happen if one adopts certain policies. It is meant to be a 
background or framework for analyzing the problem and one that 
we hope will be seriously considered as a part of that 
framework.
    One matter stands out particularly strongly. We have heard 
it from the other speakers, and that is in all the scenarios 
that we talk about, a necessary ingredient, and certainly for 
the advanced case, is R&D. R&D for advanced technologies, 
advanced energy technologies, are critical even in this 20-year 
time frame for addressing climate change issues and more and 
more important as one goes into a longer time period.
    I want to turn to R&D very briefly and I wanted to 
illustrate from our laboratory some results of R&D. I think it 
has been inadequately recognized that Government supported R&D, 
generally combined with industrial partners, has had a huge 
impact over the years in enabling energy demand reductions and 
thus reductions in carbon emissions to take place. As I said, I 
will use LBNL's work, but I use that to illustrate the point. 
There is other work in many other laboratories around the 
country and you can hear very similar stories in those cases as 
well.
    We did work in three technologies, and this is explained in 
an addendum to my testimony. Back in the 1970's and 1980's the 
construction of a computer code to analyze energy use in 
buildings is now used by virtually all architect/engineering 
firms in the country who design complex buildings.
    We were instrumental in creating the electronic fluorescent 
ballast, which is the forerunner of the compact fluorescent, 
more efficient fluorescent lamps.
    We were very active in creating advanced window coatings, 
which have achieved substantial market penetration. This is the 
one case where we did not have policy that drove these things. 
In the other cases, policies were quite instrumental in bring 
these technologies to bear.
    Our analysis shows that these three technology developments 
from some time ago result in a net lifetime savings to the 
country of on the order of $40 billion. That is growing every 
year as these products move into the market. The assumption 
behind these calculations was not that the technologies would 
not have been developed, but that they would have been 
developed later. So, we are not taking full credit for all of 
it. Now, all of that at a cost of less than half a billion 
dollars. So, those investments alone would pay for lots of 
other R&D, much of which is successful, not all of which is 
going to be successful.
    My final point is that there continues in the pipeline 
tremendous R&D opportunities that are going to be absolutely 
essential if we are going to deal either with our range of 
energy problems or with the problem of emission of carbon. I 
give examples in my addendum of work, again, that we are doing. 
Let me just list them very quickly.
    Energy efficient and safe torchiere lightings, that is the 
lamp that projects onto the ceiling and has been made with 
halogen lamps. They are very hot, very inefficient. We have 
developed a compact fluorescent version. They do not cause 
fires. I am hoping that they will move rapidly into the 
marketplace.
    We are looking very hard at reducing standby power losses 
which turn out to be the energy used when you have equipment 
plugged in that is just sitting there and not doing anything 
useful. That turns out to be projected to be one of the largest 
growths of energy in buildings and it is nonproductive.
    We have a technology that is moving rapidly into the 
marketplace and will have a big impact of ceiling ducts, that 
is, the ducts that carry the air from the furnace or the air 
conditioner to the house. Typically those ducts, amazingly 
enough, lose 20 percent of their energy, that is to say, are 
heating or cooling the outside. We have efficient furnaces, 
thanks to appliance standards, but we are not delivering the 
product to the right place.
    Other examples, efficient burners. We are concerned about 
urban heat islands, reducing heat in urban areas, reflecting 
more a new lamp that is very efficient, and other developments 
like that.
    So, in conclusion, I want to indicate the value of the R&D 
that has been done so far, and I want to support very strongly 
the need for R&D if we are going to address climate change not 
only in efficiency. We need it in supply technologies. We need 
it in exploratory research. We need it in the full range of 
areas.
    Thank you very much.
    [The prepared statement of Dr. Levine follows:]
 Prepared Statement of Dr. Mark D. Levine,\1\ Director, Environmental 
 Energy Technologies Division, Lawrence Berkeley National Laboratory, 
                              Berkeley, CA
    I am pleased to participate in the portion of your hearing on 
technology solutions to address greenhouse gas emissions.
---------------------------------------------------------------------------
    \1\ The statements in this testimony are the views of Dr. Mark D. 
Levine and do not necessarily reflect those of either the University of 
California or of the Lawrence Berkeley National Laboratory.
---------------------------------------------------------------------------
    I will first introduce myself. I have been involved in energy 
matters, as an analyst and/or R&D manager continuously since 1972. I 
have worked for the Ford Foundation Energy Policy Project, SRI 
International, and Lawrence Berkeley National Laboratory (since 1979). 
I presently lead the division at the Berkeley Lab that does most of our 
energy research. The emphasis of our division of more than 400 staff 
members is energy efficiency R&D. I serve on various board of directors 
of energy non-profit organizations, have been a lead author of the 1995 
and 2000 mitigation assessments for the Intergovernmental Panel on 
Climate Change, and am one of the authors of the Clean Energy Futures 
study, which will be a portion of my testimony today.

                              INTRODUCTION
    I address two topics in this testimony. First, I provide an 
overview of the Clean Energy Futures Study. The executive summary of 
that report and the first chapter, Integrated Analysis and Conclusions, 
provide the full details, so I hope that my summary will be 
sufficient.\2\ Second, I want to talk about an important implication of 
this study and other analyses on the critical role of energy technology 
R&D in addressing the reduction in energy-related greenhouse gas 
emissions.
---------------------------------------------------------------------------
    \2\ ``Scenarios for a Clean Energy Future,'' ``Interlaboratory 
Working Group on Energy-Efficient and Clean Energy Technologies,'' 
ORNL/CON-476, LBNL-44029, NREL-TP-620-29379, November 2000. Available 
at http://www.ornl.gov/ORNL/Energy--Eff/CEF.html
---------------------------------------------------------------------------

               OVERVIEW OF THE CLEAN ENERGY FUTURES STUDY
    The Clean Energy Futures Study is a comprehensive assessment of 
technologies and market-based policies to address energy related 
challenges to the Nation. It deals with the period to 2020. The report 
was commissioned by the U.S. Department of Energy and co-funded by the 
U.S. Environmental Protection Agency. The analysis was performed by 
researchers from five national laboratories: Oak Ridge National 
Laboratory, National Renewable Energy Laboratory, Lawrence Berkeley 
National Laboratory, Argonne National Laboratory, and Pacific Northwest 
National Laboratory. The study reflects the results of analysis of its 
authors and does not speak for DOE.
    The study concludes that accelerating the development and 
deployment of energy efficient and renewable energy technologies could 
significantly reduce greenhouse gas emissions, oil dependence, air 
pollution, and economic inefficiencies. The study concludes that the 
overall economic costs and benefits of policies to bring about these 
impacts appear to be comparable.
    In reaching this conclusion, the study addressed three scenarios: 
business as usual (BAU), moderate, and advanced cases. BAU is similar 
to the Energy Information Administration forecast of U.S. energy future 
through 2020.
    The moderate case has an array of market-based policies and 
programs including a 50% increase in cost-shared energy R&D, expanded 
voluntary programs, and selected tax credits. The advanced case has 
more aggressive policies including a doubling of R&D, voluntary 
agreements to increase auto fuel economy and to promote energy 
efficiency in industry, renewable energy portfolio standards, and a 
domestic cap and trading system on carbon that results in a $50/tonne 
charge on carbon.
    Some of the important findings of the study are:

  <bullet> CO<INF>2</INF> emissions in 2020 are reduced by 9% in the 
        moderate case and 29% in the advanced case, almost back to 1990 
        levels in the latter case. One important difference between the 
        moderate and advanced case is the $50 per tonne carbon trading 
        value in the latter. Carbon trading is a key policy leading to 
        reductions in carbon emissions by promoting the replacement of 
        coal by natural gas.
  <bullet> Oil use in 2020 is reduced by 2 million barrels per day in 
        the moderate case and by 5 million barrels of oil per day under 
        the advanced scenario. In the advanced scenario oil use would 
        be about the same in 2020 as it is today.
  <bullet> Nitrogen oxide and sulfur dioxide emissions from electricity 
        production are cut in half in the advanced scenario.
  <bullet> Electricity demand grows by half a percent per year in the 
        moderate case to remaining about constant in the advanced case. 
        This compares to a growth of about 2%/y for BAU.
  <bullet> Coal use would be about the same as today under the moderate 
        scenario and 40% less under the advanced scenario.
  <bullet> Natural gas demand would grow as much as 22% (both advanced 
        and moderate cases) but much less than for the BAU for which 
        the increase was 33%. The reduced growth is because of greater 
        efficiency (end use and energy conversion) in the moderate and 
        advanced scenarios.
  <bullet> Renewable energy sources would grow 40-60%.
  <bullet> Nuclear would be 14% higher in the advanced scenario 
        (because of higher electricity prices) or 13% lower in the 
        moderate scenario (because of lower demand for electricity) 
        compared with BAU. No new nuclear plants would be built during 
        this time period.

    It is useful to put this study in perspective. First, the study 
makes no policy recommendations. It assesses a wide range of policies, 
programs, and technologies to describe energy scenarios for the nation. 
Its purpose is to describe what might be possible under a variety of 
circumstances and assumptions, rather than to prescribe what is to be 
done. Second, each reader needs to assess for herself the degree to 
which the different cases are achievable as well as the tradeoffs among 
different policies that underlay the scenario. The moderate case 
depends on a return to a policy environment somewhat reminiscent of the 
period between 1973 and 1986, in which energy and carbon emissions in 
the United States did not grow at all for 13 years. (The moderate case 
actually shows a 17% growth in energy demand over the 23-year study 
period.) The advanced case depends on significant advances in R&D and 
rapid entry of the R&D achievements into the marketplace. It is this 
quick entry into the market that is, I believe, of the greatest 
uncertainty.
    I would point out the need for greater analysis of the ability of 
various programs to bring about rapid penetration and to promote new 
technology over the coming years. Trials and assessments are needed. 
Extensive analysis is needed to assess individual policies. At the same 
time, it is clear that many of the approaches suggested in the Clean 
Energy Futures study deserve to be given serious attention.
    One matter stands out. In all of the scenarios described in the 
Clean Energy Futures studies, technology is a necessary ingredient in 
our efforts to reduce greenhouse gas emissions. R&D is an essential 
underpinning of any effort to improve the nation's energy future as 
well as to address greenhouse gas emissions.

                  IMPORTANCE OF ENERGY TECHNOLOGY R&D
    I noted earlier that the U.S. economy grew by 35% from 1973 to 1986 
while energy use grew 0%. Much of that reduction in energy intensity 
came from the production, sale, and use of more energy-efficient 
technologies. Those technologies were made possible by research and 
development. Much of that R&D came from the public sector.
    I think it has been inadequately recognized that the government-
supported R&D has had a huge impact over the years in enabling energy 
demand--and thus carbon emissions--to grow more slowly than would 
otherwise have been the case. The U.S.--and the global community--would 
be much poorer without this R&D.
    I want to use our own work at LBNL to illustrate the benefits that 
the nation has received from energy efficiency and environmental R&D. I 
use these examples because I am most familiar with the work. However, 
R&D in other areas of energy technology is equally important and there 
have been numerous successes. From the vantage point of greenhouse gas 
emissions, we need to develop better ways of finding natural gas, 
clearly the choice fuel for the United States. We need to pursue R&D on 
a host of renewable energy technologies, to continue the progress of 
bringing their prices down to competitive levels. We need to continue 
to learn how to use coal more efficiently--reducing greenhouse gases--
and ultimately to convert coal to hydrogen. We need to study ways of 
capturing and sequestering carbon dioxide.
    Let me repeat that I've used examples from research at Lawrence 
Berkeley National Laboratory because I am familiar with this research. 
Many other research institutions working on many different facets of 
energy technology R&D could provide similar examples of successes that 
have had favorable impacts on the U.S. economy and environment.
    The attachment shows examples of some of our R&D successes. The 
first page of the handout lists many of these achievements (which are 
more fully described in the following pages.) This page also shows that 
three early achievements (from the 1980s)--the DOE/LBNL building energy 
analysis tool, electronic ballasts for fluorescent lamps, and advanced 
window coatings--have resulted in an estimated net lifetime savings 
from products purchased to date of more than $40B! \3\ Although much of 
the costs to achieve these savings were from product development and 
marketing costs paid by the private sector, they would not have been 
possible without the federal R&D program. The total cost of all R&D on 
energy efficiency at LBNL over the past 25 years was less than $0.5 
billion in today's dollars.
---------------------------------------------------------------------------
    \3\ See end notes at the conclusion of this paper for a description 
of what is meant by net lifetime savings and for brief notes on the 
calculation.
---------------------------------------------------------------------------
    The handout shows additional R&D successes. We are actively working 
with private firms to bring these products into use as quickly as 
possible. However, it takes many years for products to move from the 
lab to the marketplace. It is thus too early to assess the full impacts 
of the R&D. But it is already clear that these products will have 
significant impacts.
    This is all directly relevant to the main topic of this panel--
mitigation of climate change. If we have to rely on existing 
technologies to reduce carbon emissions, we can achieve some reductions 
(at least in growth) over the next decade or so. That is, there is a 
backlog of technologies that have not yet been fully adopted in the 
market, and there are tools to bring them forward. But this is a quick 
fix to a long-term problem, and current technology is not nearly 
adequate to address the problem. In my view, we need to expand:

  <bullet> R&D on energy efficiency technologies to make affordable 
        reductions in greenhouse gas emissions over the coming several 
        decades and longer;
  <bullet> R&D on natural gas development, also likely to have impacts 
        in the coming few decades;
  <bullet> R&D into low or no carbon energy supply technologies, 
        including renewable energy and electricity systems, more 
        efficient fossil fuel conversion to electricity, and nuclear 
        power (and especially the problem of long-term high-level 
        radioactive waste storage);
  <bullet> Exploratory research efforts on the hydrogen economy, 
        practical methods to apply fusion for electricity, and carbon 
        sequestration.

                               CONCLUSION
    The Clean Energy Futures study provides a quantitative analysis of 
possible futures to reduce energy-related greenhouse gas emissions, oil 
imports, and local air pollution. While offering no specific policy 
recommendations, the study does provide a basis for assessing energy 
futures for the country, and does identify programs and policies that 
could promote greater measures of energy efficiency than will occur in 
the base case, thereby achieving reductions in the growth of greenhouse 
gases and other benefits.
    Regardless of our future energy path in the near term, we will find 
ourselves without adequate means of combating greenhouse gas emissions 
without serious attention to energy technology R&D. Previous experience 
with federal energy technology R&D--illustrated by specific cases from 
one laboratory--show very substantial net benefits to the nation. These 
examples were largely in energy efficiency R&D. But R&D will be needed 
in numerous energy areas for us to achieve affordable ways of reducing 
greenhouse gas emissions.

                               END NOTES
    Lifetime savings mean the energy savings from all products 
purchased to date. Thus, a product purchased today continues to save 
energy over its lifetime and these savings are included in the figure. 
Net savings means that the added cost of the energy efficiency 
attributes of the product is deducted from the benefits.
    The savings from the use of the building design tool are lifetime 
savings resulting in increased use of energy efficiency features for 
buildings that have been designed using this code (most large 
commercial buildings in the United States).
    The savings for window coatings and electronic ballasts are for all 
of these products purchased to date minus the added first cost of the 
products. The calculation assumes that such products would have come 
onto the market but slower and five years later without the LBNL R&D 
program.
    Net lifetime savings from appliance standards of almost $50B are 
also shown in the handout. Berkeley Lab has provided a staff of 25 
professionals to do the analysis.
    The full documentation of the impacts of these technologies--and 
the R&D that led to them--is under review at this time. The review may 
cause the final numbers to be higher or lower than reported here. The 
savings from appliance standards are well documented in the Department 
of Energy Technical Support Documents and in various publications by 
LBNL staff.

    The Chairman. Thank you all very much for your testimony.
    Let me ask Dr. Levine about a specific issue which I 
believe you have some expertise on and that is air conditioner 
efficiency. As you know, the prior administration had an 
efficiency standard that they had arrived at relative to air 
conditioners, and that was rolled back a couple of months ago. 
I guess I would be interested in any comments you have as to 
the appropriateness of the standard that was earlier arrived 
at, and also how big an issue is this? Does it really impact 
significantly on the amount of energy used, or is this 
something that is sort of lost in the noise, particularly I 
guess at the peak times when we have the blackouts around the 
country, particularly in California?
    Dr. Levine. I am glad you mentioned the peak issue.
    I think the issue of the level of the standard was a 
difficult one in the previous administration. They originally 
came out with an SEER 12 in the notice of proposed rulemaking 
and then later went to 13, and now there is discussion of 
rolling it back to 12. It is a hard call. The technical 
analysis could have supported either, depending on some 
assumptions that you made. That is why the original proposal 
was for 12. So, I think it has become a politically important 
issue but technically it is very difficult for me to say very 
much between the two.
    However, on the peak power issue, I think a great deal can 
be said. I think the fact that this is now a controversial 
issue gives us an opportunity to do something that is crucial. 
We need to look at how to design air conditioners and optimize 
them for peak power, how you can have them as efficient as 
possible at the time of peak. We also need to look at the 
question of putting chips into air conditioners so that you can 
control them during a period of peak power so that when your 
cost of electricity is very, very high, you have a way of 
controlling the air conditioner itself. We worry about air 
conditioners especially for peak power. It is a huge impact on 
peak and maybe we can use this opportunity to address the 
question of how we can design air conditioners to deal with 
that problem.
    The Chairman. Let me ask Dr. Friedman. Your concept of 
technology policy road maps I think is an interesting one. We 
are preparing to develop and mark up legislation here in the 
Senate, which we hope will address many of the issues that have 
been talked about here this morning. We are trying to figure 
out what the right policy should be in a legislative sense, the 
extent to which the Federal Government should involve itself in 
promoting use of particular technologies or development of new 
technologies and the extent to which we should be incentivizing 
the actual use of technologies by people. Do you have any other 
thoughts about how we get from here to there in the next 3 or 4 
weeks? How developed is your technology policy road map in this 
area?
    Dr. Friedman. Three or 4 weeks is a tough one. I think the 
notion that we were considering and trying to put forth was 
what we need to do is this sort of exercise on a more 
continuing basis and with more direct involvement of industry 
directly, the recipient end of some of these policies. I think 
institutionally it is a tough one. This sort of consideration 
might happen in the Office of Science and Technology Policy, or 
it might happen with identification of a couple of lead 
agencies.
    How you can do this, however, this quickly--maybe the best 
to do is to set up the institution and get the institution 
running. As James Edmonds points out, climate change will be 
the impact of cumulative emissions. It will also be the impact 
of cumulative policies, the policies that we put in place and 
modify periodically over the next decade. Maybe we just need to 
get started with that process of getting folks together and 
being a little more deliberate on the choice of particular 
policies that we choose.
    The Chairman. Mr. Chandler, let me ask you. You have had a 
lot of experience dealing with foreign governments and 
foundations, as I understand it. Are there things that we could 
be doing that would facilitate getting the right technology to 
some of these foreign countries that would really be of 
assistance? Is there technology that we have available to us 
that we need to make more readily available to other countries, 
and if so, how do we do it?
    Mr. Chandler. To accelerate deployment, the problem is 
overcoming barriers to the adoption of not just new 
technologies but existing technologies. We recommended on the 
International Energy Panel of the President's Council of 
Science and Technology Advisors that capacity building be a 
high priority. Examples of what can work include the creation 
of some institutions for the promotion of energy efficiency 
that I have been involved with. We helped organize six energy 
efficiency centers in countries as diverse as Russia and China 
in which we invested in helping local expertise to address 
their own problems of policy and to organize the resources, 
including financial resources, to implement and deploy 
technology. The kinds of things that those centers can do 
include, for example, in Ukraine the organization of investment 
in private industry to replace glass furnaces in a bottle 
making factory. To overcome these barriers, investing in reform 
and in capacity building is a high priority.
    The Chairman. Let me ask Dr. Edmonds. You pointed out that 
we need a diverse technology portfolio clearly in order to 
ensure that we have energy in the future and get away from a 
reliance on fossil fuels to such an extent. What do you see as 
the right role for the U.S. Congress in moving us in that 
direction? Should we just have a robust budget for research and 
development? Should we have a whole phalanx of tax incentives 
to encourage people to use these technologies? Should we do 
some combination of those or something else, as you see it?
    Dr. Edmonds. Thank you, Senator. That is actually a very 
difficult question.
    I think you are absolutely correct when you recognize the 
point I am making about the need for a diverse technology 
portfolio. Part of that portfolio is going to have to be 
delivered by the private sector. But there is a role for 
government and the role for government in delivering 
technologies has to do more with creating the optimum 
conditions. If you look at the basic energy research, that does 
not get undertaken by the private sector. If you look at the 
biotechnology research that holds such promise, you do not 
expect that to be undertaken independently by the private 
sector. So, the public sector has an important role in 
supporting those very basic research needs.
    I would hope that in fact as we go forward into this long-
term problem--and again, it is such a long-term problem that it 
is very difficult for me even to really appreciate it, after 
having worked in this field for a quarter of a century. But 100 
years is just a staggering amount of time, and yet there is 
such a staggering amount that needs to be accomplished in that 
period.
    That very first point that I made about the concentrations 
and non-emissions, since it is cumulative emissions that turn 
into a concentration, the stabilization of the concentration 
means that emissions by the middle of the century for the whole 
world are going to have to peak and begin this very long-term 
decline.
    I would hope that one of the investments we would make 
would be investments that could help make it possible for the 
fossil fuels, which are the current backbone of our energy 
system, to continue to play an important and central role in 
providing the energy services that we are all going to need. 
That is not to deny the importance of the variety of other 
technologies. But, for example, the potential for carbon 
capture and sequestration I think is an important research and 
development investment opportunity. If we can develop 
technologies that allow us to capture carbon and store it in 
geologic formations where it will not return to the atmosphere, 
then we have really changed the fundamentals of the problem and 
made it exceedingly easier for us to move into this regime 
where emissions are getting arbitrarily small.
    The Chairman. Well, thank you all very much for your 
testimony. I think it has been a useful hearing, and we will 
follow up with additional questions as we get closer to 
actually developing a bill. Thank you very much for being here.
    [Whereupon, at 11:58 a.m., the hearing was adjourned.]
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

                                    The National Academies,
                                                   August 13, 2001.
Senator Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Senator Bingaman: In response to your letter of July 9, 2001, 
we have forwarded the follow-up questions from Senator Hagel and 
Senator Murkowski to Dr. F. Sherwood Rowland, Dr. Eric Barron and Dr. 
John Wallace. The responses to the specific questions represent the 
individual views of the panelists, and were not subject to formal 
National Research Council review. The responses represent the 
panelists' accumulated knowledge of the subject and their involvement 
in, and knowledge of, the wide array of NRC reports related to the 
science of climate change.
    On behalf of the National Research Council, I thank you and the 
members of the Committee on Energy and Natural Resources, for your 
interest in the results of this recent NRC study on climate change 
science.
            Sincerely,
                                   Warren R. Muir, Ph.D.,
                                           Executive Director,
                                           Division on Earth and Life 
                                               Studies,
                                           National Research Council.
               Responses to Questions From Senator Hagel

                               NAS REPORT
    Question. Dr. Richard Lindzen, who also participated in the NAS 
study, wrote the following in the June 11 edition of the Wall Street 
Journal regarding media reports suggesting that the report represented 
unanimous decision that global warning is real and is caused by man.
    ``As one of the 11 scientists who prepared the report, I can state 
that this is simply untrue. For starters, the NAS never asks that all 
participants agree to all elements of a report, but rather that the 
report represents the span of views. This the full report did, making 
clear that there is no consensus, unanimous or otherwise, about long-
term climate trends and what causes them.''
    Would you agree with Dr. Lindzen's assessment of the full report?
    Answer from Dr. Rowland. I believe that the first paragraph of the 
summary fairly represents the contents of the report. I certainly 
believe that by far the most probable overall explanation for the vast 
amount of climate change data now available is succinctly described by 
the brief phrases ``global warming is real and is mostly caused by 
man.'' But such a summary leaves out the uncertainties outlined in the 
first paragraph of the Summary and in many places throughout the 
document and in my use of the words ``most probable''.
    The greenhouse gases have certainly accumulated in the atmosphere 
during the 20th century, and a major cause for the increased emissions 
of carbon dioxide, methane, and nitrous oxide and the sole cause for 
the emissions of the chlorofluorocarbons have been the activities of 
mankind. The greenhouse effect itself is not in question--it exists and 
the Earth was about 57 deg.F (32 deg.C) warmer in 1900 than it would 
have been without the natural levels of carbon dioxide, methane, 
nitrous oxide and water vapor. (The chlorofluorocarbons are entirely 
man-made and were not present in the atmosphere in 1900. The 
concentration of water vapor in the atmosphere is ultimately controlled 
chiefly by the temperature of the ocean, which can be indirectly 
affected by man through the other greenhouse gases.) The ability of 
increased concentrations of these gases to trap additional outgoing 
terrestrial infrared radiation, with a consequent increase in global 
average temperature, is not really questioned either. When additional 
heat is added to the atmosphere, a chain of consequences is initiated, 
and different scientists will have their own candidates for the most 
probable chains and varieties of consequences. When one asks for the 
full range of regional description covered by the word ``climate'', 
then it is obvious that consensus does not exist.

                            GREENHOUSE GASES
Carbon Dioxide
    Question. As we know carbon dioxide is emitted and absorbed through 
a variety of natural cycles. In the NAS report, you stated that HALF of 
the carbon dioxide emitted during the 1990s by the use of fossil fuels 
was absorbed, mostly by the oceans and land, and did not remain in the 
atmosphere. How much do we know about the role of the oceans?
    The NAS report also stated that tropical deforestation added 10-40% 
as much carbon dioxide to the atmosphere as the burning of fossil 
fuels. And that during the 1990s the net storage of carbon by land 
vastly increased. Doesn't this suggest to you that a much greater 
understanding of the role of the oceans and the use of better land and 
forestry management practices that increase carbon sequestration could 
play a very significant role in helping to counter emissions of carbon 
dioxide?
    Answer from Dr. Rowland. The oceans are the ultimate major sink for 
carbon dioxide, and therefore play a crucial role in our efforts to 
understand and improve the global management of its greenhouse 
contribution. An important difference between the atmosphere and the 
oceans is the difference in overall mixing times for the transfer of 
energy and materials throughout the entire system. The time scale of 
concern about physical changes in the Earth systems with respect to 
global warming is essentially decadal, and because the major greenhouse 
gases tend to redistribute themselves globally more rapidly than that, 
we can obtain a useful understanding of carbon dioxide and methane with 
a relatively small number of measuring stations--and the atmosphere is 
readily accessible to measurement. The world's oceans do not 
interchange heat and salinity globally within the decadal time frame, 
and therefore a much denser network of measurement capability is 
required for a comparable understanding and predictability. The shallow 
oceans are not the initial repository of global warming energy, but in 
the end most of the heat is absorbed there, with its further transfer 
to the deep ocean a limiting step on the century-long time scale. It is 
perhaps significant that some of the most urgent concerns about the 
consequences of global warming are connected with possible alteration 
of current methods of oceanic heat transfer. Two prominent examples are 
the questions of the frequency and intensity of El Nino, and the 
possibility of a waning intensity for the Gulf Stream.
    There is an analogy here with the shorter-lived greenhouse forcings 
in the atmosphere, such as tropospheric ozone and the various 
particulate components such as black soot. The time scales of these 
phenomena are likewise faster than the atmospheric mixing times and a 
denser network of measurements in time and space, carried out over a 
decade or more is required for quantitative assessment of their 
greenhouse contributions.
    The key questions with carbon sequestration processes are how long 
the material will be stored in locations other than the atmosphere, and 
what are the costs associated with the processes. In general, the 
species of trees which last for hundreds of years grow in the colder 
regions of the planet, and any sequestration process, which allows its 
carbon to return to the atmosphere in a few decades through decay is 
not very significant for the solution of the century-long overall 
global warming problem. This means study not only of the initial uptake 
of carbon dioxide, but the longevity of the sinks into which it has 
gone. Obviously, much of this involves intensive study of the world's 
forests.
Methane
    Question. The NAS study points to methane as a greenhouse gas whose 
impact ``could be slowed or even stopped entirely or reversed.'' And 
that ``with a better understanding of the sources and sinks of methane, 
it may be possible to encourage practices that lead to a decrease in 
atmospheric methane and significantly reduce future climate change,'' 
and this could happen ``rather quickly.'' Is this true? Why are we not 
focusing more on methane, as Dr. James Hansen suggested in his study 
last August, since we have much of the technology needed to mitigate 
against this gas?
    Answer from Dr. Rowland. The sink for methane is well known--
primarily it is destroyed by reaction with hydroxyl radical in the 
atmosphere. The major methane sources have also probably all been 
identified and qualitatively evaluated. However, the limits on 
quantitative measurements of the various source strengths are their 
large number and their diversity. Methane has an atmospheric lifetime 
of about one decade, in comparison to the century scale lifetimes of 
carbon dioxide, nitrous oxide and chlorofluorocarbons, so that 
successes in mitigation can be observed and verified in only ten or 
twenty years. It is true that some of the needed technology is readily 
available--for example, eliminating leaks in long distance pipelines 
used for transferring natural gas. It is also a fact that the rate of 
growth in atmospheric methane concentrations has slowed in the 1990s 
relative to that of the 1980s. The reasons for this slowing are not 
well understood, and probably were independent of concerns about the 
contribution of methane to global warming. A reduced demand for natural 
gas in the slumping ex-Soviet economy (and the corresponding reduction 
in leakage during transmission) may have played a role in its reduced 
emission rate in the 1990s. Clearly, an excellent opportunity exists to 
explore ways in which methane emissions to the atmosphere can be 
reduced, but as often is the case, the devil is in the details.
    Because of its decadal lifetime, the atmospheric concentration of 
methane can respond more rapidly than carbon dioxide to mitigation 
steps. The most important sources for methane release into the 
atmosphere include biological reactions in flooded rice paddies, in the 
stomachs of cows and from natural wetlands--it has long been known as 
``swamp gas'' because of this emission source. In addition, methane is 
the main ingredient in natural gas, and occurs as well in conjunction 
with deposits of oil and coal.
    In many situations, an economic incentive has always existed for 
preventing the escape of methane to the atmosphere because of its 
marketability as a fuel. However, upkeep and repair of transmission 
lines has an economic cost as well, and the current sales quota for 
methane delivery at the outlet end of the pipeline can often be met by 
ignoring the leaks and raising the inlet pressure into the pipeline, 
albeit at the expense of diminishing future fuel reserves. The 
apparently minimal economic value for capture of gaseous fuels at the 
well-head is demonstrated by the commonplace observation of the flares 
from burning gas as it escapes.
    The emission of almost half a pound of methane per day per cow 
represents a substantial loss to the atmosphere from the total carbon 
feed intake of the animal. Efforts to redirect the digestive processes 
toward forms of carbon useable in cattle growth have an obvious 
economic advantage by reducing the amount and cost of feed, and have 
been an ongoing project in the cattle industry for some decades. While 
some isolated successes have been reported on very small scales, 
verification and then application on a global scale to 1,500,000,000 
animals requires penetration of the techniques to hundreds of millions 
of small farmers in every country of the world. Manipulation of rice 
planting to suppress methane emission will also require extensive 
experimentation, and subsequently, if the result is successful, 
diffusion of the control techniques to small farmers throughout many 
tropical countries. Such implementation may not take place rapidly--the 
``green revolution'' of the early 1970s has not yet reached many 
African farmers simply because they cannot afford the seeds.
Black Soot
    Question. As you know, black soot is not addressed in the Kyoto 
Protocol. And yet it may have a very real impact on global warming. Dr. 
James Hansen has written about this extensively and has briefed the 
White House on the effects of black soot in the atmosphere. The NAS 
report states that ``there is a possibility that decreasing black 
carbon emissions (black soot) in the future could have a cooling effect 
. . .'' Is this true and how much do we know about the role of black 
soot? Wouldn't you suggest that it is an area that should be looked at 
along with carbon dioxide, methane and other greenhouse gases?
    Answer from Dr. Rowland. Certainly we need to investigate all of 
the potential contributors to the greenhouse effect, and black soot is 
one of them. As discussed more fully below, I do not believe that 
actions with respect to the greenhouse gases for which the level of 
scientific certainty is much higher should be delayed pending 
completion of studies on black soot and other aerosols.
Solar Variability
    Question. The NAS report indicates that, ``It is not implausible 
that solar irradiance has been a significant driver of climate during 
part of the industrial era.'' As a non-scientist, it seems very 
plausible to mean that the sun could have an impact on global warming. 
That would make sense. In fact, Dr. Sally Baliunas of the Harvard 
Smithsonian Center for Astrophysics has done some innovative research 
in this area and has been able to directly correlate increases in the 
Earth's temperature with increased solar activity. Would you please 
comment on this?
    Answer from Dr. Rowland. The National Academy of Sciences has been 
very interested in the question of the effects of solar variability on 
climate and weather for the past two decades, and has issued several 
reports involving this subject, including the 1982 report ``Studies in 
Geophysics: Solar Variability, Weather and Climate'', the 1988 report 
on ``Long Term Solar-Terrestrial Observations, and the more recent, 
``Solar Influences on Global Change'', issued in 1994. Over the distant 
past, variations in solar output have undoubtedly been responsible for 
some of the changes in Earth's climate and its average temperature. 
However, the present best explanation for the series of ice ages, which 
swept over Earth during the past 400,000 years relies, on changes in 
the orbital mechanics of the Earth-Sun relationship--changes which 
affect the fraction of solar radiation, which is delivered to the polar 
region of the northern hemisphere in summer, rather than variations in 
the amount of energy delivered by the sun.
    A major difficulty in searching for cause-and-effect relationships, 
or even correlation, between solar output and terrestrial response is 
the absence of a long record of the quantitative energetic output of 
the sun. This difficulty has been approached in the past by 
substitution for the actual energy release from the sun of various 
proxy measurements of solar activity--for example, the formation of 
radioactive isotopes such as carbon-14 in the upper atmosphere, the 
waxing and waning of sunspots on the solar disk in an approximate 11-
year solar cycle, variations in the apparent length of this sunspot 
cycle, etc.
    I was personally involved in 1986-1988 in an evaluation of the 
contribution of the solar cycle to the amount of ozone in Earth's 
atmosphere, and we concluded that the atmosphere held about 1% to 2% 
more ozone at the peak of the sunspot cycle versus the amounts of ozone 
present during quiet periods. [``Report of the International Ozone 
Trends Panel 1988'', Volume 1, Chapter Four, F.S. Rowland et al., pages 
179-382.] This kind of analysis of other contributory changes is 
necessary in order to determine whether long-term non-cyclical changes 
are occurring. (Other contributions affecting total ozone 
concentrations, which were evaluated at the same time included the 
well-known yearly cycle peaking at the end of winter, nuclear bomb. 
testing in the atmosphere, and the 26-month cycle in stratospheric wind 
directions known as the QBO.) We would have preferred then to have a 
long series of direct measurements of the intensity of very hard 
ultraviolet radiation (i.e., the most energetic, which creates the 
ozone initially) but such data did not exist, and do not really exist 
now. We therefore resorted to a comparison of total ozone measurements 
with one of the proxy measurements of the intensity of solar aetivity--
the 12-month running average of the observed sunspot intensity. This 
comparison indicated that the variation of total ozone with the 11-year 
solar cycle, and by implication, with the UV intensity within that 
cycle, was 2% or less and could be separated from the search for any 
long-term trend in total ozone concentrations.
    Fortunately, accurate direct measurements of the total energy 
output of the sun without atmospheric interference to the instrumental 
operation have become available from several satellites carrying 
acronyms such as ERB, ACRIM and ERBE. These satellites have been 
reporting data from space over the past two decades and have detected a 
cyclic variation in solar energy output at a level only 0.1% higher at 
the maximum of solar cycle activity than in the quietest periods. (The 
percentage change in hard ultraviolet emission mentioned above is much 
larger than in the visible and infrared wavelengths, which carry most 
solar energy to the Earth.) Any residual long-term trend in solar 
energy output has been much less than 0.1% during these 20 years. 
Furthermore, during 1991-1993, the transmission of the energy of 
sunlight into the atmosphere was partially hindered (that is, some of 
it was reflected back to space without ever being absorbed into the 
atmosphere) by the sulfate layer debris from the June 1991 volcanic 
eruption of Mount Pinatubo in the Philippines. The global temperature 
responded quickly to this reduction in absorbed solar energy, with a 
transient lowering of temperature by 1 deg.-2 deg.C which lasted about 
two years, demonstrating that the temperature responds quickly to 
changes in absorbed solar energy. In the case of the observed warming 
of the globe during the past 20 years, it is quite clear that solar 
variability has been a negligible contributor.
Knowledge of Factors other than CO<INF>2</INF>
    Question. I would like to point your attention to a chart contained 
on page 15 of the NAS study.
    This chart lists the gases, compounds and natural factors that have 
been shown to have a warming or cooling effect on the earth's climate 
and compares the level of scientific understanding about each factor. 
According to this chart, we have a relatively good understanding of 
carbon dioxide, nitrous oxide and methane. But when you get into the 
areas of black soot, clouds, land use, and solar activity--our level of 
scientific knowledge drops to ``very low.'' Don't you think we should 
attempt to gain a much better scientific understanding of these 
factors, especially before this country would commit itself to anything 
like the kind of drastic actions called for under the Kyoto Protocol?
    Answer from Dr. Rowland. Our committee did not address this policy 
question. As a personal opinion, I would answer ``no.'' In quick 
summary, the amounts in the atmosphere of the greenhouse gases--carbon 
dioxide, methane, nitrous oxide and the chlorofluorocarbons (CFCs)--
have unquestionably increased between the years 1800 and 2001, with 
most of these increases occurring during the last 50 years. We know 
that a very plausible scientific mechanism exists--the trapping by the 
greenhouse gases of outgoing terrestrial infrared radiation--for the 
normal greenhouse effect, warming the Earth by 57 deg.F during the 19th 
century and for millennia before that, relative to the temperature 
expected if all of the terrestrial infrared radiation were to escape to 
space. We also know that the increases in accumulated greenhouse gases 
since the Industrial Revolution offer a very plausible mechanism for an 
enhanced greenhouse effect--and it is the magnitude of this 
enhancement, and not the existence of the greenhouse effect, which is 
the object of our current concern. Finally, we know that the Earth's 
surface has warmed by slightly more than 1 deg. Fahrenheit over the 
past century, with about half of that taking place during the past two 
decades, and that rapid change has many possible negative effects--
including the economic changes associated with sea level rise, 
increased storm frequency, drying of Midwestern agricultural land, 
lessening of the snow-pack in the Sierras, etc. In my view, this 
situation is close enough to a direct cause-and-effect relationship to 
warrant current action.
    With regard to the other factors about which we have ``very low'' 
certainty, all of these share a common factor of wide regional and 
temporal variability that separates them from the greenhouse gases. The 
major greenhouse gases are all emitted into an atmosphere which is in 
constant motion, and which mixes these worldwide within a year or two--
rapidly enough for them to have similar concentrations everywhere in 
the lower atmosphere. These gases can readily be monitored and 
evaluated anywhere and such measurements have been made in many 
localities. Furthermore, these data have been collected for many 
decades in enough locations to establish the changes, which have 
occurred on a global basis with rather high accuracy. The trapping of 
air in bubbles encapsulated in glaciers and in Greenland and Antarctica 
has extended this knowledge for the major greenhouse gases back to the 
time long before the industrial revolution through the last four major 
series of ice ages--in total, going back more than 400,000 years. The 
atmospheric levels of carbon dioxide varied from about 190 parts per 
million by volume (ppmv) during the coldest ice age times to 280 ppmv 
in the warm periods, including the present one to the year 1800. The 
current concentration is about 370 ppmv, rising at 1.5 ppmv/year. The 
current methane concentration of 1.77 ppmv is also far above the range 
of levels (0.30 during the coldest periods; 0.70 in the warmest) which 
were present over the past 400 millennia.
    The common characteristic of the possible contributors other than 
these greenhouse gases is that the changes in concentration are very 
localized, but occur all over the globe, often varying from day to day. 
The consequence is that the detection of global average change requires 
highly specific regional and local data, taken nearly everywhere over a 
substantial period of time. This period of data collection is really 
only starting, and the ``substantial period of time'' may well require 
several decades. Certainly, we should be working very hard to establish 
the detailed understanding of each potential contributor, and its role 
in the overall effect. However, in my opinion, the most likely outcome 
of these studies is that some will turn out not to be very significant 
on a global basis, some may make the impending warming less severe and 
some may make it more severe, with the contribution from the greenhouse 
gases still the major influence.
    The greenhouse contribution of tropospheric ozone (formed by smog, 
and by biomass burning--the clearing by fire of forests and/or 
agricultural waste) share this characteristic of large local and 
regional differences, with short enough lifetime in the atmosphere that 
thorough mixing does not occur. In this particular case, we know that 
an important contributor to total tropospheric ozone is its formation 
during automotive transport in urban locations, and that such ozone has 
a negative effect on humans and agriculture in and downwind of the 
locality where it is formed. Therefore, I believe it makes sense to 
mount strong efforts to control ozone formation in every urban location 
around the world because of the immediate benefits for the local 
population, with the diminution of its contribution to the greenhouse 
effect as an added global benefit. Recent research has shown that the 
downwind effects of ozone in smog can extend for thousands of miles, so 
there is even an incentive for countries to assist in smog control for 
countries an ocean away. Good knowledge exists now about how to reduce 
urban ozone formation (e.g., catalytic converters) but application of 
this knowledge tends to wait until the local pollution effects have 
already become nearly intolerable.

                            COMPUTER MODELS
    Question. Just how reliable are computer models? Isn't it true that 
two of the models the U.S. relies on (from Britain and Canada) have 
produced different results?
    Answer from Dr. Barron. Computer models, to a large degree, reflect 
the state of the science--our best current ability to represent the 
physical processes that govern the climate system. However, climate 
models are, of necessity, simplifications of the actual complex natural 
system. For this reason, climate model results are characterized by 
substantial uncertainty. The U.S. Global Change Research Program 
(USGCRP Report 95-01) attempted to quantify the level of reliability of 
climate models by holding a forum on Global Change Modeling designed to 
examine the use of climate models to inform policy. Although there have 
been substantial advances in climate models since this 1995 report, the 
structure of the statements on the reliability of climate models is 
still appropriate. The reliability of the model results depends on the 
scale and on the variable being predicted by the model.
    For example, the IPCC and the NRC report ``Climate Change Science'' 
give a range for the increase in globally averaged surface temperature 
(2.5 to 10.4 deg.F) by 2100, relative to 1990. It is considered likely 
that an increase within this range will occur. The reasons are 
straightforward. We know that greenhouse gases selectively absorb 
radiation emitted from the Earth's land, oceans, and clouds and that 
there are a number of feedbacks that enhance the direct effects of the 
selective absorption. Therefore, warming is very likely with increased 
concentrations of greenhouse gases. At issue is not whether the Earth 
will warm due to human activities; the issues are how fast and by how 
much. By giving a range for the temperature increase, much of the known 
uncertainty about climate models is incorporated into the estimate of 
future global warming. Hence, climate scientists have confidence that 
if greenhouse gas emissions continue according to the IPCC emission 
scenarios, then the globally averaged warming will likely fall within 
the range of 2.5 to 10.4 deg.F by 2100. Our confidence also begins to 
grow with the demonstration that climate models can reproduce the 
record of change during the last century when the combined effects of 
aerosols, solar variability and greenhouse gases are included as the 
forcing terms in the climate models.
    On the other hand, specific predictions about the course of climate 
change over the next several decades or for specific places on the 
earth are far more challenging to predict. Again, the reasons are 
relatively straightforward. The year-to-year and decade-to-decade 
changes are difficult to predict because there are many different 
sources of climate variability and their interactions are complex. 
Climate change in specific regions depends on the large-scale 
atmospheric circulation and on the local details of factors such as the 
land-surface characteristics. So far, it is impossible for global 
climate models to include this level of detail using modern computers. 
For these reasons, many of the details of climate change over the next 
decades and for specific regions of the Earth must be considered 
uncertain.
    The use of the climate models from the United Kingdom and Canada 
for the U.S. National Assessment provides good examples of the nature 
of the reliability of climate models. These two models were chosen 
following a set of criteria (spatial resolution, the completion of 
simulations from 1895 to 2100, ready availability of data, etc.) that 
are described in the National Assessment report. In addition, they were 
selected precisely because they captured a large part of the difference 
in modern climate simulations. Taking the Great Plains as an example, 
the U.K. model predicts an increase by 2100 of about 4-5 deg.F while 
the Canadian model predicts increases above 10 deg.F. This can be 
viewed as evidence of a lack of reliability, but on the other hand, all 
models (including these two examples) indicate significant warming. And 
importantly, even a climate model at the lower end of the range of 
sensitivity to increases in greenhouse gases still indicates a warming 
of at least 4-5 deg.F for the Great Plains. These two models also 
demonstrate that we know a great deal less about predicting how 
variables such as precipitation may change. The precipitation 
predictions for the U.S. northeast are very different. The reasons are 
that the northeast has a complex land surface, small changes in the 
path of winter storms create significant changes in regional 
precipitation, and summer precipitation (because of the small spatial 
scale of thunderstorms) is difficult to predict using global models. 
Therefore, the changes in precipitation predicted by climate models are 
associated with great uncertainty, and in fact, the two model results 
are very different. There are still other examples where predictions 
associated future water availability have higher levels of certainty 
even though there are some differences in the prediction of 
precipitation. For example, the Canadian model predicts a decrease in 
precipitation in the Great Plains south of the Dakotas. The U.K. model 
predicts an increase. Yet, both models raise concerns about water 
availability. Why? The reason is that both models predict that the 
average pattern of the circulation (westerly flow across the Rockies 
with subsiding air in the lee of the mountains) will be similar to the 
present pattern. Hence, the region will still exhibit a climate that is 
typical of the lee of a major mountain range 100 years from now. At the 
same time, both models predict warmer temperatures and hence greater 
evaporation. Therefore, both models predict a greater tendency toward 
future drought in large parts of this region. The Canadian model 
predicts the most intense drought conditions.
    The above discussion demonstrates that the question of model 
reliability is not a matter of simply accepting or rejecting model 
results. By considering the range of results and the physical basis for 
many of the changes projected by climate models, we can gain more 
confidence in many aspects of model predictions. The differences 
between models are also of great value. They help guide future research 
and ensure that we accept model results only with an understanding of 
their physical basis.
    Question. What is the current computer modeling ability in the 
United States?
    Answer from Dr. Barron. The current computer modeling ability of 
the United States is best articulated in two National Research Council 
reports ``Capacity of U.S. Climate Modeling to Support Climate Change 
Assessment Activities'' and ``Improving the Effectiveness of U.S. 
Climate Modeling.'' The U.S. climate research efforts are arguably the 
strongest in the world and have been instrumental in improving our 
understanding of climate and climate change. The weakness of the U.S. 
efforts is an inability to complete the high-resolution, long-term, 
climate simulations that are critical for assessing the impacts of 
climate change. The reason is clear--we are far from competitive in 
terms of the computational and human resources that are available when 
U.S. efforts are compared with a number of international efforts. The 
NRC reports cited above state that ``insufficient human and 
computational resources are being devoted to high-end, computer-
intensive, comprehensive modeling.'' There are several keys to 
improving the effectiveness of the U.S. efforts. These include (a) 
providing dedicated resources to enable the U.S. community to focus on 
activities that serve societally-important activities, such as national 
impact assessments, (b) access to the computer systems that best serve 
the needs of the climate modeling community, (c) greater U.S. 
coordination across the nation to maximize effectiveness (e.g. 
promotion of common modeling infrastructure), (d) resources that enable 
the climate modeling community to compete for highly skilled technical 
workers and increase graduate student enrollments, and (e) resources 
that promote effective delivery of climate services to the nation.

Disparities in the Levels of Warming During the 20th Century: Satellite 
        vs. Surface Temperatures
    Question. As stated in the NAS Report, most of the warming over the 
last century occurred before 1940, before large-scale emissions of man-
made greenhouse gases.
    Answer from Dr. Rowland. This is a truncation of the actual 
statement on page 3 of the NAS Report, which said, ``The observed 
warming has not proceeded at a uniform rate. Virtually all the 20th 
century warming in global surface air temperature occurred between the 
early 1900s and the 1940s and during the past few decades.'' Obviously, 
the past few decades have been the ones in which the large-scale 
emission of greenhouse gases has occurred. The most probable 
explanation for the drop in temperatures in the Northern Hemisphere 
between 1945 and 1970 is the presence during that period of an 
atmospheric sulfate layer from the burning of high sulfur coal. This 
layer reflected some sunlight back to space, providing a cooling effect 
to the atmosphere, which has been reduced in recent decades by the 
lowering of the sulfur content of the coal used in combustion.
    Question. In fact, North America experienced a cooling trend from 
1946-1975. In 1975, a NAS report led Science magazine to conclude in 
its March 1, 1975, issue that an ``ice age is a real possibility.'' In 
February 1973, Science Digest warned, ``Once the freeze starts, it will 
be too late.'' And Newsweek, in their April 28, 1975, issue reported 
that, ``the Earth's climate seems to be cooling down.''
    Of course, the ice age never came and now we're being warned 
against massive global warming. Is the span of two or three decades 
enough to provide a sound scientific basis to predict future climate 
change?
    Answer from Dr. Rowland. The meaning of this question is different 
depending upon whether the ``is the span of two or three decades enough 
. . .'' concerns two or three decades of additional study by the 
climate community, or two or three additional decades of accumulated 
data. However, my answer to both interpretations is yes. During the 
past three decades, the growth in concentrations of carbon dioxide, 
methane, nitrous oxide and the chlorofluorocarbons have all been firmly 
established, together with temperature increases that have made the 
1990s the warmest decade in the 140-year global thermometer-based 
temperature record, and the 1980s the second warmest decade.
    The strides in understanding of the climate system in the past 
three decades have been enormous, and can be seen by examining the 
possibility of climate change as understood and expressed in the early 
1970s. In the 258-page National Academy Report ``Weather and Climate 
Modification. Problems and Progress'', published in 1973, the comment 
is made in a short section on Climate Change (p. 152), ``The burning of 
fossil fuels contributes to the addition of carbon dioxide to the 
atmosphere. Heating of the atmosphere may occur as a result of altering 
the character of the surface of the earth or as a result of the release 
of heat to the atmosphere through a variety of combustion processes.'' 
This was followed by two pages (p. 154-155) summarizing what was known 
about carbon dioxide in the atmosphere. In contrast, the Third IPCC 
report this year runs to about 3,000 pages.
    In 1972, a conference held at M.I.T. had reported after their 
consideration of the timing of the ice ages which had occurred at 
regular intervals over the past 500,000 years, ``Global cooling and 
related rapid changes of environment, substantially exceeding the 
fluctuations experienced by man in historical times, may be expected 
within the next few millennia or even centuries . . .''. The 1975 NAS 
report ``Understanding Climatic Change. A Program for Action'' said (p. 
189) ``There seems little doubt that the present period of unusual 
warmth will eventually give way to a time of colder climate, but there 
is no consensus with regard to either the magnitude or rapidity of the 
transition. The onset of this climatic decline could be several 
thousand years in the future, although there is a finite probability 
that a serious worldwide cooling could befall the earth within the next 
hundred years.'' This expectation of eventual global cooling was based 
on what seemed the best explanation for the rise and fall of 
temperatures during the ice ages which periodically covered large parts 
of the Earth over the last few hundred thousand years. This expectation 
of an eventual general cooling is still the preferred conclusion from 
ice age timing, although improved calculations now place the onset of 
any major cooling more than 10,000 years in the future. Such a 
statement also implicitly assumes no major interference to the process 
by mankind.
    Much too frequently, present descriptions of the scientific 
statements about the conclusions in the early 1970s do not go back to 
the scientific statements themselves, and totally ignore the ``sometime 
in the next few thousand years'' nature of these expectations. There is 
an enormous difference between an expressed probability of one part in 
50 (that is, ``next century'' versus 5,000 years) and the current 
evaluation that the activities of mankind are the most likely cause of 
the warming occurring now.
    Question. Additionally, the NAS report state, ``The causes of these 
irregularities and the disparities in the timing are not completely 
understood.'' In addition, satellite temperatures, which have only been 
available since 1979 show very little warming of the air temperature in 
the troposphere over the last 20 years.
    First, which do you consider to be more reliable-satellite data, or 
surface temperature data gathered by humans in outposts such as Siberia 
and boats in the ocean?
    Answer from Dr. Wallace. The NRC devoted an entire report to this 
question Reconciling Observations of Global Temperature Change, 
released in January 2000. Finding #1 of that report is, ``Surface 
temperature is rising. . . . In the opinion of the Panel, the disparity 
between surface and upper air temperature trends during 1979-98 in no 
way invalidates the conclusion in the IPCC (1996) Report that global 
surface temperature has warmed substantially since the beginning of the 
20th century. . . . The warming of surface temperature that has taken 
place during the last 20-years is undoubtedly real, and it is at a rate 
substantially larger than the average warming of the 20th century. 
Finding #2 of the report is ``Based on current estimates the lower to 
mid troposphere has warmed less than the earth's surface during the 
past 20 years. . . .''
    Finding #1 represents a strong endorsement of the warming trend 
based on the surface observations. Finding #2 represents a somewhat 
more qualified endorsement of the much weaker warming trend in 
temperatures aloft indicated by the satellite observations.
    Question. Second, regarding the disparity between warming of the 
surface temperatures and the minor change in the atmospheric 
temperatures, this is what the NAS report concluded ``The committee 
concurs that the observed differences between surface and tropospheric 
temperature trends during the last 20 years is probably real.'' And 
that it ``is difficult to reconcile with our current understanding. . . 
.''
    What do you make of this? If the disparities are real, what does 
this mean for long-range climate change?
    Answer from Dr. Wallace. Clearly the disparity between surface 
temperature trends and upper air trends measured by satellite, remains 
one of the important scientific questions for understanding how climate 
is changing. As stated in the 2000 NRC report Reconciling Observations 
of Global Temperature Change, ``The various kinds of evidence examined 
by the panel suggest that the troposphere actually may have warmed much 
less rapidly than the surface from 1979 into the late 1990s, due both 
to natural causes (e.g., the sequence of volcanic eruptions that 
occurred within this particular 20-year period) and human activities 
(e.g., the cooling of the upper part of the troposphere resulting from 
ozone depletion in the stratosphere).''
    The issue of understanding long-range climate change involves 
having access to accurate and precise vertical measurements of 
temperatures. It is important to note that the disparity in temperature 
trends is based on a 20-year record of measurements. However, the 
increases in surface temperatures, which reflect a long-term data set, 
are consistent with the predicted temperature increases expected given 
the measured increase in greenhouse gases. Understanding the complex 
feedbacks, which control the vertical distribution of temperature, and 
being able to measure it accurately, is one of the challenges facing 
the scientific community.

                         FUTURE CLIMATE CHANGE
    Question. According to the NAS report, the scenarios used to 
predict future climate change assume the annual greenhouse gas 
emissions will continue to accelerate. Yet the report also states the 
increase in global CO<INF>2</INF> emissions has fallen below the IPCC 
scenarios. If this continues to hold true, would that require reducing 
estimates for future global warming?
    Answer from Dr. Wallace. It would slow the rate of greenhouse 
warming, but not level of warming that would ultimately be reached 
after all accessible deposits of fossil fuels have been exploited. A 
factor that has contributed to lowering the rate of greenhouse gas 
emissions in recent years is the conversion form coal to natural gas in 
China. After such conversions in China and elsewhere are completed, 
emissions are likely to increase more steeply again.
    Question. According to Dr. Richard Lindzen, one of your colleagues 
on the NAS report, a doubling of carbon dioxide by itself would produce 
only a modest temperature increase of one-degree Celsius. Would you 
please comment on this?
    Answer from Dr. Wallace. The build-up of greenhouse gases in the 
atmosphere has both a direct and indirect affect on temperature. The 
latter defines the ``climate feedback'' and can either amplify or 
dampen atmospheric temperature increases. The direct effect of doubling 
of CO<INF>2</INF> concentrations in the atmosphere is a 1.2 deg.C 
increase in the Earth's mean temperature. The remaining warming would 
result from the feedbacks within the system resulting from this 
increased temperature. For example, a warming may melt some of the sea 
ice. This is a positive feedback because the darker ocean absorbs more 
sunlight that the sea ice it replaced. The responses of atmospheric 
water vapor amount and clouds are considered to be the most important 
global climate feedbacks. Most atmospheric scientists believe that 
atmospheric relative humidity and the distribution of clouds will not 
change substantially as the climate warms. Under these assumptions, the 
direct radiative response to greenhouse warming would be approximately 
doubled. Dr. Lindzen believes that relative humidity will drop as the 
climate warms and that the fractional area of the tropics covered by 
deep clouds will decrease just about enough to cancel the positive 
feedback from water vapor. It is the lack of agreement concerning these 
hydrologic feedbacks that gives rise to the largest uncertainties about 
climate sensitivity.
    Question. The NAS report also states ``there are large 
uncertainties in underlying assumptions about population growth, 
economic development, life style choices, technological change, and 
energy alternatives.'' These are some very large variables. Chances are 
we will see vast improvements in technology and energy alternatives. 
And it seems to me that these kinds of changes could have a large 
impact and potentially decrease the estimates for future warming. Would 
you please comment on this?
    Answer from Dr. Wallace. It is true that there are large 
uncertainties in many of these variables that will limit our ability to 
make projections of global warming into the future. However, the 
lifetime of many of the greenhouse gases in question are long enough 
that adding them to the atmosphere today will continue to influence 
climate for centuries to come. We also know that it is not going to be 
easy to find acceptable alternatives to fossil fuels.
        ``acceptable concentration levels'' of greenhouse gases
    Question. I was very interested in the NAS reaction to the question 
about whether there is an ``acceptable concentration level'' of 
greenhouse gas emissions. The report stated that determining this would 
rely on a variety of factors--but it never answered the question. This 
is perhaps one of the most critical question that we, as policymakers, 
need answered. If we could be provided with this information, we could 
accurately define the policies needed to achieve this goal. Until then, 
we're shooting in the dark. Why wasn't that question answered? And when 
might the scientific community be able to provide such an answer?
    Answer from Dr. Barron. The report attempted to indicate why this 
is not a simple question. A ``safe'' concentration depends on the 
nature of societal vulnerability, the degree of risk aversion, the 
ability to adapt, the valuation of ecosystems, and on the sensitivity 
of the Earth system to climate change.
    The report cites a significant range in terms of plausible future 
climate change (e.g., the increase in globally averaged surface 
temperature from IPCC models ranges from 2.5 to 10.4 deg.F) by 2100. 
So, human perceptions of what constitutes a ``safe'' concentration will 
vary depending on the model sensitivity. This is the reason the report 
states that some regions are more sensitive than others to climate 
change and that the nature of the impacts will be far greater if the 
climate change is associated with a larger increase in globally-
averaged temperature. The difference between 2.5 and 10A deg.F is very 
large in terms of potential impacts. Although this range may well 
narrow over the next decade, we can expect that assessments of future 
climate change will always be described in terms of a range of 
plausible outcomes. As with many other aspects of society (e.g., 
insurance, investments, defense) we will have to make decisions even 
though some uncertainty remains. The foundation for these decisions 
will also become more robust as we develop modeling capabilities that 
are better designed to assess the impacts of climate change and invest 
more effort into examining the potential consequences of climate 
change.
    However, even with this additional information, the question will 
be difficult to answer because it will depend on value judgments and 
viewpoint. The following example is intended to clarify this issue. 
Suppose, as occurs in many climate models, that Nebraska and large 
parts of the Great Plains are characterized by an increased tendency 
toward drought, and that the decreased water availability has a large 
negative impact on the region's ability to compete in agricultural 
markets. At the same time, regions to the north or elsewhere achieve a 
longer growing season and/or have greater water availability, and are 
able to produce more crops and be more competitive on the world market. 
Many agricultural economists claim that, under these circumstances, 
climate change of this magnitude does not have a significant impact. 
They reason that human populations are able to produce sufficient food 
and fiber, only the place where this food is produced has changed. 
However, the residents of Nebraska and the large parts of the Great 
Plains might feel very differently. There are many such examples in the 
U.S. National Assessment of Climate Change Impacts in which there are 
both winners and losers, but if we aggregate to a sufficient level, the 
impact is much smaller.
    The valuation of natural ecosystems provides an even greater 
challenge. Many coastal wetlands (e.g., the Everglades) reef systems, 
and U.S. alpine environments are at risk according to the U.S. National 
Assessment. Many U.S. citizens place great value on these ecosystems, 
and therefore, they would place much more stringent criteria on the 
definition of ``safe.''
    Clearly, scientists need the resources to develop climate model 
simulations that are better suited to examining these impacts and the 
U.S. needs to invest greater resources into the science of assessing 
and evaluating the impacts of climate change. These investments will 
yield a stronger foundation for decision-makers. At the same time, the 
definition of ``safe'' is likely to continue to be dependent on 
viewpoint and value judgments. The impacts will not be uniformly 
distributed between nations and regions.
             Responses to Questions From Senator Murkowski
    Question. Is there a minimum amount of warming that most scientists 
would agree is certain to occur given an effective doubling of 
greenhouse gas concentrations?
    Answer from Dr. Wallace. This question speaks to the importance of 
understanding the direct and indirect effects of greenhouse gases. 
Scientists are virtually all agreed that a doubling of CO<INF>2</INF> 
would have a direct effect of increasing global mean temperatures by 
2.2 deg.F (1.2 deg.C). Most scientists believe that substantial 
additional warming would result from the feedbacks within the system 
resulting from this increased temperature. For example, a warming may 
melt some of the sea ice. This is a positive feedback because the 
darker ocean absorbs more sunlight than the sea ice it replaced. The 
responses of atmospheric water vapor amount and clouds are considered 
to be the most important global climate feedbacks. Most atmospheric 
scientists believe that atmospheric relative humidity and the 
distribution of clouds will not change substantially as the climate 
warms. Under these assumptions, the direct radiative response to 
greenhouse warming would be approximately doubled, yielding a global 
temperature increase of 4-5 deg.F.
    Question. Given the factor of four spread in global mean 
temperature predictions by climate models, how should decision-makers 
factor into their policy decisions the kinds of uncertainties you 
describe with regards to climate change and its impacts?
    Answer from Dr. Wallace. This is more a policy question than a 
science question. In my view, a prudent course would be to plan for the 
mid-range estimates, but to be prepared to make adjustments (either 
towards strengthening or relaxing measures to curb CO<INF>2</INF> 
emissions) if we discover that these estimates are too high or too low.
    Question. Your report also indicates that emissions of greenhouse 
gases have not been rising as fast as has been assumed in climate 
models.
    Would this slower rate of increase of greenhouse gases imply a 
slower rate of climate change than projected?
    Answer from Dr. Rowland. Climate change is generally the product of 
its forcing by accumulated greenhouse gases (and by other sources of 
forcing) multiplied by the sensitivity of the climate system. Both the 
accumulated forcing and the sensitivities have uncertainties attached 
to them, but whatever the actual sensitivity, a slower rate of increase 
of greenhouse gases should mean a slower rate of temperature change and 
therefore of climate change.
    The caveat here concerns the unstated assumption that change occurs 
rather smoothly--a little warmer each decade, a little more rain, etc. 
The possibility exists that more than one climate condition, sometimes 
quite different from one another, can exist for the world with only 
slight differences in the driving forces. Certainly in the past very 
different climates from that of the present have existed for a thousand 
years or more, and then abruptly altered to enter a still different 
climatic state. We have no way of knowing whether the appropriate 
metaphor for the present climate is a ``dial'' or a ``switch''.
    Question. Your report also indicates that emissions of greenhouse 
gases have not been rising as fast as has been assumed in climate 
models.
    Are there revised climate studies underway using these more modest 
emissions projections? What will be the likely result?
    Answer from Dr. Rowland. The answer is already in--lesser emissions 
lead to lesser concentrations and lesser temperature change in the year 
2100. The climate studies of IPCC did not have a lone future projection 
of emissions, concentrations and associated temperature change. Rather, 
they offered a wide range of such projections--42 scenarios in all. 
Comparison of existing scenarios with more modest emission projections 
than the average show smaller global temperature changes in the year 
2100. The scenarios used for the 3rd IPCC assessment included a wide 
range of possible rates of increase, with the variations in assumed 
alternate choice especially large for the period 2050-2100. These 
choices in the possible amounts of greenhouse gases are the source of 
much of the variability in predicted global temperatures for the year 
2100. The scenarios were constructed under a directive not to make any 
assumptions about possible human choices made out of concern about 
climate change. They did, however, investigate, for example, alternate 
choices of action versus no action in response to steadily worsening 
urban pollution.
    Question. What advice would you have for policy-makers then? Should 
we ignore the Summary for Policy Makers and read the full Technical 
Report instead?
    Answer from Dr. Barron. As stated in the report ``Climate Change 
Science,'' the Summary for Policymakers is consistent with the main 
body of the report. The main differences involve the manner in which 
the uncertainties are communicated. The SPM conveys levels of 
uncertainties through the use of terms such as ``likely'' or ``very 
likely.'' In some cases, the nature of the uncertainty is included. For 
these reasons, the SPM remains a very useful document. However, more 
information on the nature of the uncertainties is included in the 
Technical Report and this additional information is likely to enhance 
the ability to make good decisions.
    Question. How can these concerns be conveyed back to the IPCC in 
the hopes that the process of writing the Summary for Policy Makers 
yields a result that more accurately reflects gaps in our knowledge as 
well as that which we know?
    Answer from Dr. Barron. The contents of the report ``Climate Change 
Science'' are of great interest to the international community and a 
strong U.S. role is critical to the success of the IPCC process. 
Consequently, the contents will almost certainly be debated by the 
IPCC. A comprehensive review of various ``Assessment'' activities, 
ranging from the IPCC to the U.S. National Assessment of Climate Change 
Impacts, may be in order. Both of these specific activities have 
recently released reports and we have much to learn from examining the 
strengths and weaknesses of these important efforts.
    Question. Will the National Research Council convey your concerns 
with regards to future participation and self-selection to the IPCC 
itself?
    Answer from Dr. Rowland. This report provides guidance to U.S. 
policy makers regarding the IPCC following a direct request from the 
White House. The current 1PCC Chairman has a copy of the full NAS 
report. Many significant positive changes were made by the IPCC in the 
preparation of this Third Report in response to various comments 
received during and after the preparation of the Second Report, 
published in 1995.
    Question. Is if fair to say that this report does not agree with 
the sentiment that the science of climate change is ``settled''?
    Answer from Dr. Barron. The science of climate change is far from 
``settled.'' This is reflected by the range of climate model results 
and the number of uncertainties described within the report and the 
importance of these uncertainties in developing sound policies. 
However, the fact that there are uncertainties does not abrogate the 
fact that temperatures are rising and that the changes observed over 
the last several decades are likely mostly due to human activities, 
although we cannot rule out that some significant part of these changes 
is also a reflection of natural variability. Human-induced warming is 
also expected to continue through the 21st century. The mid-range of 
the IPCC estimates for the increase in globally-averaged surface 
temperatures (5.4 deg.F), based on the premise that concentrations of 
greenhouse gases will continue to increase, stems from state-of-the-
science models and is also consistent with other measures of climate 
sensitivity. Therefore, climate change is a critical problem and the 
national policy decisions that we make will influence the extent of any 
damage suffered by vulnerable human populations and ecosystems.
    Question. Isn't this conclusion at odds with those in the media and 
interest groups active on this issue who say that your report is a 
``call to action''?
    Answer from Dr. Wallace. Who should bear the burden of proof--those 
who call for actions to curb greenhouse gas emissions or those who 
oppose such actions--is a question of ethics, not science. In my view, 
to insist on draconian measures designed to avert even a remote threat 
of harm from global warming is absurd, but no more so than to insist on 
absolute certainty concerning the science of greenhouse warming as a 
prerequisite for taking any action to avert the risk. Those who regard 
our report as ``a call to action'' believe the threat of serious 
consequences of global warming is serious enough to warrant action at 
this time to slow the rate of increase of carbon emissions. Based on 
their reading of our report, they consider these consequences to be not 
just a remote threat, but a probable outcome, unless actions are taken.
    Question. What can the scientific community do to improve media 
reporting on not only the certain findings of scientific research, but 
also the uncertainties that remain?
    Answer from Dr. Barron. It is a challenge for the scientific 
community to influence the manner in which the media communicates 
scientific results. However, the Federal Coordinator for Meteorology, 
along with the major federal agencies that support research and 
operational atmospheric science activities, have recently asked the 
Board on Atmospheric Sciences and Climate to address this topic as a 
key part of its focus on ``Communication in the Atmospheric Sciences'' 
during its summer workshop to be held August 7-11, 2001.
    Question. Do you believe that any future U.S. climate change policy 
should make a value judgment on what this ``safe'' level is and 
organize its programs and policies towards that goal?
    Answer from Dr. Wallace. Given the wildly differing value judgments 
concerning greenhouse warming and its consequences, it would be very 
difficult to achieve a consensus on this issue.
    Question. The NRC committee opted not to--for good reason, I 
think--address the issue of what constitutes a ``safe level'' of 
greenhouse gases in the atmosphere, preferring to state that it is a 
value judgment that requires consideration of a number of complex 
factors.
    How can scientific research inform such a discussion--particularly 
if there are as many shortcoming in our understanding of the Earth 
system as your report describes?
    Answer from Dr. Rowland. Almost every decision governments (and 
people) make about the future is done with imperfect information, often 
with quite incomplete information. Will countries X, Y, or Z decide to 
try to develop nuclear or biological weapons, or procedures to disrupt 
the internet? Will they succeed, and if they do, what should we do? On 
a different level for which more and better information is available, 
what are the most likely forms of influenza virus to break out next 
year and should therefore be included in this year's flu vaccine?
    The NAS report rightly describes the uncertainties in our knowledge 
of the ingredients, which make up climate. What scientific research 
will do is continue to narrow the uncertainties, providing better 
information on which to base actions with future implications. However, 
the climate system includes many facts for which the present 
uncertainty is very small, and we shouldn't let the less-well-defined 
obscure the significance of what we already know rather well. The 
amount of carbon dioxide in the atmosphere was larger at the end of the 
1990s than it was at the end of the 1980s, and that statement has been 
true for every decade compared with the previous decade for the last 
200 years. The probability that the concentration of carbon dioxide 
will be higher in 2010 than it was in 2000 is not really in question, 
and the increase every decade will almost certainly continue until the 
middle of the 21st century and beyond even if actions begin now. Will 
the global average temperature rise if the carbon dioxide concentration 
continues to increase? Very high probability. Will this temperature 
increase have more adverse than beneficial effects on a global basis? 
In my opinion, quite likely.


</pre></body></html>
